            Rtparcd by the
       Offices of Inspector General
                   of d e
        Departitlent of Commetce
         Department of Defense
         Department of Energy
           Department of State
   Department d f Homeland Security
       Central Intelligence Agenty
        Department of Agriculture
Depa.ttment of Health and Human Services   Report   No.D-2005-043
                                                                           June 10, 2005
PREFACE

        We are providing this interagency report for information and use. This review
was conducted as a cooperative effort by the Offices of Inspector General of the
Departments of Agriculture, Commerce, Defense, Energy, Homeland Security, and State,
and the Central Intelligence Agency in response to Public Law 106-65, “National
Defense Authorization Act for FY 2000,” section 1402. The Act requires that the Offices
of Inspector General provide an annual report to Congress through 2007 on the transfer
of militarily sensitive technology to countries and entities of concern. Our report this
year focuses on the export licensing process for chemical and biological commodities.
        This report addresses issues that impact more than one agency and includes
separate appendixes containing the agency-specific reports. The report is in two
volumes. Volume I contains the interagency findings and the agency-specific reports
issued by the Departments of Commerce, Defense, Energy, State, and Agriculture.
Volume II contains the agency-specific report issued by the Department of Homeland
Security and a followup report on recommendations in previous years’ Offices of
Inspector General reports issued under Public Law 106-65. The Central Intelligence
Agency report is classified (SECRET//NOFORN); therefore, it is not included as an
appendix in this report. The Central Intelligence Agency Office of Inspector General
provided unclassified information which was included in the interagency report. There
are no interagency recommendations in this year’s report; therefore, management
comments on the interagency report are not required. However, management comments
on agency-specific draft reports were requested from the appropriate officials and, when
provided, were considered in the preparation of this report. Management comments
provided in response to individual agency reports are included in those reports.

        This interagency report is required by Congress and will support Congress and the
Administration in shaping the future of Federal export licensing policies and procedures
related to the license process for chemical and biological commodities.
                        Offices of Inspector General of the
       Departments of Commerce, Defense, Energy, State, Homeland Security,
                Agriculture, and the Central Intelligence Agency
Report No. D-2005-043                                                                         June 10, 2005

               Interagency Review of the Export Licensing Process for
                       Chemical and Biological Commodities

                                          Executive Summary

Introduction
Public Law 106-65, “National Defense Authorization Act for FY 2000,” section 1402,
requires the President to submit an annual report to Congress, each year through 2007, on
the transfer of militarily sensitive technology to countries and entities of concern. The
National Defense Authorization Act further requires that the Inspectors General of the
Departments of Commerce, Defense, Energy, and State, in consultation with the
Directors of Central Intelligence and the Federal Bureau of Investigation, 1 conduct an
annual review of policies and procedures of the U.S. Government with respect to their
adequacy in preventing the export of sensitive technology and technical information to
countries and entities of concern. An amendment to section 1402(b), in section 1204 of
the National Defense Authorization Act for FY 2001, further requires that the Inspectors
General include in the annual report the status or disposition of recommendations set
forth in previous annual reports issued under section 1402. This year, to comply with the
fifth-year requirement of the Act, the Offices of Inspector General (OIGs) conducted an
interagency review of the licensing process for chemical and biological commodities and
reviewed the effectiveness of coordination between the various Federal agencies during
the export licensing process for these commodities. Because the Department of
Homeland Security is also responsible for enforcing Federal export laws, the OIG for that
agency participated in this year’s review. In addition, because the Departments of
Agriculture and Health and Human Services 2 are also responsible for identifying and
controlling chemical and biological agents, the OIGs for these agencies participated in
this year’s review.

Background
The United States controls the export of dual-use commodities and munitions for national
security and foreign policy purposes under the authority of several laws, primarily the
Export Administration Act of 1979 3 and the Arms Export Control Act of 1976.
1
    The Federal Bureau of Investigation does not play an active role in the licensing process for export-
     controlled technology and therefore did not participate in this interagency review.
2
    Although the Health and Human Services OIG participated in the interagency review, their agency
    specific review was not provided for inclusion in the interagency report, and thus that agency is not a
    signatory.
3
    Export Administration Act of 1979, as amended, sec. 3; 50 U.S.C. app. sec. 2402(2). Although the Act
     expired on August 20, 2001, Congress agreed to the President’s request to extend existing export
     regulations under Executive Order 13222, dated August 17, 2001, thereby invoking emergency authority
     under the International Emergency Economic Powers Act.
Chemical and biological commodities are subject to the licensing requirements contained
in the Export Administration Regulations (for dual-use commodities) or the International
Traffic in Arms Regulations (for munitions). In FY 2003, 1,803 license applications
were submitted to Commerce and 717 license applications were submitted to State for
chemical and biological commodities.

Objectives
Our overall objective was to assess whether the current export licensing process can help
deter the proliferation of chemical and biological commodities. Specifically, we
examined whether current licensing and enforcement practices and procedures were
consistent with relevant laws and regulations, as well as established national security and
foreign policy objectives, such as those set forth in the Presidential National Strategy to
Combat Weapons of Mass Destruction, December 2002. In addition, we assessed the
effectiveness of coordination between the various Federal agencies during the export
licensing process for these commodities.

Review Results
The interagency review identified four areas covered in this report. Specifically, the
report focuses on the review of export licenses and enforcement, export issues for
registered entities, updates to the Commerce Control List, and Australia Group denials.

Review of Export Licenses and Enforcement. Although the export license application
review process was generally found to be adequate, Commerce OIG, Energy OIG, and
Central Intelligence Agency OIG identified areas where improvements were possible.
Specifically, Commerce OIG found that the timeliness of reviews could be improved,
guidance should be consolidated, the operating committee needs to sustain improvements
in timeliness, and that cumulative effect reviews should be performed. Energy OIG
found that some Energy licensing officers were unable to access Commerce’s export
license application database to identify changes to applications. Although the Central
Intelligence Agency OIG determined that the timeliness of munitions license application
reviews could be improved, the Central Intelligence Agency OIG found that changes to
internal administrative procedures resulted in timelier support in the second half of FY
2003. Defense OIG found that the processes used to review export license applications
were effective, and State OIG found that the State export licensing process was working
as intended. Finally, Homeland Security OIG found that U.S. Customs and Border
Protection personnel did not consistently enforce Federal export licensing laws and
regulations at all U.S. ports of exit.

Export Issues for Registered Entities. Commerce and Agriculture OIGs found that
their agencies could improve the awareness of registered entities of regulations regarding
the movement of dangerous biological agents or toxins. Commerce OIG reported that
there were 318 entities registered with Animal and Plant Health Inspection Service and/or
the Centers for Disease Control and Prevention to possess, use, and transfer the agents
and toxins on the Select Agent List. The registered entities are an excellent group for
Bureau of Industry and Security to reach and educate about export controls with minimal
effort. Agriculture OIG found that researchers at registered entities were not always
familiar with or did not always follow Commerce/Bureau of Industry and Security
exporting requirements. Specifically, Agriculture OIG found that 1 of the 10 registered
entities reviewed had exported a select agent also listed on the Commerce Control List
without obtaining the required license from Commerce. In addition, another registered
entity exported a biological agent that was subsequently added to the Commerce Control
List. This entity was unaware of the export licensing requirement. Overall, the lack of
                                             ii
awareness of exporting regulations could expose the country to potential biological
attacks by terrorists.

Update of the Commerce Control List. Commerce OIG found that Bureau of Industry
and Security, working with the other U.S. licensing agencies, is responsible for making
changes to the Commerce Control List to add any newly controlled dual-use items
resulting from changes to the Australia Group list of controlled chemical and biological
commodities. The Australia Group is a multilateral regime dedicated to curbing the
proliferation of chemical and biological weapons. Prior to 2004, Australia Group
changes took, on average, 11 months to be incorporated in the Commerce Control List.
However, the changes resulting from the June 2004 Australia Group plenary took just 6
months to implement. This improvement in timeliness of changes to the Commerce
Control List should be maintained. Commerce OIG also determined that Bureau of
Industry and Security is in the process of adding 25 items from the Animal and Plant
Health Inspection Service and Centers for Disease Control and Prevention Select Agent
List to the Commerce Control List. The intention is to first pursue multilateral controls
for these items, through the Australia Group, and if not successful, pursue unilateral
controls. Both Commerce and Defense OIGs believe items from the Animal and Plant
Health Inspection Service and Centers for Disease Control and Prevention Select Agent
List not currently listed on the Commerce Control List should be added through either
multilateral or unilateral controls.

Australia Group Denials. Commerce OIG found a disagreement between Commerce
and State regarding the Australia Group denial notification process. State is the lead U.S.
representative to the Australia Group and is responsible for submitting license denials to
the Australia Group so that potential proliferators cannot “shop around” for items from
one country to another. The disagreement between the two agencies centers on three
issues: (1) which denials are sent to the Australia Group, (2) the timing of submitting
denials to the Australia Group, and (3) whether State should unilaterally rescind prior
denials to the Australia Group. Commerce OIG found that the Australia Group policy on
the reporting of denials is not explicit, which has led to the current disagreement.

Followup on Prior Interagency Reviews
As required by the National Defense Authorization Act for 2001, as amended,
Appendix H (Volume II) provides the status of recommendations from previous years’
reports. Appendix H also discusses the status of interagency OIG recommendations from
Report No. D-2002-074, “Interagency Review of Federal Automated Export Licensing
Systems,” March 29, 2002, the only interagency report that included interagency
recommendations.
Management Comments
There are no interagency recommendations in this year’s report; therefore, management
comments on the interagency report are not required. The participating OIGs made
specific recommendations relevant to their own agencies. Recommendations,
management comments, and OIG responses are included in the separate reports each
office issued, which are in Appendix B (Commerce), Appendix C (Defense), Appendix D
(Energy), Appendix E (State), Appendix F (Agriculture), and Appendix G (Homeland
Security). Appendixes B, C, D, E, and F are in Volume I. Appendixes G and H are in
Volume II. The Central Intelligence Agency (CIA) OIG report is classified
(SECRET//NOFORN) and, therefore, is not included as an appendix in this report.
Please contact the CIA OIG Executive Officer at (703) 874-5368 to request a copy of the
CIA report.
                                            iii
Table of Contents

Executive Summary                                                       i

Introduction                                                            1

Background                                                              2

Objectives                                                              4

Findings
     A.    Review of Export Licenses and Enforcement                    5
     B.    Export Issues for Registered Entities                       14
     C.    Updates to the Commerce Control List                        16
     D.    Australia Group Denials                                     20

Appendixes
     A. Scope and Methodology                                          22
         Interagency Scope                                             22
         Interagency Methodology                                       22
         Agency-Specific Methodology                                   22
     B. Department of Commerce Report                    (Volume I)   B-1
     C. Department of Defense Report                     (Volume I)   C-1
     D. Department of Energy Report                      (Volume I)   D-1
     E. Department of State Report                       (Volume I)   E-1
     F. Department of Agriculture Report                 (Volume I)   F-1
     G. Department of Homeland Security Report (FOUO)   (Volume II)   G-1
     H. Followup on Prior Interagency Reviews (FOUO)    (Volume II)   H-1
Introduction
            Public Law 106-65, “National Defense Authorization Act for FY 2000,”
            section 1402, “Annual Report on Transfers of Militarily Sensitive Technology to
            Countries and Entities of Concern,” October 5, 1999, requires that the President
            submit an annual report to Congress, from 2000 through 2007, on the transfer of
            militarily sensitive technology to countries and entities of concern. The National
            Defense Authorization Act further requires that the Inspectors General of the
            Departments of Commerce, Defense, Energy, and State, in consultation with the
            Directors of Central Intelligence and the Federal Bureau of Investigation, conduct
            an annual review of the policies and procedures of the U.S. Government with
            respect to their adequacy to prevent the illegal export of any sensitive technology
            and technical information to countries and entities of concern. An amendment to
            section 1402(b), in section 1204 of the National Defense Authorization Act for
            FY 2001, further requires that the OIGs include in the annual report the status or
            disposition of recommendations set forth in previous annual reports issued under
            section 1402.

            To comply with the first-year requirement of the Act, the OIGs conducted
            agency-specific and interagency reviews of Federal agency compliance with the
            license requirements for the release of export-controlled technology to foreign
            nationals 4 in the United States and U.S. Government efforts to protect against the
            illicit transfer of U.S. technology through select intelligence, counterintelligence,
            foreign investment reporting, and enforcement activities. In March 2000, two
            interagency reports were issued: Report No. D-2000-109, “Interagency Review of
            the Export Licensing Process for Foreign National Visitors,” and Report
            No. 00-OIR-05, “Interagency Inspectors General Assessment of Measures to
            Protect Against the Illicit Transfer of Sensitive Technology (U).”

            To meet the second-year requirement of the Act, the OIGs conducted an
            interagency review to assess policies and procedures for developing, maintaining,
            and revising the Commerce Control List (CCL) and the U.S. Munitions List. 5
            The interagency report, D-2001-092, “Interagency Review of the CCL and the
            U.S. Munitions List,” was issued in March 2001. For the third-year requirement
            of the Act, the OIGs conducted an interagency review of the Federal automation
            programs that support the export licensing and enforcement process. That
            interagency report, D-2002-074, “Interagency Review of Federal Automated
            Export Licensing Systems,” was issued in March 2002.

            For the fourth-year requirement of the Act, the OIGs conducted an interagency
            review of U.S. Government activities to enforce export controls and prevent or
4
    This report’s use of the term “foreign national” encompasses both foreign nationals and foreign persons,
     as defined by the Export Administration Regulations and the International Traffic in Arms Regulations.
     The Export Administration Regulations uses the term “foreign national” to refer to any person who is not
     a permanent resident of the United States or is not a protected individual as defined by the Immigration
     and Naturalization Act. The International Traffic in Arms Regulations defines a foreign person as “any
     natural person who is not a lawful permanent resident as defined by 8 U.S. Code 1101(a)(20) or who is
     not a protected individual as defined by 8 U.S.C. 1324b(a)(3).”
5
    That list includes those items, technologies, and services that are inherently military in character and
     could, if exported, jeopardize national security or foreign policy interests of the United States.

                                                          1
            detect the illegal transfer of militarily sensitive technology to countries and
            entities of concern. That interagency report, Report No. D-2003-069,
            “Interagency Review of Federal Export Enforcement Efforts,” was issued in
            April 2003. For the fifth-year requirement of the Act, the OIGs conducted an
            interagency review of the release of export-controlled technology to foreign
            nationals at U.S. academic institutions, 6 Federal contractors and other private
            companies, and research facilities. 7 That interagency report, Report
            No. D-2004-062, “Interagency Review of Foreign National Access to Export-
            Controlled Technology in the United States,” was issued in April 2004.

            This year, to comply with the sixth-year requirement of the Act, the OIGs
            conducted an interagency review to assess whether the current export licensing
            process can help deter the proliferation of chemical and biological commodities.
            Because the Department of Homeland Security is also responsible for enforcing
            Federal export laws, the OIG for that agency participated in this year’s review. In
            addition, because the Department of Agriculture is also responsible for
            identifying and controlling biological agents and toxins, the OIG for this agency
            participated in this year’s review.


Background
            The United States controls the export of chemical and biological commodities and
            technologies for national security, foreign policy, antiterrorism, and
            nonproliferation reasons, under the authority of several laws. The primary
            legislative authority for controlling the export of goods and technologies that have
            both commercial and military applications (dual-use items) is the Export
            Administration Act of 1979, 8 as amended (appendix 2401, title 50, United States
            Code). The export of Defense articles and services (munitions) is controlled
            under authority of the Arms Export Control Act of 1976 (section 2751, title 22,
            United States Code).

            Commerce. Under the Export Administration Act, the Department of
            Commerce’s Bureau of Industry and Security (BIS) administers the Export
            Administration Regulations (EAR) by developing export control policies, issuing
            export licenses, and enforcing the laws and regulations for dual-use exports. BIS
            was established in 1987 as a separate regulatory agency within the Commerce
            Department to control dual-use exports. Prior to 1987, the agency was an
            operating component of Commerce’s International Trade Administration. In
            FY 2004, BIS had 371 employees and an appropriation of $69 million.


6
    This report’s use of the term academic institutions includes both universities and other institutions of
     higher learning.
7
    This term encompasses Government-owned research facilities and Federally Funded Research and
     Development Centers.
8
    Export Administration Act of 1979, as amended, sec. 3; 50 U.S.C. app. sec. 2402(2). Although the Act
     expired on August 20, 2001, the Congress agreed to the President’s request to extend existing export
     regulations under Executive Order 13222, dated August 17, 2001, thereby invoking emergency authority
     under the International Emergency Economic Powers Act.

                                                         2
BIS has two principal operating units: Export Administration and Export
Enforcement. Within Export Administration, two offices are responsible for
processing export license applications—the Office of Nonproliferation and Treaty
Compliance and the Office of National Security and Technology Transfer
Controls. Under the Office of Nonproliferation and Treaty Compliance is the
Chemical and Biological Controls Division, which processes export license
applications pertaining to chemical and biological commodities, equipment, and
software. The Commerce OIG review focused on the activities of the Chemical
and Biological Controls Division, which generally handles license applications
for items controlled on the CCL in 14 different commodity categories. Most of
these items are also subject to controls emanating from the United States’
membership in the Australia Group (AG), a multilateral assemblage of countries
dedicated to curbing the proliferation of chemical and biological weapons.

Of the 12,296 export license applications BIS received during FY 2003, 1,803
were for chemical and biological commodities. Nearly all of these chemical and
biological license applications were reviewed and processed by the Chemical and
Biological Controls Division.

Defense. Although the Departments of Commerce and State are responsible for
issuing export licenses, the Department of Defense reviews license applications
and provides recommendations to those agencies for approval, approval with
conditions, or denial of licenses involving dual-use and munitions commodities or
technology. The Defense Technology Security Administration (DTSA) serves as
the focal point for processing license applications and advises the Under
Secretary of Defense for Policy on issues related to the transfer of sensitive
technology and the export of dual-use items and munitions. DTSA also assists in
developing export control policies and procedures that are necessary to protect
U.S. national security interests.

Energy. Energy’s Office of Export Control Policy and Cooperation reviews
license applications and recommends approval, approval with conditions, or
denial of licenses involving nuclear, chemical, biological, and missile dual-use
and munitions commodities or technology referred to them by Commerce and
State.

State. Under the Arms Export Control Act, State’s Bureau of Political-Military
Affairs, Directorate of Defense Trade Controls (PM/DDTC) administers the
International Traffic in Arms Regulations (ITAR) by developing export control
policies, registering companies and academic institutions to export munitions,
issuing licenses and compliance provisions, and maintaining the U.S. Munitions
List. Various offices within State review munitions export licenses and
recommend approval, conditional approval, or disapproval of an applicant’s
license, including those related to the release of export-controlled technology to
foreign nationals in the United States.

Homeland Security. As the enforcement arm at U.S. ports for both State and
Commerce, Customs and Border Protection (CBP) does not accept or approve
applications for the export of dual-use items or munitions that should be licensed.
Instead, CBP is responsible for ensuring that licensable exports, in this case
chemical and biological commodities, are processed in accordance with

                                     3
    applicable laws and regulations. CBP uses the Immigration and Customs
    Enforcement Exodus Command Center as a liaison with State and Commerce to
    answer questions that may arise as to whether a shipment is licensable and CBP
    Officers are directed to send any such questions to the Exodus Command Center
    for resolution.

    Central Intelligence Agency. The CIA provides intelligence support to the
    Department of Commerce on dual-use license applications, and to the Department
    of State on munitions license applications. CIA analysts review comprehensive
    intelligence records to provide information to these agencies that will assist them
    in decisions to approve or deny licenses.

    During FY 2003, BIS submitted license applications to the CIA Director of
    Central Intelligence Center for Weapons Intelligence, Nonproliferation, and Arms
    Control (WINPAC), some of which were for chemical and biological
    commodities and technologies. In addition to providing intelligence support to
    BIS, WINPAC analysts and experts are also actively involved in export licensing
    advisory and oversight groups.

    In FY 2003, the Department of State’s PM/DDTC submitted munitions license
    applications to the Director of Central Intelligence Counterterrorist Center for
    review.

    Agriculture. The Public Health Security and Bioterrorism Preparedness and
    Response Act of 2002, Title II, Subtitle B, was enacted to enhance controls over
    dangerous biological agents or toxins. The Act requires that the Secretary of
    Agriculture, through regulations, establish and maintain a list of each biological
    agent and each toxin that is determined to have the potential to pose a severe
    threat to animal or plant health, or to animal or plant products. It also required
    that the Secretary establish procedures to protect animal and plant health and
    animal and plant products in the event of a transfer of biological agents. The
    Animal and Plant Health Inspection Service (APHIS) was delegated authority to
    administer the regulations for U.S. Department of Agriculture (USDA). The
    Public Health Security and Bioterrorism Preparedness and Response Act of 2002
    did not address exports. APHIS officials stated that they referred any export
    license issues to Commerce.


Objectives
    Our overall objective was to assess whether the current export licensing process
    can help deter the proliferation of chemical and biological commodities.
    Specifically, we examined whether current licensing and enforcement practices
    and procedures were consistent with relevant laws and regulations, as well as
    established national security and foreign policy objectives, such as those set forth
    in the Presidential National Strategy to Combat Weapons of Mass Destruction,
    December 2002. In addition, we assessed the effectiveness of coordination
    between the various Federal agencies during the export licensing process for these
    commodities.


                                         4
                     A. Review of Export Licenses and
                        Enforcement
                     Although the export license application review process was generally
                     found to be adequate, Commerce OIG, Energy OIG, and CIA OIG
                     identified areas where improvements were possible. Specifically,
                     Commerce OIG found that the timeliness of reviews could be improved,
                     guidance for licensing officers should be consolidated, the operating
                     committee needs to sustain improvements in timeliness, and that
                     cumulative effect reviews should be performed. Energy OIG found that
                     some Energy licensing officers were unable to access Commerce’s export
                     license application database. Although CIA OIG determined that the
                     timeliness of munitions license application reviews could be improved,
                     CIA OIG found that changes to internal administrative procedures resulted
                     in timelier support in the second half of FY 2003. Defense OIG found that
                     the processes used to review export license applications were effective,
                     and State OIG found that the State export licensing process was working
                     as intended. Finally, Homeland Security OIG found that CBP personnel
                     did not consistently enforce Federal export licensing laws and regulations
                     at all U.S. ports of exit.


Process and Timeliness of Export License Applications
            Dual-Use Export Licensing Process. According to Executive Order 12981, 9
            BIS has 9 days to conduct its initial review and refer an application to the
            Departments of Defense, Energy, 10 and State. Although the Executive Order does
            not specifically provide a time requirement for CIA review of referred licenses,
            BIS and CIA have agreed to aim for a 30-day turnaround for CIA input. To
            determine whether the applicable policies and procedures for each application
            have been followed, each BIS licensing officer (1) verifies the export control
            classification number (ECCN) the applicant obtained from the CCL; 11 (2) reviews
            the license requirements and license exceptions for that ECCN; (3) determines the
            reasonableness of the end use specified by the exporter; (4) documents the
            licensing history of the exporter, ultimate consignee, or end user(s); (5)
            documents the reason(s) for not referring a license application to the other
            agencies (if applicable); and (6) provides a written recommendation on whether to
            approve or deny the application.



9
    Executive Order 12981—Administration of Export Controls, December 5, 1995.
10
     Energy provided BIS with a delegation of authority to review chemical and biological export license
     applications on its behalf. That delegation of authority was rescinded April 15, 2003, after the agency
     added more licensing officers and decided it had the ability to review all chemical and biological license
     applications.
11
     The CCL lists 487 ECCNs for commodities, software, and technology, 14 of which are numbers for
     chemical and biological commodities.

                                                         5
            Under the Executive Order, referral agencies must provide a recommendation to
            approve or deny the license application to the Secretary of Commerce within 30
            days of receipt of the referral and all related required information. To deny an
            application, the referral agency is required to cite both the statutory and
            regulatory basis for denial, consistent with the provisions of the Export
            Administration Act and the EAR. An agency that fails to provide a
            recommendation within 30 days is considered to be in agreement with the
            decision of the Secretary of Commerce.

            License applications for chemical and biological commodities also undergo
            review by the Chemical and Biological Weapons Control Group, an interagency
            body also known as SHIELD. 12 At SHIELD meetings, which are chaired by the
            Department of State, member agencies review dual-use export license applications
            related to the possible proliferation of chemical or biological weapons with the
            goal of resolving differences between agencies and thereby precluding the need to
            escalate license applications into the formal dispute resolution process.

            Commerce OIG took a sample of 90 13 of the 1,803 chemical and biological
            license applications received in FY 2003 and compared them against BIS’
            guidance for reviewing and processing applications. Commerce OIG found that
            the licensing process is working reasonably well. For example, the average time
            to process a license application was 43.7 days, which is slightly higher than the
            40-day BIS standard or internal goal for processing license applications.
            However, Commerce OIG noted that 26 of the 82 14 applications had review times
            of 44 days or more. In addition, Commerce OIG found that Defense, State, and
            Energy all completed their review of license applications within the 30-day period
            allowed by the Executive Order, but CIA took more than 30 days to return 16 of
            the 53 cases referred to it in FY 2003. It should be noted, however, that the 30-
            day period specified for interagency review in Executive Order 12981 does not
            apply to the CIA.

            Dual-Use Dispute Resolution Process. The interagency dispute resolution
            process for dual-use licenses provides Commerce, Defense, Energy, and State
            officials a meaningful opportunity to review and comment on applications. If
            there is disagreement on whether or not to approve a pending license application
            after the 30-day review period, the application is referred to a higher-level
            interagency working group called the Operating Committee (OC). Under
            Executive Order 12981, the OC has representatives from the Departments of
            Commerce, Defense, Energy, and State. Non-voting members of the OC include
            appropriate representatives of WINPAC and the Joint Chiefs of Staff. The OC
            meets weekly. The Secretary of Commerce appoints the OC Chair who considers
            the recommendations of the reviewing departments before making a decision.

12
     The SHIELD is made up of working-level representatives from State, Commerce (BIS), DOD, CIA, and
     Energy.
13
     Commerce OIG removed the one escalated application from the sample of 91 and reviewed it separately
     as part of its review of the 17 FY 2003 escalated chemical and biological license applications.
14
     Eight of 90 applications in Commerce OIG’s sample were not included in the analysis. Six applications
     were returned without action to the exporter, one application was pending at the time of the sample
     selection, and one was incorrectly included in the sample and was not for a chemical or biological
     commodity.

                                                      6
        The OC Chair has 14 calendar days to consider the positions of the agencies and
        render a decision. The OC Chair’s decision does not have to be based on a
        majority vote. 15 If any agency disagrees with the OC Chair’s decision, it has 5
        calendar days to appeal the decision to the Advisory Committee on Export Policy
        (ACEP).

        The ACEP meets monthly and is chaired by the Commerce Assistant Secretary
        for Export Administration, and includes Assistant Secretary-level representatives
        from the Departments of Defense, Energy, and State. The ACEP also includes
        non-voting representatives from WINPAC and the Joint Chiefs of Staff. The
        ACEP decision is based on a majority vote.

        Within 5 days of an ACEP decision, any dissenting department or agency may
        appeal the majority decision to the Export Administration Review Board. The
        Secretary of Commerce chairs the Export Administration Review Board, and its
        members include the Secretaries of Defense, Energy, and State. The Chairman of
        the Joint Chiefs of Staff and the Director of the CIA are non-voting members of
        the Export Administration Review Board. The Export Administration Review
        Board’s decision is based on a majority vote. Finally, within 5 days of this
        decision, any dissenting agency may make a final appeal to the President.

        Munitions Export Licensing Process. PM/DDTC is responsible for controlling
        the export and temporary import of Defense articles and Defense services covered
        by the U.S. Munitions List. PM/DDTC approval of a license application is
        required before the export of Defense articles or services. In FY 2003, State
        received 717 license applications for chemical and biological commodities.
        These commodities include such items as riot control masks, anthrax biological
        threat alert test strips, and instantaneous blast grenades.

        When the PM/DDTC Compliance Division receives license applications, it
        screens the parties listed on the submission against a Watch List of persons and
        entities for eligibility to engage in U.S. Defense trade.

        PM/DDTC reviews the license applications against a number of factors,
        including:

                 •    applicant eligibility,

                 •    foreign policy objectives,

                 •    stated end-use and end-user,

                 •    commodity,

                 •    quantity,


15
 Per Executive Order 12981, as amended, one exception to this rule involves “. . .license applications
 concerning commercial communication satellites and hot-section technologies for the development,
 production, and overhaul of commercial aircraft engines. . . ” For these applications, the OC Chair is to
 report the “majority vote decision of the OC” rather than his/her decision.

                                                     7
       •   national security interests,

       •   regional stability,

       •   human rights issues and concerns,

       •   multilateral agreements and nonproliferation regimes, and

       •   intelligence information.

Current guidelines call for initial action by the licensing officer within 10 days of
receiving the case. These actions include Approval, Denial, Returned without
Action, or Staffing (referral to other offices or agencies). PM/DDTC refers about
30 percent of the applications to other Department offices as well as other
agencies for their comments and recommendations.

Munitions Dispute Resolution Process. Munitions license applications do not
have a formal escalation process. The primary concern is to ensure national
security. In Executive Order 11958, the President delegated the final decision-
making authority for issuing munitions licenses to the State Department.

The following paragraphs describe each OIG’s results for the review of its
agency’s processes and timeliness regarding chemical and biological export
license applications.

Commerce Findings. Commerce OIG identified four issues that warrant BIS’
attention and improvement:

   •   Commerce OIG reported that BIS took from 11 to 30 days after
       interagency approval to review 7 applications, or 8 percent of the sample
       of 90 applications, in FY 2003. However, Executive Order 12981 and the
       EAR do not explicitly set time requirements for the completion of license
       applications approved by the interagency group, but not escalated. The
       Executive Order and EAR only provide timeframes for escalated cases
       after the initial interagency referral process is completed. License
       processing times could potentially be improved if BIS set internal
       timeframes for closing out applications that do not need to be escalated to
       the interagency dispute resolution process. Commerce OIG recommended
       that BIS establish specific timeframes for reviewing and signing off on
       license applications after approval by the referral agencies.

   •   Guidance for licensing officers should be consolidated and readily
       accessible. Commerce OIG found that the guidance cited by licensing
       officers and BIS management was an assortment of memos and documents
       issued over an 11-year period, housed in different places within BIS, and
       not readily accessible to the licensing officers. In addition, the guidance
       routinely used by the licensing officers is not always detailed enough to
       provide specific steps for reviewing a license application. Commerce OIG
       recommended that BIS develop and maintain clear, consolidated, and up-
       to-date guidance, or an internal operations handbook, to strengthen current


                                       8
                     license application review practices and help ensure that they are
                     consistently applied.

                 •   The SHIELD and OC are generally working well, but the OC needs to
                     sustain recent improvements in application timeliness. Commerce OIG
                     found that the SHIELD review helps ensure that the applications escalated
                     for dispute resolution are the result of true disagreement between the
                     agencies. Commerce OIG also found that the OC has improved its time to
                     render decisions in recent years, but still rarely meets the 14-day
                     requirement. 16 In FY 2003, 17 chemical and biological export license
                     applications, or approximately 1 percent of the 1,803 license applications
                     submitted, were escalated to the OC for resolution. The average time for
                     the 17 applications was 51 days in the OC, with 5 applications taking
                     more than 100 days to adjudicate. Commerce OIG did not evaluate OC
                     timeliness for escalated chemical and biological applications after FY
                     2003 (the period of our review), but timeliness has reportedly improved.
                     For example, according to the BIS FY 2004 Annual Report, the average
                     time to reach a decision on all escalated applications in FY 2004 was 22
                     days. In FY 2003, with 6 months under the former OC Chair and 6
                     months with interim chairs, this average was reportedly 45 days. 17 In
                     addition, Commerce OIG reported that all 17 escalated applications were
                     ultimately approved by the OC Chair, and none of the agencies chose to
                     appeal the OC Chair’s decisions. Thus, the ACEP did not review any
                     chemical and biological export license applications in FY 2003.

                 •   Cumulative effect reviews are not being performed for chemical and
                     biological export licenses. Cumulative effect reviews examine the impact
                     of proposed exports when added to other past exports to countries and
                     entities of concern. Commerce OIG found that BIS lacks the systems and
                     resources to perform cumulative effect analyses of prior technology
                     transfers made to the end users listed on chemical and biological license
                     applications. In addition, BIS does not receive such assessments from
                     other agencies, including the CIA, during the interagency export license
                     application review process. Commerce OIG reiterated the
                     recommendation from its 1999 report, 18 that BIS work with the
                     intelligence community, including the CIA, DoD, State, and Energy, to
                     develop a method to analyze and track the cumulative effect of dual-use
                     exports to specific countries and regions.
            Defense Findings. Defense OIG found that the DoD had an effective process to
            review export license applications for chemical and biological items. DoD
            consistently reviewed and referred applications in a timely manner, provided
            positions on export license applications, and complied with applicable
            requirements. Despite the lack of a fully automated license application referral
            process at State or Commerce, DoD met statutory and internal review objectives.

16
     Executive Order 12981 states that the OC has 14 days to reach a decision once an application is escalated.
17
     Both averages include all escalated applications, not just chemical and biological applications.
18
     Commerce OIG Report No. IPE-11488, “Bureau of Export Administration: Improvements Are Needed to
     Meet the Export Licensing Requirements of the 21st Century,” June 18, 1999.

                                                         9
        DTSA follows statutorily required timelines 19 for review of dual-use export
        license applications, which allow up to 30 days for review. DTSA receives dual-
        use license applications electronically through the Technology Protection System,
        but DTSA receives supporting data in hard copy by a courier service. A DTSA
        Tiger Team, composed of representatives from the Licensing, Technical, and
        Policy Divisions of DTSA, meets each morning to review a synopsis of dual-use
        license applications to determine which license applications should be referred to
        DoD Components. DTSA does not refer an application that the Tiger Team
        determines is standard or repetitive. For non-referred license applications, DTSA
        records its position through the Technology Protection System. If the application
        is not standard or repetitive, DTSA refers the application electronically to the
        appropriate DoD Components through the Technology Protection System and
        sends the supporting data in hard copy by a courier service. The DoD
        Components that DTSA might refer applications to are the Army, the Navy, and
        the Air Force (the Military Departments). DTSA gives the Military Departments
        10 days to review the application. Once DTSA receives the Military
        Departments’ comments, a DTSA licensing officer creates a final DoD position
        and enters it into the Technology Protection System.

        Commerce referred 84 of the 91 dual-use export license applications in our
        sample to DTSA for comment. Commerce returned six of the remaining
        seven applications to the applicant without action because the applications were
        incomplete, and Commerce did not refer the seventh application to DoD because
        it was not considered to be a military item. DTSA met the statutory timeframe for
        the 84 applications it reviewed, and DTSA personnel stated that they had no
        outstanding concerns with Commerce’s final positions.

        DTSA has established informal, internal deadlines for the review of munitions
        export license applications. DTSA normally allows up to 31 days for DoD review
        and response to referred applications. DTSA either receives munitions license
        applications in hard copy by a courier or electronically through the U.S. Exports
        System from the State Department. Once DTSA receives a license application,
        they review the application and determine whether it is standard or repetitive and,
        therefore, does not need to be referred. When DTSA determines that a license
        application is standard or repetitive, DTSA provides the DoD position to State
        through U.S. Exports System. If the license application is not standard or
        repetitive, DTSA refers the application to the Military Departments. This step
        including the process of providing State the DoD position or referring the
        application to the Military Departments takes approximately 2 days. Hard copies
        of the applications and associated technical data are transferred for review by
        courier service. If the information is available in electronic form, it is also
        transferred for review through the U.S. Exports System. DTSA allows Military
        Departments 25 days to review an application and, if that deadline is not met,
        DTSA can approve a 14-day extension. At the conclusion of the 25 days, it takes
        DTSA approximately 2 days to create and post the draft DoD position for review
        and comment by the Military Departments. Military Departments then have


19
 Executive Order 12981 states that for dual-use export license applications, a Department or agency shall
 provide the Secretary of Commerce with a recommendation either to approve or deny the license
 application within 30 days of receipt of a referral and all required information.

                                                   10
approximately 2 days to dispute the draft position. If there are no comments
received from the reviewers, DTSA posts the final DoD position to State.

State referred 57 of the 85 munitions license applications in our sample to DTSA.
State did not refer the other 28 applications to DTSA because of the following
reasons.

   •   Eighteen applications were for standard or repetitive items or State
       considered the technology level of the item to be widespread and not to
       pose a threat to the United States.

   •   Ten applications were incomplete and returned to the applicant without
       action.

DTSA generally met internal deadlines for reviewing the 57 referred munitions
export license applications. DTSA took more than 31 days to review 4 of the 57
referred applications; however, we do not consider those instances to be excessive
or to reveal an overall weakness with the review process for munitions license
applications because they were reviewed in under 45 days, which is still within
the allowable 14-day extension. DTSA personnel stated that, for the 57 referred
applications, they had no outstanding concerns with State’s final positions.

With regard to the dispute resolution process, Defense OIG found that DoD
participated in the OC and felt its positions and concerns were considered
appropriately. Defense OIG reviewed 18 dual-use export license applications that
had been escalated to the OC for review during FY 2003. DTSA personnel stated
that DoD had no outstanding issues with the OC or Commerce final positions on
those items.

Energy Findings. Energy OIG found that Energy added additional licensing
officers, which provided Energy the capability to begin conducting reviews of
chemical and biological export license applications in April 2003. Following the
events of September 11, 2001, Energy concluded that its “assets should be
mobilized to deal with all forms of weapons of mass destruction…[including]
chemical and biological weapons.” Subsequently, the Energy budget was
increased to allow for these additional reviews, and Energy officially requested
that Commerce refer chemical and biological export license applications to
Energy for review beginning April 15, 2003.

Energy OIG found that of a sample of 91 chemical and biological license
applications received by Commerce in FY 2003, 36 were referred to Energy for
review. (The remaining export license applications received by Commerce were
either returned to the applicant without being referred by Commerce to other
agencies for review or were originally submitted to Commerce prior to April 15,
2003, when Energy established its chemical and biological export license
application review process.) Energy OIG determined that Energy replied to
Commerce within the 30-day time frame on all 36 of the license applications
referred to Energy for review.

Energy OIG also observed that some Energy licensing officers were unable to
access Commerce’s unclassified Export Control Automated Support System

                                    11
(ECASS) export license application database. After Energy downloads referred
application information from ECASS, the information is uploaded into Energy’s
classified Proliferation Information Network System. Because of classification
concerns, there is no direct link between ECASS and the Proliferation
Information Network System. Accordingly, changes to a case recorded in
ECASS after the initial download of the case by Energy would not necessarily be
known by Energy officials. Energy OIG learned that updated information on
export license applications can be obtained by Energy personnel by either directly
contacting Commerce officials or accessing ECASS again. Although an ECASS
terminal is located at Energy headquarters, only one Energy licensing officer has
password access to ECASS and no licensing officers have been trained in the use
of the system. Energy OIG was told that Commerce officials have not responded
to Energy’s repeated requests for training and password assistance on ECASS.
Energy OIG made two recommendations to management designed to enhance
Energy’s export control review process.

Finally, Energy OIG found that Energy has participated in the SHIELD licensing
group since April 2003 and the OC since 1975. Energy OIG determined that for
the period covered by our review, Energy participated in each of the SHIELD
licensing group meetings, and coordinated with the other group members on all
the chemical and biological license applications referred to Energy by Commerce.
Energy OIG examined 18 license applications escalated to the OC for review
during FY 2003. Energy OIG determined that Energy participated in each of the
OC meetings concerning the 18 license applications in the sample; that Energy’s
votes were recorded; and that Energy coordinated with the other committee
members on each of the 18 license applications reviewed by the OC.

CIA Findings. Although a review of a sample of chemical and biological license
applications processed during FY 2003 indicated that WINPAC did not always
provide BIS with timely intelligence support, WINPAC made administrative
changes in its procedures which significantly improved the timeliness of its
support in the second half of FY 2003. These administrative changes included
tracking the status of license applications from the time they arrived at WINPAC
to the time they were returned with intelligence support to BIS. The changes
have improved the timeliness of WINPAC’s license reviews and enabled
WINPAC to keep pace with an increased number of export license applications
received in FY 2004. BIS officials and the Chair of the SHIELD working group
praised the quality of support received from WINPAC since FY 2003.

During and since FY 2003, some inconsistency existed in the intelligence support
that the Director of Central Intelligence Counterterrorist Center was providing to
PM/DDTC on munitions applications. The CIA OIG audit identified
improvements that could be made, which have the potential of enhancing and
improving intelligence support.




                                    12
Enforcement of Export Licenses
    Enforcement Process. Homeland Security’s CBP operates at U.S. ports of exit
    and is responsible for enforcing export control laws and regulations at the ports of
    exit. However, the export licenses and the regulations that govern licensing and
    controlling exports are issued by State and Commerce. Homeland Security’s
    U. S. Immigration and Customs Enforcement bureau is the liaison between CBP,
    State, and Commerce.

    Actions that CBP may take to enforce export control laws and regulations are:
    reviewing hard copy and electronic license and shipment information, physically
    examining outbound cargo to verify compliance with license conditions and
    shipping documents filed by exporters, reviewing the Automated Targeting
    System/Anti-Terrorism and the Automated Export System (AES). Open
    Shipments Listing for alerts that a shipment may warrant a physical exam or
    document review, and targeting a shipment for physical exam or document review
    based on officer judgment.

    Homeland Security Findings. Homeland Security OIG found that CBP did not
    consistently enforce federal export licensing laws and regulations at all U.S. ports
    of exit. CBP’s ability to effectively and efficiently control exports licensed by
    State and Commerce is limited by inadequate information and staff resources.

    Homeland Security OIG also found that CBP did not consistently document the
    location of State Licenses in its AES. Exporters physically lodge State licenses
    with CBP at the port where shipments are expected primarily to occur; however,
    exports may be made through any authorized U.S. port of exit. Such license
    information is necessary to determine whether an individual shipment is being
    made in compliance with the associated license conditions. When a port receives
    notification of an export to be shipped against a license lodged at another port,
    enforcement personnel must locate the port of lodging and verify the authenticity
    of the export information to the original license. However, CBP is not required to
    document the location of State licenses in the AES, which makes it difficult for
    enforcement personnel at the port of shipping to readily obtain license
    information. As a result, CBP’s ability to enforce State licensed exports in a
    timely and efficient manner is reduced. Also, CBP needs to improve its
    enforcement of shipments that have been processed against Commerce licenses.

    Homeland Security OIG recommended that the Commissioner of CBP evaluate
    the Outbound program, including information requirements, staffing needs, and
    consistency of enforcement practices, and make adjustments necessary to ensure
    that all of CBP’s enforcement responsibilities are accomplished.




                                         13
            B. Export Issues for Registered Entities
            Commerce and Agriculture OIGs found that each agency could improve
            the awareness of registered entities of regulations regarding the movement
            of dangerous biological agents or toxins. Commerce OIG reported that
            there were 318 entities registered with APHIS and/or the Centers for
            Disease Control and Prevention (CDC) to deal in the agents and toxins on
            the Select Agent List. Agriculture OIG found that researchers at
            registered entities were not always familiar with or did not always follow
            Commerce/BIS exporting requirements. Specifically, Agriculture OIG
            found that 1 of the 10 registered entities reviewed had exported a select
            agent also on the CCL without obtaining the required license from
            Commerce. In addition, another registered entity exported a biological
            agent that was subsequently added to the CCL. This entity was unaware
            of the export licensing requirement. Overall, the lack of awareness of
            exporting regulations could expose the country to potential biological
            attacks by terrorists.


Background
     Commerce. A critical component of the BIS mission is outreach to the exporting
     community to build awareness and compliance with the EAR. BIS holds an
     annual Update Conference on Export Controls and Policy each October to educate
     exporters about new policy initiatives and to provide information on export
     controls through small group sessions that focus on a wide array of topics. BIS
     complements its Update Conference by providing numerous export control
     seminars around the country throughout the year. BIS often also targets outreach
     to specific business and technology sectors.

     Agriculture. Even though the Public Health Security and Bioterrorism
     Preparedness and Response Act of 2002 does not address exports of dangerous
     biological agents or toxins posing a severe risk to animals or plants, it does share
     a common goal with the National Strategy to Combat Weapons of Mass
     Destruction. Both the Act and the Strategy are intended to keep dangerous
     biological materials out of the hands of terrorists. APHIS regulations control the
     movement of the dangerous biological agents or toxins into and through the
     United States, whereas Commerce/BIS controls exports of such agents or toxins.
     Researchers must be aware of and comply with all regulations regarding the
     movement of dangerous biological material whether they are within the United
     States or being exported to other countries.


Improvements in Outreach to Registered Entities
     Commerce Findings. Commerce OIG found that there is an opportunity for BIS
     to conduct focused outreach to registered entities. Specifically, the USDA’s
     APHIS and the U.S. Department of Health and Human Services’ CDC jointly

                                          14
             maintain a list of select agents and toxins that pose a severe threat to livestock,
             plants, and/or public health. 20

             Commerce OIG reported that there are 318 entities registered with APHIS and/or
             CDC to possess, use, and transfer agents and toxins on the Select Agent List.
             Given both the overlap between the Select Agent List and the CCL, and the
             “ready made” list of users of select agents and toxins in the hands of APHIS and
             CDC, this is an excellent group for BIS to reach and educate with minimal effort.
             Commerce OIG recommended that BIS inform APHIS and CDC registered
             entities in writing of the need to comply with the EAR and how to apply for an
             export license if they plan to export controlled items.

             Agriculture Findings. Agriculture OIG found that researchers at registered
             entities were not always familiar with or did not always follow Commerce/BIS
             exporting requirements. During Agriculture OIG site visits, they found that 1 of
             the 10 entities (a private research facility) exported Highly Pathogenic Avian
             Influenza to Hong Kong on two occasions without obtaining the required license
             from Commerce. Highly Pathogenic Avian Influenza was on both the APHIS
             Select Agent List and the CCL. The responsible official 21 at the entity contacted
             APHIS personnel concerning export requirements prior to the shipments. APHIS
             personnel and the responsible official discussed both the vaccine strain (no
             license required) and the virus strain. The responsible official mistakenly
             concluded that there were no licensing requirements for Highly Pathogenic Avian
             Influenza. Any violation of either APHIS or Commerce/BIS regulations could
             expose the country to potential biological attacks by terrorists.

             Additionally, Agriculture OIG found that a university exported a biological agent
             that was on the APHIS list, but not on the CCL, on May 17, 2004. However, the
             biological agent was added to the CCL effective December 29, 2004. Agriculture
             OIG contacted the entity on February 1, 2005, to determine whether it was aware
             that the agent had been added to the CCL. The entity officials were not aware of
             the addition to the CCL. The entity had not exported any of the pathogen since
             December 29, 2004.

             Agriculture OIG concluded that even though APHIS has no regulatory authority
             regarding exports, the agency could help its registered entities ensure compliance
             with all requirements concerning movements of dangerous biological agents by
             working with Commerce/BIS to keep the entities up-to-date on export licensing
             requirements. This would help accomplish goals of both the Agricultural
             Bioterrorism Protection Act of 2002 and the President’s National Strategy to
             Combat Weapons of Mass Destruction by ensuring that controls are followed to
             keep dangerous biological materials out of the hands of terrorists. To accomplish
             this, Agriculture OIG recommended that APHIS work with Commerce/BIS to
             disseminate up-to-date information to entities registered with APHIS.


20
     See http://www.aphis.usda.gov/programs/ag_selectagent/ag_bioterr_toxinslist.html for the Select Agent
     List.
21
     APHIS regulations (7 Code of Federal Regulations (CFR) 331.5 and 9 CFR 121.6) require that registered entities
     appoint a responsible official for ensuring compliance with the regulations concerning APHIS listed agents or toxins.

                                                             15
           C. Updates to the Commerce Control
              List
           Commerce OIG found that BIS, working with the other U.S. licensing
           agencies, is responsible for making changes to the CCL to add any newly
           controlled dual-use items resulting from changes to the AG list of
           controlled chemical and biological commodities. Prior to 2004, AG
           changes took, on average, 11 months to be incorporated in the CCL.
           However, the changes resulting from the June 2004 AG plenary took just
           6 months to implement, thereby reducing the overall average to 10
           months. This improvement in timeliness of changes to the CCL should be
           maintained. Commerce OIG also determined that BIS is in the process of
           adding 25 items from the APHIS and CDC Select Agent List to the CCL.
           The intention is to first pursue multilateral controls for these items,
           through the AG, and if not successful, pursue unilateral controls. Defense
           OIG also reported that BIS is updating the CCL to add the remaining
           biological agents and toxins from the APHIS and CDC Select Agent List
           that are not currently controlled for export. Both the Commerce and
           Defense OIGs believe items from the APHIS and CDC Select Agent List
           not currently listed on the CCL should be added through either
           multilateral or unilateral controls.


Background
    The AG, established in 1985, is a forum of industrialized countries that
    cooperates to try to prevent the proliferation of chemical and biological weapons,
    by coordinating export controls, exchanging information, and performing other
    diplomatic actions. Each year, after the annual meeting of the AG, U.S. licensing
    agencies meet to decide how to implement any new control changes. If a new
    control is added to the AG list, the United States must decide whether it wants to
    control the item as a dual-use or munitions item. The Department of Commerce
    is responsible for making changes on the CCL for dual-use items, and the
    Department of State is responsible for making changes on the U.S. Munitions List
    for munitions items. The process for making changes to the CCL is outlined in
    the figure on the next page.

    The U.S. regulatory process to make changes to the CCL is more comprehensive
    than that of other AG members. In addition, the U.S. process requires multiple
    parties to approve changes before they can be published. All the licensing
    agencies participate in the AG annual sessions, so they are aware of control
    changes agreed to by the United States before BIS provides them with the draft
    regulations to review. But, the need for all agencies to be involved increases the
    amount of time it takes to get changes published. In addition, all comments and
    changes from the licensing agencies, Office of Management and Budget, or other
    BIS offices need to be incorporated by BIS’ Regulatory Policy Division and again
    reviewed by BIS’ Chemical and Biological Controls Division and the Office of
    Chief Counsel before the changes can be published.

                                        16
BIS Process for Changes to the Commerce Control List




Source: Commerce OIG, based on information from BIS’ Regulatory




                                              17
Updates to the CCL Need to be Made More Quickly
            Commerce Findings. After the AG annually recommends new chemical and
            biological items for control, Commerce OIG found that it takes just over 10
            months 22 for BIS and the other U.S. licensing agencies to place newly regulated
            items on the CCL. On three occasions in the last 7 years, the U.S. government
            failed to publish new AG regulations before the next annual AG meeting (1999,
            2000, and 2003). Delays in publishing the latest AG guidelines could cause
            problems for the U.S. government. In an October 2002 report, the Government
            Accountability Office 23 recommended agreed-upon changes to control lists
            should be adopted by all AG members at the same time. If not, the Government
            Accountability Office said that proliferators could exploit time lags to obtain
            sensitive technologies by focusing on AG members slowest to incorporate the
            changes. 24 Until an item is actually listed on the CCL, BIS cannot (1) reveal to
            exporters that it may soon be controlled and (2) stop items from being exported.

            Commerce OIG found that BIS does sometimes attempt to legally stall the export
            of items in the “lag time” between being newly controlled by the AG and
            inclusion on the CCL. For example, BIS received an application in FY 2003 for a
            biological item that the AG had marked for control but was not yet listed on the
            CCL. The exporter submitted an application on February 6, 2003, but the item
            was not listed on the CCL until June 10, 2003. If BIS had not received the
            application, the item would have shipped because a license was not required. 25
            Because the exporter applied for a license, BIS was able to assess the end-user
            and find negative information. The derogatory information on the end-user led
            BIS to place the application on Hold Without Action pending publication of the
            new AG rules in June 2003. The reviewing agencies ultimately rejected the
            application after the new regulations were published. Such occurrences are rare,
            though, and BIS officials are concerned about items that have been exported
            pending the publication of new regulations.

            During its review, Commerce OIG found that BIS insisted that it had made all
            feasible changes to the process of publishing new AG regulations and that the
            time could not be further reduced. However, BIS managed to publish the latest
            round of changes in 2004 in only 6 months, which demonstrates that the time can
            be reduced. BIS told Commerce OIG that it only took 6 months because it
            needed to quickly restore certain notes covering license requirements that had
            been inadvertently removed by a BIS rule on July 30, 2004. 26 The urgent need to
22
     This is the average for the last 7 years; for the 6 years prior to the June 2004 annual AG meeting, the U.S.
     licensing agencies had taken an average of 11 months to publish the new AG regulations in the Federal
     Register.
23
     The General Accounting Office was renamed the Government Accountability Office in July 2004.
24
     The United States General Accounting Office, Report No. GAO-03-43, “Nonproliferation: Strategy
     Needed to Strengthen Multilateral Export Control Regimes,” October 2002.
25
     According to BIS officials, exporters often file applications for items that are not controlled “just to be
     safe.”
26
 BIS wanted to quickly restore these notes in the Federal Register because they contained critical guidance
 concerning the license requirements for ECCNs 1C355, 1C395, and 1C995. Only one of these ECCNs
 (1C395) is for chemical or biological commodities.

                                                         18
           get these notes restored apparently motivated both BIS and the other agencies to
           move much more quickly than they usually do.

           BIS says publishing changes from the April 2005 AG meeting in the CCL will
           depend on (1) how quickly BIS receives official notice of the changes; (2) the
           complexity of the changes; (3) whether there is an effort to add unrelated
           revisions to the rule; and (4) how quickly Commerce, Defense, and State resolve
           any comments on the rule. On this issue, Commerce OIG recommended that BIS
           take appropriate actions to sustain recent improvements in the timeliness of U.S.
           publication of AG guidelines and rule changes that impact the CCL.

           Finally, Commerce OIG found that all but 25 of the items on the Select Agent
           List are also controlled under the EAR and are on the CCL. In October 2004,
           after discussions with CDC and APHIS officials, BIS decided to start the process
           to put the remaining 25 items from the Select Agent List onto the CCL. After
           interagency review and clearance of the proposal, State submitted the proposal for
           consideration at the April 2005 AG plenary. Commerce OIG recommended that
           BIS take appropriate action to pursue multilateral controls on the 25 items now on
           the Department of Health and Human Services (HHS)/APHIS select Agent List
           that are not currently controlled for export. If agreement cannot be reached
           multilaterally, Commerce OIG recommended that BIS evaluate putting the 25
           items on the CCL unilaterally.

           Defense Findings. DoD uses the CCL to determine which biological items of
           concern are export controlled and require the filing of an export license
           application. However, the CCL does not contain 20 27 biological agents and
           toxins identified on the HHS/APHIS Select Agent List that have the potential to
           pose a threat to animal, plant, and public health and safety. Commerce is
           currently considering whether the items contained in the HHS/APHIS Select
           Agent List should be export controlled. It is the opinion of Defense OIG that
           items listed on the HHS/APHIS Select Agent List should be periodically
           evaluated for inclusion in the CCL. The Defense OIG recommends that the
           Deputy Under Secretary of Defense (Technology Security Policy and
           Counterproliferation), together with the Department of Commerce, undertake an
           assessment of items on the HHS/APHIS Select Agent List as changes occur to
           those lists and determine whether any of the listed agents and toxins should be
           controlled for export purposes by inclusion on the CCL.




27
     Subsequent information and analysis provided by Commerce OIG expanded the original 20 items
     identified by the Defense OIG to 25.

                                                    19
                     D. Australia Group Denials
                     Commerce OIG found that there is disagreement between Commerce and
                     State regarding the AG denial notification process. State is the lead U.S.
                     representative to the AG and is responsible for submitting license denials
                     to the AG. The disagreement between the two agencies centers on three
                     issues: (1) which denials are sent to the AG, (2) the timing of submitting
                     denials to the AG, and (3) whether State should unilaterally rescind prior
                     denial notices to the AG. Commerce OIG found that the AG policy on the
                     reporting of denials is not explicit, which has led to the current
                     disagreement.


Background
            One of the obligations of the 39 AG members is the submittal of license denials to
            the group so that potential proliferators cannot “shop around” for items from one
            country to another. AG members have also adopted a “no undercut policy” in
            which members agree not to approve an identical sale without first consulting
            with the member that denied an export license. The Department of State, as the
            lead U.S. representative to the AG, is responsible for submitting license denials to
            the AG. Commerce OIG found that for various reasons, State is not currently
            submitting all denials to the AG, which means the AG no undercut policy is not
            always triggered. State’s rationale for not submitting all denials to the AG is not
            documented in any way, which leads to confusion.


Denial Notification to the Australia Group Needs To Be More
  Transparent
            Commerce Findings. Commerce OIG reported that BIS believes three changes
            are necessary in State’s current denial notification process to make it more
            effective and transparent. First, BIS would like all denials sent to the AG to
            ensure that the no undercut policy is always triggered. The Department of State
            now subjectively determines which denials are submitted. Second, BIS believes
            that State should send denials to the AG at the time that BIS issues its “intent to
            deny” letter to applicants, rather than after the mandatory 45-day period during
            which BIS will consider any additional information provided by the exporter to
            rebut BIS’ decision to deny the application. 28 Finally, BIS believes that State
            should not unilaterally rescind prior denial notices to the AG. Unfortunately, the
            AG policy on the reporting of denials is not explicit, so State interprets the policy


28
     According to 15 CFR 750.6, an applicant has 20 days after the date of the intent to deny letter to rebut
     BIS’ decision and provide additional information showing why the application should be approved.
     Unless BIS advises the applicant that the bureau has reversed its opinion, the denial becomes final 45
     days after the date of the intent to deny letter. The applicant then has 45 days from the date of the final
     denial to appeal the decision, as outlined in Part 756 of the EAR.

                                                         20
one way and Commerce another, which has led to the current confusion and
disagreement.

Commerce OIG recommended that BIS work with the State Department, and the
other licensing referral agencies, to develop and implement written procedures for
handling the AG denial notification process. The procedures should cover, at a
minimum:

   •   The U.S. policy on submitting denials to the AG;

   •   When U.S. denial notifications will be sent to the AG—either when the
       intent to deny letter is sent or after the 45-day rebuttal period has
       lapsed; and

   •   How U.S. decisions to rescind prior denial notifications to the AG will be
       made. This should specify how State will exercise its representation
       authority and how the other licensing agencies will be involved in the
       decision making process.




                                    21
Appendix A. Scope and Methodology

Interagency Scope
    The review assessed whether the current export licensing process can help deter
    the proliferation of chemical and biological commodities. Specifically, we
    examined whether current licensing and enforcement practices and procedures
    were consistent with relevant laws and regulations, as well as established national
    security and foreign policy objectives, such as those set forth in the Presidential
    National Strategy to Combat Weapons of Mass Destruction, December 2002. In
    addition, we assessed the effectiveness of coordination between the various
    Federal agencies during the export licensing process for these commodities. The
    participating review teams were from Commerce, Defense, Energy, State,
    Homeland Security, Agriculture, and the Central Intelligence Agency OIGs.


Interagency Methodology
    To coordinate the review issues related to the export licensing process for
    chemical and biological commodities and determine the work to be performed by
    each OIG team, the eight OIGs formed an interagency working group and held
    monthly meetings while conducting agency-specific reviews. The interagency
    working group collectively attended a briefing on the export licensing process for
    chemical and biological commodities hosted by BIS. The briefing also included
    presentations from State, Central Intelligence Agency, and Energy. Additionally,
    the group met with the Chair of the Chemical and Biological Weapons Control
    Group, an interagency body also known as SHIELD. The review was performed
    between August 2004 and March 2005.

    This report summarizes the work completed by the seven interagency working
    group members. This report contains six of the individual OIG reports. The
    seventh report, the CIA OIG report, is classified (SECRET//NOFORN) and is not
    included as an appendix in this report.


Agency-Specific Methodology
    Appendixes B through G contain the agency-specific OIG reports and the
    methodology used for each review. The information gathered and the analyses
    performed in developing those reports were used to produce the interagency
    report.

    Commerce OIG Methodology. The Commerce OIG methodology included the
    following:



                                        22
           Commerce OIG evaluated three types of license applications submitted to BIS in
           FY 2003 to accomplish the review objectives: (1) a statistically valid sample of
           90 regular chemical and biological applications (out of 1,803), (2) all 17 license
           applications escalated to the OC, and (3) the 25 denied license applications in FY
           2003.

           To determine the effectiveness of the current export license process and obtain
           their suggestions for improving the process, Commerce OIG spoke with senior
           BIS officials and personnel from the following groups: (1) Chemical and
           Biological Controls Division, (2) Regulatory Policy Division, (3) Office of
           Nonproliferation and Treaty Compliance, (4) Office of Enforcement Analysis, (5)
           Office of Exporter Services, and (6) the OC Chair. Commerce OIG also spoke
           with representatives of other organizations, including (1) the Chairman of the
           SHIELD at the Department of State about how chemical and biological
           applications are reviewed and (2) Department of Agriculture officials about
           chemical and biological items controlled by Agriculture but not listed on the
           CCL.

           Commerce OIG evaluated specific literature during the review including (1) prior
           Government Accountability Office, Commerce OIG, and interagency OIG
           reports; (2) the BIS FY 2003 and 2004 Annual Reports; (3) the BIS FY 2003
           Foreign Policy Report; (4) BIS procedures for processing license applications;
           and (5) relevant laws and regulations.

           In addition, Commerce OIG followed up on recommendations from prior
           Commerce OIG reports related to the export licensing process and/or export
           controls for biological agents. 29 Commerce OIG conducted its review from
           August 12, 2004, through January 21, 2005. On March 9, 2005, Commerce OIG
           conducted an exit conference with the Acting Under Secretary for Industry and
           Security and other senior BIS officials to discuss the contents of the Commerce
           OIG agency specific report.

           Defense OIG Methodology. Defense OIG met with DTSA personnel who
           reviewed export license applications referred by Commerce and State. In
           addition, Defense OIG met with the Shield chairman to gain an understanding of
           the Shield process for reviewing dual-use export license applications. Defense
           OIG also met with the Military Departments’ export license application review
           offices to determine their processes for reviewing applications referred to them by
           DTSA.

           Defense OIG reviewed applicable Executive Orders and Federal laws and
           regulations, including the Export Administration Act, the Arms Export Control
           Act, and the associated EAR and ITAR. In addition, Defense OIG evaluated the
           adequacy of DoD directives, policies, and regulations related to the disclosure and
           transfer of militarily sensitive and critical technologies to foreign entities from


29
     Commerce OIG Report No. IRM-6686, “Bureau of Export Administration: Assessing the Effectiveness
     of Export Controls for Dual-Use Biological Agents,” September 1995 and Commerce OIG Report No.
     IPE-11488, “Bureau of Export Administration: Improvements Are Needed to Meet the Export Licensing
     Requirements of the 21st Century,” June 18, 1999.

                                                    23
1984 through 2004. Defense OIG reviewed those documents to determine DoD
responsibilities in the export license application review process.

Defense OIG compared export-controlled items listed in the EAR and ITAR with
chemical and biological items listed in multilateral agreements, such as the AG,
Chemical Weapons Convention, Comprehensive Nuclear-Test-Ban Treaty,
Missile Technology Control Regime, and the Wassenaar Agreement, to identify
whether any of those items were not included in the EAR or ITAR. Additionally,
Defense OIG compared the items on the USDA Biological Agent List and the
HHS Select Agent List with the items controlled by the EAR and the ITAR to
determine whether any of those items were not included in the EAR or ITAR.

Energy OIG Methodology. Energy OIG interviewed Federal and contractor
Energy officials at Energy headquarters and at the Los Alamos National
Laboratory, which operates the database used by Energy to process and review
export license applications. Energy OIG reviewed Energy and Commerce
documentation for a sample of 108 (original sample of 91 export license
applications and 17 additional applications that were escalated to the OC) export
license applications for chemical and biological commodities that were submitted
to Commerce in FY 2003. This sample was selected by the OIGs interagency
working group. Energy OIG also reviewed relevant export control regulations.
Energy OIG evaluated Energy’s implementation of the “Government Performance
and Results Act of 1993” and did not identify any performance measure issues
regarding the review of chemical and biological export license applications.
Energy OIG followed up on the status of recommendations from prior Energy
OIG reviews conducted under the requirements of the FY 2000 National Defense
Authorization Act.

State OIG Methodology. State OIG compared the information contained in the
applications against PM/DDTC’s standard operating procedures for licensing
requirements. State OIG reviewed a sample of the 717 license applications for
chemical and biological commodities that PM/DDTC received during FY 2003.
The State OIG sample identified 85 files randomly selected from the universe
(717) of license applications. However, State OIG was unable to review 30 files
contained in the sample because PM/DDTC had retired the files to an off-site
location, which prevented their timely retrieval. As a result, State OIG reviewed
55 files, with a confidence level of 95 percent (plus or minus 5 percent).

The State OIG examination included a determination as to whether each export
request in the files contained the required information necessary to make a
licensing decision, including the following:

       •   license number and expiration date,

       •   organization requesting the license,

       •   export item (that is, pocket grenades),

       •   dollar value of the order,

       •   shipping company,

                                        24
       •   destination of items,

       •   application review by other bureaus and agencies, and

       •   final disposition (that is, approved, denied, etc.).

State OIG interviewed PM/DDTC officials and consulted with OIG officials from
the Departments of Commerce, Defense, Energy, Homeland Security, and the
CIA. State’s OIG Office of Audits, Program Reviews Division conducted this
audit from August 2004 through January 2005 in the Washington, D.C. area.
State OIG performed this work according to government auditing standards and
included such tests and auditing procedures as were considered necessary under
the circumstances.

Homeland Security OIG Methodology. Homeland Security OIG conducted an
evaluation that:

       •   Reviewed and analyzed the Department of Homeland Security
           enforcement practices and its laws and regulations, policies and
           procedures applicable to the exportation of chemical and biological
           commodities.

       •   Assessed CBP and Immigration and Customs Enforcement efforts to
           coordinate and cooperate with other appropriate Federal agencies
           involved in export enforcement and licensing processes.

       •   Assessed CBP export screening efforts at ports of exit.

       •   Conducted interviews with responsible CBP and Immigration and
           Customs Enforcement officials and other personnel to determine
           whether they are compliant with applicable export control laws and
           regulations as well as their own directives.

       •   Selected exports for testing at Department of Homeland Security ports
           of exit to determine whether controls are implemented to enforce the
           requirements applicable to the export of chemical and biological
           commodities.

The Homeland Security OIG audit was conducted at locations in Washington,
D.C., and at the Seaport of Baltimore, Dulles International Airport, Seaport of
Philadelphia, Miami International Airport, Seaport of Beaufort-Morehead City,
John F. Kennedy International Airport, Newark International Airport, and Denver
International Airport from September 2004 through December 2004. Testing was
performed using a statistical sample of Commerce and State license applications
provided by the interagency group. To accomplish this review, Homeland
Security OIG conducted fieldwork at selected port locations, collected export
enforcement procedural information through a survey at the 311 CBP ports of
exit; and interviewed officials and personnel at Department of Homeland Security
bureaus of CBP, CIS, and Immigration and Customs Enforcement. Homeland
Security OIG conducted followup reviews at the bureaus of CBP, CIS, and


                                     25
Immigration and Customs Enforcement as appropriate on prior recommendations
from one Department of Homeland Security and two Treasury reports.

CIA OIG Methodology. The CIA OIG audit focused on evaluating the
processes CIA used to assist Federal agencies that are responsible for issuing
licenses for exports of chemical and biological commodities. The audit also
assessed the exchange of information between CIA and Federal licensing
agencies from FY 2003 to the present. To accomplish the audit objectives, the
CIA OIG performed the following tasks:

       •   Interviewed WINPAC and Director of Central Intelligence
           Counterterrorist Center managers who were responsible in FY 2003
           for providing BIS and PM/DDTC, respectively, with intelligence
           support on license applications.

       •   Evaluated how WINPAC and Counterterrorist Center analysts
           communicated with BIS and PM/DDTC, and identified the sources of
           information used to respond to requests to review export license
           applications.

       •   Reviewed applicable laws and regulations, as well as memoranda of
           understanding between the CIA and other Federal agencies.

       •   Reviewed a sample of FY 2003 chemical and biological license
           applications referred to WINPAC by BIS.

       •   Evaluated the quality and timeliness of intelligence support that CIA
           provided to Federal licensing agencies.

Agriculture OIG Methodology. Agriculture OIG performed this review as part
of an audit of the APHIS Implementation of the Listed Agents or Toxin
Regulations – Phase II (Audit No. 33601-3-AT). The work was performed at
APHIS Headquarters in Riverdale, Maryland, and at 10 entities, selected as part
of the Phase II audit, that were registered with APHIS to possess listed agents or
toxins. Fieldwork was performed from November 1, 2004, to February 1, 2005.

Agriculture OIG interviewed APHIS Headquarters officials to determine (1) what
controls, if any, the agency has over exporting biological agents or toxins and (2)
what efforts APHIS had made to coordinate with the Department of Commerce
when considering which biological agents or toxins to include on the select agent
list.

At each of the 10 selected entities, Agriculture OIG determined whether the entity
(1) has ever exported any of the biological agents on the CCL; (2) applied for and
received an export license from the Department of Commerce/BIS to export such
biological agents on the CCL (if not, Agriculture OIG determined the reason for
not obtaining the license); (3) received guidance concerning biological exports
from APHIS, the CDC, or any other Federal agency; and (4) exported any
biological agents or toxins that were on the APHIS or CDC lists, but were not on
the CCL (if so, Agriculture OIG determined whether the entities had the required
APHIS permits).

                                    26
Appendix B. Department of Commerce Report




                    B-1
 U.S. DEPARTMENT OF COMMERCE
           Office of Inspector General




   BUREAU OF INDUSTRY AND SECURITY

The Export Licensing Process for Chemical and
  Biological Commodities is Generally Working
        Well, But Some Issues Need Resolution


       Final Inspection Report No. IPE-16946—March 2005




                PUBLIC RELEASE



         Office of Inspections and Program Evaluations
U.S. Department of Commerce                                                                                               Final Report IPE-16946
Office of Inspector General                                                                                                          March 2005

                                                          TABLE OF CONTENTS

EXECUTIVE SUMMARY ...........................................................................................................................i
BACKGROUND .......................................................................................................................................... 1
OBJECTIVES, SCOPE, AND METHODOLOGY ...................................................................................... 9
OBSERVATIONS AND CONCLUSIONS................................................................................................ 11
I.      Licensing Process for Chemical and Biological Commodities Generally Resulted in Timely
        Decisions in FY 2003, but Some Improvements Are Needed .......................................................... 11
         A. Review of FY 2003 license applications shows the licensing process is working
            reasonably well........................................................................................................................... 11
         B. Ninety-day time frame does not provide for prompt processing of “non-escalated” license
            applications................................................................................................................................. 16
         C. License processing guidance should be consolidated and readily accessible
            to licensing officers .................................................................................................................... 17
II.     Review of License Applications by the SHIELD Works Reasonably Well, But the Operating
        Committee Needs to Sustain Recent Improvements in Timeliness .................................................. 21
         A. The SHIELD review process ensures that chemical and biological license applications
            are appropriately vetted before escalation to the Operating Committee .................................... 21
         B. Recent Operating Committee changes should result in more timely decisions.......................... 22
III.    Cumulative Effect Reviews Are Not Being Performed for Chemical and Biological
        Export Licenses................................................................................................................................. 25
         A. Congress and others have emphasized the importance of cumulative effect analyses................ 25
         B. BIS lacks the systems and resources to perform cumulative effect analyses ............................. 26
         C. Licensing referral agencies are not performing cumulative effect analyses............................... 29
IV.     Recent Improvements in the Timeliness of Changes to the Commerce Control List
        Need to Be Maintained ..................................................................................................................... 31
         A. Updating the CCL with chemical and biological items is too time consuming.......................... 31
         B. Delays in publishing Australia Group guidelines could cause problems ................................... 33
V.      Denial Notification to the Australia Group Needs to Be More Transparent..................................... 37
VI.     BIS Outreach Efforts Are Mainly Targeted to the Biological Exporting Community and
        Could Be Expanded .......................................................................................................................... 42
         A. BIS outreach efforts to the chemical community need to be expanded...................................... 42
         B. There is an opportunity for focused outreach to registered entities............................................ 43
VII. BIS’ Export Enforcement Office Needs to Act on the Treaty Compliance Division’s
     Investigative Referrals ...................................................................................................................... 46
SUMMARY OF RECOMMENDATIONS ................................................................................................ 48
APPENDIXES
A: List of Acronyms ................................................................................................................................... 50
B: Australia Group Members...................................................................................................................... 51
C: List of Previous Commerce and Interagency Office of Inspector General Reports, Completed
      Pursuant to the National Defense Authorization Act For 2000 ........................................................ 52
D: Agency Response to Draft Report ......................................................................................................... 53
U.S. Department of Commerce                                                              Final Report IPE-16946
Office of Inspector General                                                                         March 2005

                                        EXECUTIVE SUMMARY

The Inspectors General of the Departments of Commerce, Defense, Energy, and State, in
consultation with the Director of Central Intelligence and the Director of the Federal Bureau of
Investigation, are required by the National Defense Authorization Act (NDAA) for Fiscal Year
2000 to conduct an 8-year assessment of the adequacy of current export controls and
counterintelligence measures to prevent the acquisition of sensitive U.S. technology and
technical information by countries and entities of concern. The NDAA mandates that the
Inspectors General report to the Congress no later than March 30 of each year, until 2007.

The United States controls the export of sensitive goods and technologies for national security,
foreign policy, antiterrorism, and nonproliferation reasons under the authority of several different
laws. The primary legislative authority is the Export Administration Act of 1979, as amended.1
Under the Act, the Commerce Department’s Bureau of Industry and Security (BIS) administers
the Export Administration Regulations (EAR) by developing export control policies, issuing
export licenses, and enforcing the laws and regulations for dual-use exports.2 The EAR contains
the Commerce Control List (CCL), which identifies the specific dual-use items subject to
control, and the conditions under which those items may be exported. Under Executive Order
12981, as amended, several other agencies—the departments of Defense, State, and Energy—
have the authority to review all export license applications and render approval or denial
opinions. The Central Intelligence Agency also provides intelligence related to the end-users
listed on the license applications.

Of the 15,506 export license applications received by BIS in FY 2004, 2,801 were for chemical
and biological commodities listed on the CCL. Most of these items are also subject to controls
emanating from the United States’ membership in the Australia Group (AG), a multilateral
regime dedicated to curbing the proliferation of chemical and biological weapons. The United
States is one of 38 member countries and the European Commission3 that make up the Australia
Group, which was established in 1985. AG members have adopted controls on chemical
weapons precursors; dual-use chemical manufacturing facilities and equipment; biological agents
used against humans, animals, and plants; and dual-use biological equipment.

To comply with the NDAA’s FY 2005 requirement, the Offices of Inspector General4 agreed to
evaluate the U.S. export licensing process for chemical and biological commodities to determine
whether current practices and procedures help deter the proliferation of chemical and biological
weapons. Within Commerce, we specifically sought to evaluate BIS’ licensing process for
chemical and biological commodities to determine whether the process is timely, complies with
statutory and regulatory requirements, and takes the cumulative effect of prior technology
transfers to end users into consideration during the review of license applications. We also
1
  Although the Act last expired on August 20, 2001, the President extended existing export regulations under
Executive Order 13222, dated August 17, 2001, invoking emergency authority under the International Emergency
Economic Powers Act.
2
  Dual-use commodities are goods and technology determined to have both military and commercial uses.
3
  The European Commission is the executive body of the European Union—consisting of 25 European countries—
whose role is to propose legislation, administer and implement policies, enforce commission law, and negotiate
international agreements relating to trade and cooperation.
4
  This year’s review also included the participation of the Offices of Inspector General from the Departments of
Agriculture, Health and Human Services, and Homeland Security.

                                                        i
U.S. Department of Commerce                                                                  Final Report IPE-16946
Office of Inspector General                                                                             March 2005

assessed whether data and information are properly shared between the various agencies
involved in the export license review process and whether the dispute resolution process between
the agencies works. Finally, we looked at BIS’ interaction with the AG and its procedures for
placing newly controlled items on the CCL. We did not evaluate the overall outcome of the
licensing process and whether countries or entities were able to illegally acquire biological or
chemical commodities by circumventing the licensing process altogether. Our specific
observations are as follows:

Licensing Process for Chemical and Biological Commodities Generally Resulted in Timely
Decisions in FY 2003, but Some Improvements Are Needed. We took a sample of 90 of the
1,803 chemical and biological license applications submitted in FY 2003 and compared them
against BIS’ guidance for reviewing and processing applications. We found that the licensing
process is generally resulting in timely decisions. For example, the average time to process a
license application was 43.7 days. This is slightly higher than the 40-day BIS standard or
internal goal for processing license applications, but we noted that 26 of the 82 applications in
our revised sample had review times of 44 days or more.5 In addition, Defense, State, and
Energy all completed their review of license applications within the 30-day period allowed, but
CIA took more than 30 days to return 17 of the 56 cases referred to it in FY 2003. It should be
noted, however, that the 30-day period specified for interagency review in Executive Order
12981, as amended, does not apply to the CIA.

Further, license processing times could potentially be improved if BIS set internal timeframes for
closing out applications that do not need to be escalated to the interagency dispute resolution
process. While neither Executive Order 12981 nor the EAR explicitly set time requirements for
the issuance of license applications following the conclusion of the interagency review process
where there is no escalation, internal BIS processing timeframes could encourage more timely
disposition of such license applications.

In addition to focusing on the timeliness of the licensing process, licensing officers need to
follow appropriate policies and procedures in order to ensure proper analysis of export license
applications. However, we found that the guidance BIS provides is an assortment of memos and
documents issued over an 11-year period, and all are housed in different places within BIS, not
readily accessible to the licensing officers. In addition, some of the guidance routinely used by
BIS is not very clear. For example, licensing officers are directed to “characterize the end user”
on a license application, but the guidance does not provide instruction on what should be
included in such descriptions or how the licensing officer should acquire and use this
information. BIS should develop and maintain updated, consolidated written guidance, or an
internal operations handbook, to formalize current license application review practices. This
guidance or handbook should be made accessible to all employees involved in the licensing
process (see page 11).

Review of License Applications by the SHIELD Works Reasonably Well, But the
Operating Committee Needs to Sustain Recent Improvements in Timeliness. License
applications for chemical and biological commodities undergo an additional level of review by

5
 8 of the 90 license applications in our sample ultimately could not be included in our analysis for various reasons,
as listed in Figure 5 on page 12.

                                                          ii
U.S. Department of Commerce                                                          Final Report IPE-16946
Office of Inspector General                                                                     March 2005

the Chemical and Biological Weapons Control Group, an interagency body also known as
SHIELD.6 At SHIELD meetings, the member agencies share viewpoints, intelligence
information, and clarifications on statutory and regulatory authority to resolve differences on
specific license applications. The SHIELD review helps ensure that the applications escalated
for dispute resolution are the result of true disagreement between the agencies. Should SHIELD
not resolve interagency differences, applications are normally escalated for dispute resolution.
Executive Order 12981 states that the Operating Committee—the first of three possible levels of
review or appeal in the dispute resolution process—has 14 days to reach a decision once an
application is escalated. The Operating Committee has improved its time to render decisions in
recent years, but still rarely meets the 14-day requirement. In FY 2003, the average number of
days for the committee to reach a decision on chemical and biological license applications was
51. According to BIS, that number was reduced to 22 days for all license applications escalated
to the OC in FY 2004. This improvement in the timeliness of OC decisions should be sustained
(see page 21).

Cumulative Effect Reviews Are Not Being Performed for Chemical and Biological Export
Licenses. Cumulative effect reviews examine the impact of proposed exports when added to
other past exports to countries and entities of concern. Approval of a single export license may
not result in a significant increase in strategic capability of a country or entity of concern, but
approval of multiple licenses combined with diversion of strategic items from other countries,
the provision of items not requiring a license, and/or legitimate shipments from foreign suppliers
could substantially enhance a country’s ability to build a weapon of mass destruction.

BIS may not have sufficient intelligence information to know other commodities acquired by end
users, but it could track exports of items controlled by BIS. However, we found that BIS lacks
the systems and resources to analyze the cumulative effect of prior technology transfers made to
the end users listed on chemical and biological license applications. In addition, BIS does not
receive such assessments from other agencies, including the CIA, during the interagency export
license application review process. Congress has been concerned for many years that the
interagency licensing community lacks an integrated mechanism to conduct cumulative effect
analyses of U.S. technology transfers. To address this continuing concern, we reiterate the
recommendation from our 1999 report,7 that BIS work with the intelligence community,
including the CIA, Defense, Energy, and State, to develop a method to analyze and track the
cumulative effect of dual-use exports to specific countries and regions. No action has been taken
on that earlier recommendation (see page 25).

Recent Improvements in the Timeliness of Changes to the Commerce Control List Need to
Be Maintained. The AG generally recommends new chemical and biological items for control
on an annual basis. However, BIS, in cooperation with the other U.S. licensing agencies, takes
many months to include these newly regulated items on the CCL. During the last 7 years, BIS
has taken an average of 10 months to get newly regulated chemical and biological items
published on the CCL. BIS and the other licensing agencies cannot disclose such items to U.S.
companies and cannot prevent newly regulated items from being exported until the items are
published on the CCL. Changes from the AG’s June 2004 meeting were published on the CCL
6
 The SHIELD is made up of working-level representatives from State, Commerce (BIS), DOD, CIA, and Energy.
7
 U.S. Department of Commerce Office of Inspector General, Bureau of Export Administration: Improvements Are
Needed to Meet the Export Licensing Requirements of the 21st Century, IPE-11488, June 18, 1999.

                                                     iii
U.S. Department of Commerce                                                   Final Report IPE-16946
Office of Inspector General                                                              March 2005

in just 6 months. We recommend that BIS take appropriate actions to sustain the recent
improvements in the timeliness of U.S. publication of AG guidelines and rule changes that
impact the CCL (see page 31).

Denial Notification to the Australia Group Needs to Be More Transparent. One of the
obligations of AG membership is the submittal of license denials to the group so that potential
proliferators cannot “shop around” for items from one country to another. AG members have
also adopted a “no undercut policy” in which members agree not to approve an identical sale
without first consulting with the member that first denied an export license. The Department of
State, as the lead U.S. representative to the AG, is responsible for submitting license denials to
the AG. For various reasons, State is not currently submitting all denials to the AG, which
means the AG’s no undercut policy is not always triggered. For example, State only submits
denials that involve exports to non-AG countries.

State’s rationale for this “policy” is not documented in any way, which leads to confusion. Since
August 2002, Commerce and State have disagreed about the U.S. policy for submitting denials to
the AG. Unfortunately, the AG’s policy on the reporting of denials is not detailed, so State
interprets the policy one way and Commerce another. Commerce proposes three changes in
State’s current practice: (1) send all denials to the AG to ensure that the no undercut policy is
always triggered, (2) send the denials to the AG at the time that BIS issues its “intent to deny”
letter rather than after the mandatory 45-day period during which BIS will consider any
additional information provided by the exporter to rebut BIS’ decision to deny the application,
and (3) do not unilaterally rescind prior denials sent to the AG. We recommend that BIS ask the
State Department to seek a ruling from the AG Chair on which denials should be sent to the AG
and based on the response, work with all the licensing referral agencies to develop and
implement a written policy and procedures for handling the AG denial notification process (see
page 37).

BIS Outreach Efforts are Mainly Targeted to the Biological Exporting Community and
Could Be Expanded. Outreach to the exporting community is a critical component of BIS’
mission to build awareness of and compliance with export controls. BIS has a reasonably robust
outreach program to the biological exporting community, but outreach specific to the chemical
exporting community has been limited. The only recent outreach dedicated to the chemical
exporting community was done by BIS enforcement agents after the September 11th terrorist
attacks, when the agents were instructed to visit all chemical manufacturers within their
respective regions to inform them of their responsibility to comply with the EAR. Given
resource constraints, BIS should explore alternative ways to increase its outreach to the chemical
community, such as setting up briefings in Washington, mailings, or piggybacking on outreach
done in connection with the Chemical Weapons Convention compliance activities conducted by
BIS’ Treaty Compliance Division. BIS should also seize opportunities to conduct outreach to
the entities registered with the U.S. Department of Agriculture’s Animal and Plant Health
Inspection Service (APHIS) and the U.S. Department of Health and Human Services’ Centers for
Disease Control and Prevention (CDC). Registered entities work with select agents and toxins
controlled by APHIS and CDC, many of which are also contained on the CCL (see page 42).

BIS’ Export Enforcement Office Needs to Act on the Treaty Compliance Division’s
Investigative Referrals. The Treaty Compliance Division (TCD) is the BIS office that helps

                                                iv
U.S. Department of Commerce                                                             Final Report IPE-16946
Office of Inspector General                                                                        March 2005

ensure U.S. industry compliance with the Chemical Weapons Convention (CWC), among other
international treaties. CWC, which took effect on April 29, 1997, affects companies involved in
the production, processing, consumption, import, and export of a range of commercial chemicals
and precursors. One of the CWC requirements imposed on industry is the submittal of end-use
certificates, within 7 days of the date of export, that state the types and quantities of chemicals
being exported, the intended end-use for the chemicals, and a certification that the chemicals will
be used only for purposes not prohibited by the CWC. Between FY 2002 and 2004, TCD
identified 13 instances where companies did not submit the end-use certificates to BIS, as
required. TCD staff referred all of the cases of non-compliance to BIS’ Office of Export
Enforcement (OEE) for investigation and appropriate action. However, TCD told us at the start
of our review that to date, no action had been taken against offenders, and it feared that some
exporters have gotten the impression that BIS does not enforce the end-use certificate
requirement.

We found that OEE had opened 9 investigations on the 12 cases of non-compliance referred by
TCD.8 OEE had no record of one referral and the referral of two companies in FY 2003 was
rolled into open investigations of the same two companies for the same infraction in FY 2002.
After closely analyzing the investigations upon our request, OEE officials determined that three
cases were closed and of those, two were closed prematurely and would be reopened. For the
remaining six cases, no final action had been taken and the cases were still open. OEE should
inform TCD of the outcome of investigations, and TCD should track its referrals to OEE so it
can follow up if it has not received status reports on investigations after a specified period of
time. This information is necessary to help show the other CWC member countries that the U.S.
consistently enforces the treaty within its borders (see page 46).

On page 48, we offer specific recommendations to address our concerns.




In a March 30, 2005, written response to our draft report, the Acting Under Secretary for
Industry and Security agreed with all our recommendations and provided us with specific
comments on the text of the draft report to ensure its accuracy. Where appropriate, we have
made changes to the report and recommendations in response to BIS’ comments. In addition, we
discuss pertinent aspects of the bureau’s response after each recommendation in the report. We
have asked BIS to provide an action plan, within 60 calendar days, addressing the status of its
actions taken to implement the recommendations in our report. The complete response from
BIS is included as an appendix to this report (see page 53).




8
  The 13th referral—for a case of non-compliance in FY 2004—had just been made to OEE at the time of our review,
thus OEE had not yet had time to open a case or take any action.

                                                       v
U.S. Department of Commerce                                                             Final Report IPE-16946
Office of Inspector General                                                                        March 2005



                                             BACKGROUND

The United States controls the export of dual-use commodities for national security, foreign
policy, and nonproliferation reasons under the authority of several different laws. Dual-use
commodities are goods and technology determined to have both civilian and military uses. The
primary legislative authority for controlling the export of dual-use commodities is the Export
Administration Act (EAA) of 1979, as amended.9

Under the Act, the Department of Commerce’s Bureau of Industry and Security (BIS)
administers the Export Administration Regulations (EAR) by developing export control policies,
issuing export licenses, and enforcing the laws and regulations for dual-use exports. BIS was
established in 1987 as a separate regulatory agency within the Commerce Department to control
dual-use exports. Prior to 1987, the agency was an operating component of Commerce’s
International Trade Administration. In FY 2004, BIS had 371 employees and an appropriation of
$69 million.

BIS organizational structure

BIS has two principal operating units: Export Administration (EA) and Export Enforcement
(EE). Within EA, there are two offices with responsibility for processing export license
applications—the Office of Nonproliferation and Treaty Compliance and the Office of National
Security and Technology Transfer Controls. Under the Office of Nonproliferation and Treaty
Compliance is the Chemical and Biological Controls Division (CBCD), which processes export
license applications pertaining to chemical and biological commodities, equipment, and
software. Our review focused on the activities of CBCD, which generally handles license
applications for items controlled on the Commerce Control List (CCL) in 14 different
commodity categories. Most of these items are also subject to controls emanating from the
United States’ membership in the Australia Group (AG), a multilateral assemblage of countries
dedicated to curbing the proliferation of chemical and biological weapons. A description of how
the CCL is derived can be found on page 4.

The Australia Group

The AG, established in 1985, is a forum of industrialized countries that cooperate in trying to
prevent the proliferation of chemical and biological weapons, by coordinating export controls,
exchanging information, and performing other diplomatic actions (see Appendix B for list of
member countries). The 39 AG members have adopted controls on chemical weapon precursors;
dual-use chemical manufacturing facilities and equipment; biological agents used against
humans, animals, and plants; and dual-use biological manufacturing facilities and equipment.

The AG operates by consensus, with members agreeing to develop or amend guidelines,
procedures, and control lists. The group is not based on treaty obligations, so its members,

9
 Export Administration Act of 1979, as amended, sec. 3; 50 U.S.C app. sec. 2402(2). Although the Act expired on
August 20, 2001, the Congress agreed to the President’s request to extend existing export regulations under
Executive Order 13222, dated August 17, 2001, thereby invoking emergency authority under the International
Emergency Economic Powers Act.
                                                       1
U.S. Department of Commerce                                                                     Final Report IPE-16946
Office of Inspector General                                                                                March 2005

including the United States, are not bound by international law to abide by its guidelines.
Instead, the AG operates under the principle of national discretion, with each member deciding
how it will carry out membership obligations. One of the guidelines that members have agreed
to is an AG denial notification procedure, whereby members notify the group when a license for
a controlled item is denied. AG members have also agreed to a "No Undercut Policy," whereby
members agree not to approve an identical export sale without first consulting with the member
issuing the denial notification.

BIS export license application review process for chemical and biological commodities

During FY 2004, BIS received 2,801 chemical and biological export license applications, most
of which were reviewed and processed by CBCD.10 Figure 1 (below) illustrates the total number
of export license applications received by BIS from FY 2000 through 2004 and the subset
processed by CBCD.

Figure 1. Export License Applications Received by BIS

                                18000

                                16000                                                   15506


                                14000
                                                                             12296
       Number of Applications




                                12000      11010      10739      10600
                                                                                                   CBCD
                                10000
                                                                                                   Total
                                 8000                                                              Applications


                                 6000

                                 4000
                                                                                     2801
                                                              1497        1803
                                 2000   1405       1357


                                    0
                                         FY00       FY01       FY02         FY03      FY04


     Source: Bureau of Industry and Security

When BIS receives a license application, either manually or electronically, it is entered into the
Export Control Automated Support System (ECASS).11 ECASS screens all new applications to
determine whether the listed parties have (1) registration numbers in ECASS or need numbers
assigned and (2) any Aflags@ that require the application to be referred to the Office of Export

10
   In FY 2003, a few chemical and biological export license applications were processed by another BIS licensing
division. The vast majority, however, were processed by CBCD.
11
   ECASS is an unclassified system that processes and stores dual-use export licensing information for BIS
headquarters and field offices, the Central Intelligence Agency, and the Departments of Defense, Energy, State, and
the Treasury.
                                                                      2
U.S. Department of Commerce                                                                  Final Report IPE-16946
Office of Inspector General                                                                             March 2005

Enforcement (OEE).12 Applications flagged by the system are simultaneously referred to OEE
and the licensing officers (LOs) in EA. Unflagged applications are referred only to the LOs for
processing.

According to Executive Order 12981,13 BIS has 9 days to conduct its initial review. During this
review, the LO first verifies the export control classification number (ECCN) the applicant
obtained from the CCL. The CCL lists 487 ECCNs for commodities, software, and technology,
14 of which are numbers for chemical and biological commodities (see Figure 2). Each ECCN
contains a brief description of the item(s). Some items are subject to the EAR but not specified
on the CCL. These are designated as AEAR99."14

After verifying the ECCN, the LO reviews the license requirements and license exceptions for
that ECCN. The LO then (1) determines the reasonableness of the end use specified by the
exporter, (2) documents the licensing history of the exporter, (3) documents the licensing history
of the ultimate consignee or end user(s), (4) documents the reason(s) for not referring a license
application to the other agencies (if applicable), and (5) provides a written recommendation on
whether to approve or deny the application. After the LO’s review is completed, the application
is referred to the Departments of Defense, Energy, and State. BIS also provides the Central
Intelligence Agency with the application for review at the same time as the other agencies.




12
   Generally, applications referred to OEE are those involving parties on BIS’ watchlist, as they have been identified
as warranting increased scrutiny for export license purposes. OEE agents may also put flags on certain parties that
they are interested in seeing, such as parties involved in an ongoing investigation.
13
   Executive Order 12981, as amended—Administration of Export Controls, December 5, 1995.
14
   Normally, a license is not required for an item classified as EAR99 unless certain prohibitions apply (e.g., export
to an embargoed destination) or there is a concern about the end user or end use.
                                                          3
     U.S. Department of Commerce                                                           Final Report IPE-16946
     Office of Inspector General                                                                      March 2005



Figure 2. Export Control Classification Numbers for Chemical and Biological Items

                                   The Export Administration Act of 1979, as amended, is the primary legislative
       EXPORT                      authority for controlling the export of goods and technologies that have both
    ADMINISTRATION                 civilian and military uses. The Act expired on August 20, 2001, but the
         ACT                       President extended existing export regulations with Executive Order 13222,
                                   dated August 17, 2001, thereby invoking emergency authority under the
                                   International Emergency Economic Powers Act.
       EXPORT
    ADMINISTRATION                 The Export Administration Regulations control the export and re-export of
     REGULATIONS                   specific commercial or dual-use items that have both civilian and military uses.

                                   The Commerce Control List includes commodities, software, and technology
       COMMERCE                    subject to control under the EAR, grouped by type of commodity in 10 broad
      CONTROL LIST                 categories, including nuclear materials, facilities, and equipment. Each
                                   category is further subdivided into five product groups.
    EXPORT CONTROL                 Items within each of the 10 categories are identified by an alphanumeric
     CLASSIFICATION                ECCN. There are 487 ECCNs on the CCL and each describes a particular
       NUMBERS                     item or type of item, and shows the controls placed on that item. (See
                                   Supplement No. 1 to part 774 of the EAR.)

           ECCNs
      For Chemical and             The CCL includes 14 ECCNs for chemical or biological items.
       Biological Items

    ECCN      Description
    1C350     Chemicals that may be used as precursors for toxic chemical agents
    1C351     Human and zoonotic pathogens and Atoxins@
    1C352     Animal pathogens
    1C353     Genetic elements and genetically-modified organisms
    1C354     Plant pathogens
    1C395     Mixtures and medical, analytical, diagnostic, and food testing kits not controlled by ECCN 1C350
    1C991     Vaccines, immunotoxins, medical products, diagnostic and food testing kits
    1D390     ASoftware@ for process control that is specifically configured to control or initiate Aproduction@ of
              chemicals controlled by ECCN 1C350
    1E350     ATechnology@ according to the AGeneral Technology Note@ for facilities designed or intended to
              produce chemicals controlled by ECCN 1C350
    1E351     ATechnology@ according to the AGeneral Technology Note@ for the disposal of chemicals or
              microbiological materials controlled by ECCNs 1C350, 1C351, 1C352, 1C353, or 1C354
    2B350     Chemical manufacturing facilities and equipment, except valves controlled by 2A226 or 2A292
    2B351     Toxic gas monitoring systems that operate on-line and dedicated detectors therefor
    2B352     Equipment capable of use in handling biological materials
    2E301     ATechnology@ according to the AGeneral Technology Note@ for Ause@ of items controlled by ECCNs
              2B350, 2B351, and 2B352


     Source: BIS and Office of Inspector General



                                                           4
U.S. Department of Commerce                                                                Final Report IPE-16946
Office of Inspector General                                                                           March 2005

Referral of export license applications to other agencies

The Export Administration Act of 1979, as amended, authorizes the Secretary of Commerce to
issue rules and procedures for processing dual-use export license applications. The Act requires
that a determination concerning an export license application be made by the Secretary of
Commerce, without referral to any other government department or agency, to the maximum
extent possible. However, in December 1995, in response to the need for more transparency in
the dual-use export license process, the President issued Executive Order 12981. Specifically, it
authorized the Departments of Defense, Energy, and State and the Arms Control and
Disarmament Agency15 to each review any license application received by Commerce. In
addition, Executive Order 12981 established mandatory escalation procedures to be followed,
when the reviewing agencies disagreed about dual-use export license applications, and defined
the time frames for this escalation process. (See Figure 3).

Currently, the Departments of Defense, Energy, and State review all export license applications
except applications for which those departments have delegated decision authority to
Commerce.16 BIS also sends all chemical and biological license applications to the Central
Intelligence Agency=s Weapons Intelligence, Nonproliferation, and Arms Control Center
(WINPAC) for an end user review.17

Under the Executive Order, the referral agencies (Defense, Energy, and State) must provide a
recommendation to approve or deny the license application to the Secretary of Commerce within
30 days of receipt of the referral and all related required information. To deny an application,
the referral agency is required to cite both the statutory and regulatory basis for denial, consistent
with the provisions of the EAA and the EAR. An agency that fails to provide a recommendation
within 30 days is deemed to agree with the decision of the Secretary of Commerce.

Most export licenses are issued with conditions that require the exporter to abide by certain
restrictions. The conditions are primarily used to control proliferation of the commodity by
limiting the end use or restricting access to the commodity to specific end users. There are 55
standard conditions that BIS can place on an export license. When BIS refers the export license
application to the other agencies, it attaches a list of recommended conditions for the agency to
review. The referral agencies can also recommend additional conditions be placed on the export
license before it is issued. If the reviewing agencies disagree on the license application, the
application goes to the Operating Committee for resolution.

Before an application for a chemical and biological export license application is escalated, any of
the reviewing agencies may choose to address a potential proliferation concern on a particular
application by discussing the application at the SHIELD interagency working group, which is


15
   The U.S. Arms Control and Disarmament Agency was dissolved on April 1, 1999. Its licensing review function
was moved to the State Department.
16
   Energy did not review chemical and biological export license applications until April 2003. It had previously
provided BIS with a delegation of authority to review any such applications on its behalf. That delegation of
authority was rescinded on April 15, 2003, after the agency added more LOs and decided it had the ability to review
all chemical and biological license applications.
17
   In FY 2003, WINPAC did not review all license applications, only those for which an intelligence report on the
end user(s) had not been generated for a specific period of time.
                                                         5
    Figure 3. Dual-Use Export Licensing Process


                    0 Days                                  9 Days                                        39 Days                                90 Days


                               Pre-License
                                 Check               License, Deny, or Return                      License, Deny, or Return              License, Deny, or Return
                                  (PLC)



                BIS Initial               Enforce-              Not Referred                                                                                 Post
                Screening/                 ment                                                                                                            Shipment
                Technical                 Review                                                                                                          Verification
                 Review                                                              CIA                                                                    (PSV)
                                                                                 Information
               (Registration                              Decision                                        Decision        Disagree
                    of
                                                                          (1)




6
               Application)
                                           Initial              Referred        Referral Process                                Dispute Resolution Process
                                           Case                                       CIA               (2)
                                          Analysis                                 Defense                                    OC     ACEP EARB President
                                                                                    Energy            Recommendations         (3)     (4)  (5)   (6)
                                                                                    Justice
                                                                                     State




                                                                                     PLC

      (1)   On or before day 9 of registration, BIS must refer the application or issue, deny, or return without action (RWA) the license.
      (2)   On or before day 39 of registration, the referral agencies must provide BIS with a recommendation.
      (3)   On or before day 40 of registration, the application can be referred to the Operating Committee, which has 14 days to make a recommendation.
      (4)   On or before day 59 of registration, the application can be referred to the Advisory Committee on Export Policy, which has 11 days to make a decision.
      (5)   On or before day 75 of registration, the application can be sent to the Export Administration Review Board, which has 11 days to make a decision.
      (6)   On or before day 90 of registration, the application can be escalated to the President.
      Executive Order 12981 provides several circumstances for stopping these time frames, such as obtaining additional information from the applicant.
    Source: Office of Inspector General
U.S. Department of Commerce                                                                   Final Report IPE-16946
Office of Inspector General                                                                              March 2005

chaired by the Department of State, and has working-level representatives from Commerce
(BIS), DOD, CIA, and Energy.18 The SHIELD group reviews dual-use export license
applications related to the possible proliferation of chemical or biological weapons with the goal
of resolving differences between agencies and thereby precluding the need to escalate license
applications into the formal dispute resolution process.

Dispute resolution process

If there is disagreement on whether or not to approve a pending license application after the 30-
day review period, the application is referred to a higher-level interagency working group called
the Operating Committee (OC). Under Executive Order 12981, the OC has representatives from
the Departments of Commerce, Defense, Energy, and State. Non-voting members of the OC
include appropriate representatives of WINPAC and the Joint Chiefs of Staff. The OC meets
weekly. The Secretary of Commerce appoints the OC chairman who considers the
recommendations of the reviewing departments before making a decision. The OC chair=s
decision does not have to be based on a majority vote.19

Within 5 days of the OC chair’s decision, a reviewing department may appeal or escalate the
decision to the Advisory Committee on Export Policy (ACEP). The ACEP meets monthly if
there are applications to decide and is chaired by the Commerce Assistant Secretary for Export
Administration, and includes Assistant Secretary-level representatives from the Departments of
Defense, Energy, and State. The ACEP also includes non-voting representatives from WINPAC
and the Joint Chiefs of Staff. The ACEP’s decision is based on a majority vote.

Within 5 days of an ACEP decision, any dissenting department or agency may appeal the
majority decision to the Export Administration Review Board (EARB). The Secretary of
Commerce chairs the EARB, and its members include the Secretaries of Defense, Energy, and
State. The Chairman of the Joint Chiefs of Staff and the Director of the Central Intelligence
Agency are non-voting members of the EARB. The EARB=s decision is based on a majority
vote. Finally, within 5 days of this decision, any dissenting agency may make a final appeal to
the President.

End use checks

End use checks are an important component of the export licensing process. They help
determine if the end users or intermediary consignees are suitable to receive sensitive U.S. items
and technology and will likely comply with appropriate end use conditions and retransfer
restrictions. End use checks consist of pre-license checks (PLCs), which are conducted to obtain
information about a foreign end user or intermediary consignee before the approval of a license
application, and post shipment verifications (PSVs), which are conducted after goods have been
shipped. PSVs help determine whether the licensed item or technology was received and is


18
   SHIELD does not serve as an acronym for any phrase. The group uses all capital letters for its name, which is
why it is presented as such in this report.
19
   Per Executive Order 12981, as amended, one exception to this rule involves “. . .license applications concerning
commercial communication satellites and hot-section technologies for the development, production, and overhaul of
commercial aircraft engines. . . ” For these applications, the chair of the OC is to report the “majority vote decision
of the OC” rather than his/her decision.
                                                           7
U.S. Department of Commerce                                                             Final Report IPE-16946
Office of Inspector General                                                                        March 2005

being used appropriately by the party named on the license or shipper=s export declaration (SED)
or whether it was diverted to an unauthorized end user.

End-use checks (PLCs and PSVs) are conducted by BIS export control attachés (stationed in
Hong Kong, Abu Dhabi, Beijing, Moscow, and New Delhi), by BIS special agents traveling in
two-person Sentinel Teams, 20 or where these options are not available or not economical, by U.S.
Commercial Service or State personnel stationed in the country where the end-use check is
conducted. Any of the departments (Commerce, Defense, Energy, or State) authorized under
Executive Order 12981, as amended, to make recommendations on export license applications
can request an end-use check.

Chemical Weapons Convention and the Treaty Compliance Division

The U.S. is party to several international arms control, disarmament, and nonproliferation
agreements, including the Chemical Weapons Convention (CWC), an international treaty that
bans the development, production, stockpiling, or use of chemical weapons by its signatories and
provides a verification regime to ensure compliance with its nonproliferation terms. The treaty
affects companies involved in the production, processing, consumption, import, and/or export of
a range of commercial chemicals and precursors. The CWC entered into force on April 29,
1997, and currently 167 countries are state parties to the convention. Of the 50 chemicals on the
CCL that are subject to AG controls, 30 are CWC chemicals.

For these 30 chemicals, there are additional requirements placed on exporters to ensure
compliance with the CWC. For example, in addition to obtaining an export license for a
chemical, the CWC might also require the exporter to file an end-use certificate—a document
provided by the country of destination stating what the chemical will be used for, who the end-
user is, and certifying that it will be used only for purposes not prohibited by the CWC. The
additional obligations on exporters, as required by the CWC, vary depending on the chemical
and the country to which it is being exported. BIS’ Treaty Compliance Division (TCD) is
responsible for ensuring that U.S. industry is in compliance with the CWC. As such, TCD
assists U.S. companies in (1) submitting annual declarations, end-use certificates, and other
reports to both BIS and the Organization for the Prohibition of Chemical Weapons,21 (2)
preparing for on-site inspections, and (3) making determinations on whether chemicals are
subject to CWC reporting requirements.

TCD is also responsible for strengthening international cooperation with the Biological Weapons
Convention (BWC), which prohibits developing, producing, stockpiling, or otherwise acquiring
or retaining biological agents or toxins for non-peaceful purposes. The BWC entered into force
in 1975 and 153 countries are state parties to the convention.




20
 Prior to late 2004, the BIS end use check program was called the Safeguard Verification Program.
21
 The Organization for the Prohibition of Chemical Weapons is the international body created to implement the
CWC.
                                                       8
U.S. Department of Commerce                                                             Final Report IPE-16946
Office of Inspector General                                                                        March 2005

                         OBJECTIVES, SCOPE, AND METHODOLOGY

The Inspectors General of the Departments of Commerce, Defense, Energy, and State, in
consultation with the Director of Central Intelligence and the Director of the Federal Bureau of
Investigation, are required by the National Defense Authorization Act (NDAA) for Fiscal Year
2000, to conduct eight annual assessments of the adequacy of current export controls and
counterintelligence measures to protect against the acquisition of sensitive U.S. technology and
technical information by countries and entities of concern.22 This is the sixth review under the
NDAA requirement.23 The Commerce Office of Inspector General (OIG) conducted this
program evaluation in accordance with the Quality Standards for Inspections issued by the
President’s Council on Integrity and Efficiency in 1993, and under authority of the Inspector
General Act of 1978, as amended, and Department Organization Order 10-13, dated May 22,
1980, as amended.

Our objectives were to review the adequacy of BIS’ export licensing process to determine
whether it helps deter the proliferation of chemical and biological weapons and prevents the
acquisition of sensitive U.S. technology or technical information by countries or entities of
concern. We did not evaluate the overall outcome of the licensing process and whether countries
or entities were able to illegally acquire biological or chemical commodities by circumventing
the licensing process altogether.

Our scope included determining whether BIS (1) reviews license applications within regulatory
timeframes; (2) properly submits license applications to the other licensing agencies; (3)
adequately manages the interagency dispute resolution process; (4) processes each license
application using information from PLCs and records of exporter compliance with prior license
conditions, and analyzing the cumulative effect of proposed and prior chemical and biological
technology transfers; (5) properly submits denied applications to the AG; (6) incorporates new
AG regulations into the CCL in a timely manner; and (7) performs outreach about export
controls for chemical and biological commodities to the exporting community. Our
methodology included the following:

     x Statistical analysis. We evaluated three types of license applications submitted to BIS
        in FY 2003 to accomplish the tasks listed above: (1) a statistically valid sample of 90
        regular chemical and biological applications (out of 1,803), (2) all 17 license
        applications escalated to the OC, and (3) the 23 denied license applications in FY 2003.

     x Interviews. To determine the effectiveness of the current export license process and
        obtain their suggestions for improving the process, we spoke with BIS personnel from
        the following groups: (1) Office of Nonproliferation and Treaty Compliance, including
        the Chemical and Biological Controls Division, (2) Regulatory Policy Division, (3)
        Office of Enforcement Analysis, (4) Office of Exporter Services, and (5) the Operating
        Committee Chair. We also spoke with representatives of other organizations, including
        (1) the Chairman of the SHIELD24 at the Department of State about how chemical and

22
   The Offices of Inspector General from the Departments of Agriculture, Health and Human Services, and
Homeland Security also participated in this review.
23
   See Appendix C for a list of the reports resulting from the five previous reviews.
24
   The SHIELD is discussed on pages 5 and 21.
                                                       9
U.S. Department of Commerce                                                           Final Report IPE-16946
Office of Inspector General                                                                      March 2005

         biological applications are reviewed and (2) Department of Agriculture officials about
         chemical and biological items controlled by Agriculture but not listed on the CCL.

     x Literature review. We evaluated specific literature during our review including (1)
        prior Government Accountability Office (GAO), Commerce OIG, and interagency OIG
        reports, (2) the BIS FY 2003 and 2004 Annual Reports, (3) the BIS FY 2003 Foreign
        Policy Report, (4) BIS procedures for processing license applications, and (5) relevant
        laws and regulations.

In addition, we followed up on our recommendations from prior Commerce OIG reports related
to the export licensing process and/or export controls for biological agents.25

To coordinate the review of interagency issues and determine the work to be performed by each
OIG team, the eight OIGs involved in this year’s review formed an interagency working group
and held monthly meetings during the review. The eight OIGs decided that each would issue a
report on the findings of its agency review, and all eight would contribute to and approve a
consolidated report on crosscutting issues. We conducted our review from August 12, 2004,
through January 21, 2005. On March 9, 2005, we conducted an exit conference with the Acting
Under Secretary for Industry and Security and other senior BIS officials to discuss the contents
of this report.




25
  U.S. Department of Commerce Office of Inspector General, Bureau of Export Administration: Assessing the
Effectiveness of Export Controls for Dual-Use Biological Agents, RM-6686, September 1995, and U.S. Department
of Commerce Office of Inspector General, Bureau of Export Administration: Improvements Are Needed to Meet the
Export Licensing Requirements of the 21st Century, IPE-11488, June 18, 1999.
                                                     10
U.S. Department of Commerce                                                                     Final Report IPE-16946
Office of Inspector General                                                                                March 2005



                                  OBSERVATIONS AND CONCLUSIONS

I. Licensing Process for Chemical and Biological Commodities Generally Resulted in
   Timely Decisions in FY 2003, but Some Improvements Are Needed

Proper analysis of individual export license applications is critical to ensure that appropriate
export policies and procedures are followed. We looked at a sample of chemical and biological
license applications submitted in FY 2003 and found that the licensing process is generally
resulting in timely decisions. We found that while Executive Order 12981 and the EAR provide
specific time limits for interagency processing and resolution of disputes involving dual use
license applications, they do not explicitly address a time requirement for the completion of a
license application that is approved by the interagency group and not escalated. At present, LOs
have no time requirement—and could take up to the 90 days allowed under the Executive
Order—for processing license applications once they are returned from interagency review.
With no objection from the interagency group, the license application may be returned to BIS on
the 40th day after registration of the completed license application, with no Executive Order
required action for another 50 days.

Finally, license processing guidance should be consolidated and readily accessible to LOs. The
guidance for reviewing export license applications cited by LOs and BIS management was an
assortment of memos and documents issued over an 11-year period. This guidance is housed in
different places within BIS and not readily accessible to the LOs. In addition, the guidance that
is routinely used by BIS is not always detailed enough to provide specific steps for reviewing a
license application. Clear, complete, and consolidated guidance is needed to formalize current
license application review practices and ensure that they are consistently applied.

A.         Review of FY 2003 license applications shows the licensing process is working
           reasonably well

Based on information received from BIS, 1,803 license applications were processed for chemical
and biological commodities in FY 2003. We reviewed a statistical sample of 5 percent of those
cases, or a total of 90 license applications. In addition, we requested information on the 17
escalated license applications referred to the OC in FY 2003 and the 23 denied applications in
FY 2003 for a total of 130 license applications reviewed.

As shown in Figure 4, we divided the license applications into four categories: (1) “Vanilla”26
when they appeared to be complete with few, if any, questions from the interagency group, (2)
“Outliers”, a term we used to describe the applications that were returned without action,
pending at the time of our sample selection, or incorrectly included in our sample, (3)
“Escalated” when the applications were referred to the OC due to interagency disagreement, and
(4) “Denied” when the applications were denied. The escalated applications are discussed in
more detail in Chapter II of this report (see page 21). With regard to the denied applications, we
determined that BIS and the other licensing agencies had appropriately denied the applications,
in accordance with the criteria set forth in the EAR. Also, BIS was generally timely in its
issuance of the final denial decisions after the applicants’ mandatory 45-day appeal period had

26
     Vanilla is a term used by BIS and the other licensing agencies to describe a straightforward license application.
                                                            11
U.S. Department of Commerce                                                                    Final Report IPE-16946
Office of Inspector General                                                                               March 2005

concluded. We found no significant problems with the denied applications and, in fact, these
applications indicate that the export licensing process for chemical and biological commodities is
working as intended.

                               Figure 4. License Applications Reviewed
                                  Type of       Number of      Percent of
                                 application   applications       total
                                Vanilla             82           63%
                                Outliers             8             6%
                                Escalated           17           13%
                                Denied              23           18%
                                Total              130           100%
                               Source: OIG

Figure 5 explains why the 8 outlier applications noted above were excluded from our analysis.

 Figure 5. Outlier License Applications Excluded from Analysis
             Description               Number                      Reason
  Returned without action (RWA) 27        6       Average days to process 26; no data
                                                  available for comparative purposes
                                                  other than total days from BIS receipt
                                                  to RWA issuance.
  Pending                                 1       Application was in pending status at
                                                  time of sample selection.
  Handcuffs to Norway                     1       Was not a chemical or biological
                                                  commodity and was incorrectly
                                                  included in the list of applications from
                                                  which the sample was selected.
  Total                                   8
     Source: OIG

Our in-depth analysis of the remaining 82 license applications identified some issues that require
BIS’ overall attention.

Analysis of license applications found most were processed in a timely manner

Our calculation of the total days to process a license application was based on information
contained in the referral history section of BIS license applications. Total days were calculated
from the date of receipt of the license application until the day reviewing staff completed final
signoff. Total days were then adjusted for the number of days a license application was placed in
hold without action (HWA) status, if any. 28 In our review of the 82 license applications, we


27
   RWA is used to return a license application to the applicant if the applicant has failed within 20 days to provide
additional information that BIS has requested in order to process the application. RWA can also be used if (1)
during initial evaluation of an application, an LO determines that a license is not required, (2) the applicant requests
the application be returned, or (3) the items are not under Department of Commerce jurisdiction.
28
   License applications can be put on HWA when BIS is (1) waiting on information from an exporter, (2) at the
direction of a division or office director, or (3) in accordance with Executive Order 12981.
                                                           12
U.S. Department of Commerce                                                                Final Report IPE-16946
Office of Inspector General                                                                           March 2005

found the average time to refer the application to the interagency group was 3.6 days with only
one case taking longer than the 9-day requirement.

The average time to process these license applications from receipt to the completion of
interagency review was 43.7 days. Although this average time was reasonably close to the 40-
day BIS standard or internal goal for processing license applications, we found that 34 cases, or
41 percent, took longer than 40 days. Eight of those license applications took between 41 and 43
days to process. We did not assess these further since they were within 1-3 days of meeting the
BIS standard or internal goal. However, Figure 6 provides a breakdown of the reasons for delay
in the remaining 26 license applications (32 percent) with review times of 44 days or more.

             Figure 6. Reasons for License Processing Times That Exceeded 44 Days29
                                                                   Total license
                                Reason for delay                   applications
              Waiting for CIA information                               13
              Delayed in CBCD 11-34 days after interagency               7
              approval
              Waiting for CIA and OEE information                        3
              Waiting for OEE information                                3
              Total                                                     26
              Source: OIG

Interagency and OEE processing of license applications is generally timely

In our review of the 82 license applications, we found that all interagency referrals to the
departments of Defense, State, and Energy were returned to BIS within the 30-day requirement.
It took 23.3 days on average for information on 56 cases referred to the CIA during FY 2003 to
be returned to BIS. A total of 17 of those license applications sent to CIA, or 30 percent, took
longer than the 30-day requirement.30

In applications referred to OEE, the total days to receive OEE’s comments averaged 10.3 days,
although 14 applications, or 27 percent, were greater than OEE’s self-imposed 6-day
requirement31 for reviewing license applications. A summary chart follows on the next page.




29
   License processing times ranged from 45 to 112 days after HWA time was deducted.
30
   Defense, State, and Energy each have 30 days, concurrently, to review referred licenses. While Executive Order
12981 does not specifically provide a time requirement for CIA’s review of referred licenses, BIS and CIA have
agreed to aim for a 30-day turnaround for CIA’s input. The time requirement for OEE review is 6 days. The goal
for completing the initial overall review is 39 days (9 days to interagency referral and 30 days for interagency
[including CIA]) review.
31
   The 6-day requirement was contained in the performance plans of OEE analysts, but was not drawn from any
overall BIS guidance or by direction of the Executive Order. This 6-day requirement is different, and preceded, the
new requirement put in place in July 2004 and discussed in detail on pages 14-15.
                                                        13
U.S. Department of Commerce                                                             Final Report IPE-16946
Office of Inspector General                                                                        March 2005

submit its recommendations to EA within 6 days of receiving applications, including the reason
why PLCs or other actions are warranted. If OEE and EA disagree on an application, the EE and
EA directors or the Under Secretary must resolve the disagreement before the 9-day requirement
and referral to the other licensing agencies. If OEE requests a PLC for an application, the Under
Secretary has established a certain number of days for the foreign posts and/or BIS attaché to
complete the PLC.34 In addition, a pending PLC or other OEE flag on an application could delay
actual issuance of a license after interagency approval.

Delays in CBCD processing of license applications were not always easily explained

Seven license applications, or 8 percent, were delayed by CBCD from 11 to 30 days after
interagency approval, as shown in Figure 9.

                                  Figure 9. Delays in CBCD after
                                  interagency approval
                                   Application Total Days Days in
                                      No.      to Approval CBCD
                                       1            70        20
                                       2            58        30
                                       3            52        20
                                       4            51        23
                                       5            47        15
                                       6            45        13
                                       7            45        11
                                    Source: OIG

We asked CBCD management to explain the delays. However, it was difficult for CBCD
management to explain all seven cases, as some of the LOs that processed these applications
have since left BIS and the records in ECASS are not detailed enough to always reconstruct what
happened in the processing of an application. As a general explanation for delays, CBCD
management noted that in very rare cases a license application might remain in the
countersigner's queue for more than a week. Occasionally, they reported, the countersigner may
need to send the license applications back to the LO for clarification of conditions, insertion of
inadvertently excluded caveats, or for correction. In other cases, a policy change may make it
impossible to countersign an application until CBCD senior management and/or BIS senior
management take action—this was definitely the case for two of the seven applications above
and, according to CBCD officials, possibly for another two as well. For example, after a meeting
between Commerce and Defense, CBCD agreed to include a condition on all CBCD export
licenses limiting the end-use to that stated on the license application. This agreement
necessitated halting all approvals until the proper language could be worked out.

One senior LO emphasized that sometimes BIS will hold onto an application for a few days past
an application’s return from the 30-day review by the referral agencies in hopes that the case can
be resolved rather than having to refer it to the OC. The senior LO noted that LOs are given the

34
  BIS' Under Secretary specified the following three timeframes for PLCs: (1) most PLCs would be completed in 14
days or less, (2) PLCs in countries without a BIS attaché would be completed in 28 days or less, and (3) PLCs in
China would be completed in 60 days or less. BIS management will intervene if these timeframes are exceeded.
                                                      15
U.S. Department of Commerce                                                    Final Report IPE-16946
Office of Inspector General                                                               March 2005

leeway to use their professional judgment if a case is close to being resolved and permission for
extension is not requested from BIS management. The OC Chair said that he prefers that LOs
and division directors try to work out issues with their counterparts at the referral agencies before
escalating a license application. He said it helps avoid unnecessary escalations even if this
means taking a few extra days.

B.     Ninety-day time frame does not provide for prompt processing of “non-escalated”
       license applications

Although Executive Order 12981 and the EAR specify time requirements for the initial license
application review, interagency review, and a total processing time for escalated license
applications, neither includes a specific time requirement for completing a license application
that is approved by the interagency group during the initial interagency review process.

The 90-calendar day timeframe for the review of license applications from their receipt in BIS is
realistic if referral is made to the Operating Committee (OC), Advisory Committee on Export
Policy (ACEP), and Export Administration Review Board (EARB), but no guidance is provided
to LOs to encourage the timely disposition of license applications that are approved without
escalation to the OC. In fact, if these applications are received back from the referral agencies
on the 40th day after receipt of a license application, BIS has an additional 50 calendar days to
review and sign off on the license application, and finally to notify the applicant, without
violating the requirements of the EAR. This could result in unnecessary expense to the exporter
and possibly the end user since the shipment of the affected goods would be delayed pending
receipt of the approved license.

CBCD staff and other BIS officials agree that Executive Order 12981 and the EAR do not
specifically address timeframes for the processing of applications with interagency agreement.
However, they say their mandate is to process applications as quickly as possible after
interagency agreement is reached and that BIS would never take an additional 50 calendar days
to review and sign off on a license application. As mentioned previously, in most cases, BIS is
processing applications in a timely manner. The average for vanilla cases was 43.7 days in FY
2003, meaning that CBCD took just a few days after interagency agreement to finalize
applications. But, as noted in Figure 9, seven license applications were delayed in CBCD
between 11-30 days after interagency approval until final sign off. Even though all seven cases
were completed within the overall specified 90-day timeframe, it is difficult to determine
whether CBCD was timely in the processing of these applications because there is no specific
criteria to use to judge their performance.

Recommendation

BIS should establish specific timeframes for reviewing and signing off on license applications
after approval by the referral agencies.



BIS, in its response to our draft report, agreed with this recommendation.


                                                 16
U.S. Department of Commerce                                                                Final Report IPE-16946
Office of Inspector General                                                                           March 2005

While providing a basic framework for analysis, the 8-point memorandum was written prior to
the issuance of Executive Order 12981 on December 5, 1995. In addition, since Export
Administration Act discussions were still underway on the date of the memorandum’s issuance,
it speculates on the final changes to be made in the Act and their subsequent impact on the LO’s
review of license applications. These are the appropriate areas that LOs should focus on during
reviews, but guidance on how to accomplish these objectives is lacking. For instance, the third
item tells the LO to “characterize the end user,” but it does not say how the LO should acquire
the information beyond what was submitted by the applicant (e.g., researching the entity on the
Internet) or what types of questions the LO should ask exporters or end users in specific markets.
The fifth item tells LOs to identify any special conditions that Commerce suggests should be
placed on a license, but it does not indicate the criteria the LO should use in making that
decision. Such information would be especially helpful to the referral agencies as they do their
own license reviews.

Additional guidance was found, but is not being used

To supplement the 8-point analysis memorandum, CBCD issued specific guidance for LOs as a
reference for reviewing export license applications for biological and chemical commodities.
CBCD=s guidance provides some additional instructions to that in the 1994 memorandum. For
example, the guidance states that “university” is not a complete description of an end user unless
the LO specifies the school or laboratory within the university. CBCD=s guidance also requires
that LO notes35 include supporting documentation for any decision made as a result of contacts
with various individuals and organizations. CBCD also created a “Commodity Classification
and License Determination Guide” to assist LOs in determining the appropriate ECCN for items
controlled for chemical and biological weapon proliferation reasons. In the absence of
comprehensive policies and procedures for all LOs, we compliment CBCD for creating useful
reference materials for LOs to use during their license application analysis. However, we are not
sure if LOs are using this guidance since when we asked them for the criteria used for their
review of license applications, LOs did not make reference to it. We knew about the CBCD
guidance only because it was discussed in our 1999 report.36 When we asked for a copy of the
CBCD guidelines, one LO stated that it was saved in an old version of word processing software
and was not accessible to him.

On March 31, 1999, EA officials implemented new procedures that emphasized the importance
of obtaining sufficient information before processing a license application and identified the
types of facts and details that must be documented in LO notes. Once again, however, when
asked for the criteria used to review license applications, LOs did not refer to this newer
guidance. We knew to ask for a copy only because it was mentioned in our 1999 report.

The Licensing Officers Operating Manual has been discontinued and planned electronic library
has not been developed

In our 1999 report, we noted that the policy and procedures used by LOs varied. At that point,
we noted that the Licensing Officers Operating Manual (LOOM), dated October 1, 1995, had
35
   The electronic data file for license applications includes a section for the LO to include comments and notes of
importance for additional consideration by reviewers.
36
   U.S. Department of Commerce Office of Inspector General, Bureau of Export Administration: Improvements Are
Needed to Meet the Export Licensing Requirements of the 21st Century, IPE-11488, June 18, 1999.
                                                        18
U.S. Department of Commerce                                                             Final Report IPE-16946
Office of Inspector General                                                                        March 2005

become an assortment of outdated or superceded documents and was not user friendly. We also
reported that the contents of individual LOs’ operating manuals varied.37 EA officials said after
the LOOM was modified, in 1995, per Executive Order 12981, it was not updated again for
almost a year-and-a-half because of resource constraints. Subsequent to our 1999 review, the
LOOM was discontinued.

BIS officials also told us in 1999 they would explore the creation of an electronic library to store
new policies and procedures. The library was envisioned to include an on-line LO manual and
policies and procedures for commodity classifications, license application analysis, license
determinations, country-specific policies, referral policies, and record keeping. During this
review, we learned from EA staff that the electronic library was only partially developed, and a
lack of funding and resources prevented its actual implementation.

Conclusions

According to our interviews with LOs in CBCD, they primarily rely on the April 1994 8-point
analysis memorandum to review export license applications. During our review we found that
there is other BIS guidance, such as the CBCD specific guidelines, the March 1999 additional
guidance, and the criteria for when HWA/RWA can be applied, which LOs clearly are not aware
of and/or are not using. Given how difficult it was for us to find the official BIS guidance
(beyond the 8-point analysis memorandum) for the review of export license applications, it
certainly cannot be easy for busy LOs to find it either. Furthermore, the project that would have
centralized such guidance in an electronic library was not completed and the handbook that
previously kept all guidance in one place, the LOOM, is outdated and no longer in use.

Given BIS’ important regulatory role as the licensing agency for dual-use exports, guidance for
the processing of license applications should be better managed. To ensure that all LOs,
including new ones, have clear and complete guidance for processing cases, BIS should develop
and maintain updated, consolidated, and comprehensive written guidance or an internal
operations handbook, to formalize license application review practices. This guidance or
handbook should be readily accessible to all employees involved in the licensing process. EA
should also develop a long-term plan for maintaining the guidance and/or handbook, including
responsibility for ensuring it is kept up-to-date.




37
  The OIG team conducting the 1999 review also had difficulty getting a complete up-to-date LO manual. On
November 20, 1998, we were provided a copy of the operating manual from the Director of the Office of Exporter
Services, who informed us that it was a complete and updated copy. However, in March 1999, we learned that
several key sections of the operating manual, such as case analysis, were missing from our copy. On March 25,
1999, the Office of Exporter Services provided us with the missing sections.

                                                      19
U.S. Department of Commerce                                                  Final Report IPE-16946
Office of Inspector General                                                             March 2005

Recommendation

Develop and maintain clear, consolidated, and up-to-date guidance, or an internal operations
handbook, to strengthen current license application review practices and help ensure that they are
consistently applied.



In responding to our draft report, BIS stated that it agreed with this recommendation.




                                                20
U.S. Department of Commerce                                                                Final Report IPE-16946
Office of Inspector General                                                                           March 2005

II.        Review of License Applications by the SHIELD Works Reasonably Well, But the
           Operating Committee Needs to Sustain Recent Improvements in Timeliness

License applications for chemical and biological commodities have the benefit of an additional
level of review by the Chemical and Biological Weapons Control Group, an interagency working
group also known as SHIELD. At the SHIELD meetings, the member agencies share
viewpoints, intelligence information, and clarifications on statutory and regulatory authority to
help resolve differences and prevent the need to escalate applications to the OC. SHIELD helps
ensure that applications are escalated to the OC only because of true disagreement between the
agencies. We found that OC was not timely in its decisions on FY 2003 escalated chemical and
biological license applications. Specifically, there were 17 applications escalated in FY 2003,
and the average time to reach a decision was 51 days in the OC. Times for the current OC Chair
to make a decision on escalated applications reportedly improved in FY 2004. This
improvement in the timeliness of OC decisions should be sustained.

A.      The SHIELD review process ensures that chemical and biological license
        applications are appropriately vetted before escalation to the Operating Committee

SHIELD is chaired by a Department of State employee in State’s Office of Chemical, Biological,
and Missile Nonproliferation. Currently, the group meets weekly and is made up of working-
level representatives from State, Commerce (BIS), DOD, CIA, and Energy. Each week,
SHIELD reviews chemical and biological license applications that are between 16 and 22 days
old38 to help ensure that U.S. exports do not contribute to chemical and biological weapon
programs of concern. Because of the volume of chemical and biological license applications,
SHIELD does not discuss all applications at its meetings. However, all applications are available
to be discussed should an agency want to. Generally, applications that do not involve concern or
disagreement are not put on the SHIELD agenda. Applications that are difficult to decide or that
lack consensus among the member agencies are put on the agenda for a more intense review and
discussion.

When reviewing chemical and biological license applications, SHIELD (1) attempts to determine
the legitimacy of the end user through intelligence reports; (2) reviews the end user’s web site
and other information to determine the bona fides of the end user; (3) identifies and may review
previously approved licenses to the same end user; (4) determines that the item and end use
match; (5) evaluates other agency recommendations, and (6) requests either a PLC or PSV, if
necessary. The dialogue and information sharing between the agencies usually result in a
consensus opinion either to approve (with conditions) or deny an application. Each agency puts
its opinion into ECASS, and BIS proceeds to either issue or deny the license application. In
cases where agencies have differing recommendations, the application is escalated to the OC.

During FY 2003, SHIELD met once every three weeks and was chaired by a different State
employee than the current chair. By meeting every three weeks, SHIELD was not able to review
all of the applications—only those that a member agency asked to be put on the agenda were

38
  Between 16 and 22 days since the applications were referred by BIS to the other agencies. The benefit of this
timeframe is that by 16 days, agencies have had an opportunity to review the application and determine which
applications might need to be reviewed/discussed in depth. Additionally, if an application is 22 days old and
requires discussion at a second SHIELD meeting, there is still time to do so before the 30-calendar day requirement
for interagency review has been reached.
                                                        21
U.S. Department of Commerce                                                                Final Report IPE-16946
Office of Inspector General                                                                           March 2005

discussed. Further, because of the 30-day deadline for interagency review and the occasional
timing issues in scheduling SHIELD meetings, such as holidays or other conflicts, some
applications that might have benefited from the interagency discussion at SHIELD were not
reviewed by the working group. As a result, some applications were escalated to the OC
unnecessarily because the 30-day time limit had been reached before the case made it to
SHIELD. The current OC chair said he saw applications escalated in 2003 that did not involve
meaningful interagency disagreement and that could have been resolved through a discussion
between agencies or by obtaining additional documentation from the exporter.

The current SHIELD chairman took over in July 2003, but he did not change to weekly meetings
until March 2004, after it had become clear that more frequent meetings were necessary for all
applications to be appropriately vetted. The OC chair said he has seen an improvement in the
types of escalated chemical and biological cases since SHIELD started reviewing all
applications. Applications being escalated now center on true disagreement between the
agencies and are appropriate for the OC.

B.         Recent Operating Committee changes should result in more timely decisions

The OC has representatives from State, Commerce, DOD, and Energy, all of whom are
empowered to vote and make decisions of behalf of their respective agencies. The CIA is a non-
voting member of the OC and provides necessary intelligence information to the committee. The
OC meets once a week the first three weeks of each month. The Advisory Committee on Export
Policy (ACEP) meets once during the last week of the month, but only when it has applications
that have been escalated to it. Per Executive Order 12981, the OC Chair has 14 calendar days to
consider the positions of the agencies and render a decision. Should any agency disagree with
the OC Chair’s decision, it has 5 calendar days to appeal the decision to the ACEP.39

OC was not timely in its decisions on FY 2003 escalated chemical and biological license
applications

In FY 2003, 17 chemical and biological export license applications, or approximately 1 percent
of the 1,803 license applications submitted, were escalated to the OC for resolution. Many of the
escalated applications involved chemicals being exported for use by the Chinese semiconductor
industry. There is a concern among some of the agencies that such chemicals are at risk of
diversion to chemical and biological weapons programs. The OC Chair speculates that there
might be fewer chemical and biological export license applications escalated in the future
because of the understanding on end-use visit cooperation between the U.S. Department of
Commerce and the Ministry of Commerce of the People’s Republic of China. Under the new
understanding reached in April 2004, end-use checks should be easier to conduct, and as a result,
the U.S. government should get increased insight into where chemicals being exported to China
are ending up and what they are being used for. Assuming the end-use checks do not raise
further questions about the end users and end use, fewer such applications may need to be
escalated in the future.

BIS officials told us the new understanding is working and end-use checks are being conducted
without the delays and problems previously encountered. One of the FY 2003 applications

39
     For background information on the escalation process, the OC, and the ACEP, see pages 5-7.
                                                         22
U.S. Department of Commerce                                                                Final Report IPE-16946
Office of Inspector General                                                                           March 2005

escalated to and approved by the OC Chair, contingent on a favorable PLC, did not result in a
license being issued shortly after the OC Chair’s decision, as is the usual course of events.
Instead, it was pending from August 2003 until December 2004, when a PLC of the end-user in
China was finally completed as a direct result of the new understanding. The license was finally
issued in December 2004.

All 17 of the escalated applications were ultimately approved by the OC Chair, and none of the
agencies chose to appeal the OC Chair’s decisions. Thus, the ACEP did not review any chemical
and biological export license applications in FY 2003. In assessing the timeliness of the OC’s
work, we found the OC’s 14-calendar day deadline was not met for any of the 17 escalated
applications. The average time for the 17 applications was 51 days in the OC, with 5
applications taking more than 100 days to adjudicate. In 3 of these 5 extreme cases, the
documentation shows the then OC Chair took no action for an extended period of time. For the
other 2 applications, the OC was waiting on a PLC and did not use the HWA option to stop the
clock.

The 14-calendar day requirement appears to be quite difficult to meet. An OC decision could be
reached in 10 days as long as the OC Chair and the members have all the information needed to
make a decision at the first meeting where the application appears on the agenda. But frequently
a second meeting is necessary to discuss the application and in FY 2003, the former OC Chair
routinely did not ask for agency votes or make decisions until the second meeting that an
application was on the OC agenda. Should an application be escalated around the time of the
ACEP meeting (the week the OC does not meet), it could be 14 days before it is even put on the
OC agenda for discussion. We believe a more realistic standard is 21 days for the OC Chair to
render a decision.40 However, in FY 2003, even using our revised standard, OC decisions were
still not close to being timely—51 days versus our more realistic standard of 21.

Changes made by the current OC Chair should improve timeliness

The current OC Chair has implemented some changes to help reach the Executive Order
requirement of 14 days. The former OC Chair left the position effective April 1, 2003. The
current OC Chair assumed the position on November 1, 2003, after a 7-month period with two
successive interim chairs. The changes the current chair has instituted were put in place after the
period of our review. Thus, we did not review the data to verify recent reported gains in
timeliness.

The current OC Chair’s first change was to require agencies to come to the OC meetings ready to
discuss in depth and vote on an application the first time it was on the agenda—making it
theoretically possible to meet the 14-day requirement for an OC decision. If the members have
enough information, they can vote and the OC Chair can make a decision immediately.
Previously, applications were not routinely voted on until the second meeting they were on the
agenda. The new chair also has declared he will not wait longer than three weeks to obtain
documentation needed from an exporter. Should an exporter not submit the documentation by
the time the three weeks are up, the chair will RWA the application. According to the current

40
  Making a change from 14 days to 21 for the OC to reach a decision would require a change to the Executive
Order. Given the intricacies involved in taking such an action, we do not advocate BIS pursuing a change in the
Executive Order for this reason alone.
                                                        23
U.S. Department of Commerce                                                                     Final Report IPE-16946
Office of Inspector General                                                                                March 2005

chair, the former chair was more lenient in waiting for documentation before using the RWA
option.

We did not evaluate OC timeliness for escalated chemical and biological applications after FY
2003 (the period of our review), but timeliness has reportedly improved. For example, according
to the BIS FY 2004 Annual Report, the average time to reach a decision on all escalated
applications in FY 2004 was 22 days. In FY 2003, with 6 months under the former OC Chair
and 6 months with interim chairs, this average was reportedly 45 days.41 BIS should work to
sustain this significant improvement in the timeliness of OC decisions through continuing
attention to fine tuning the process and implementing improvements such as those put in place
by the current OC Chair.




41
     Both averages include all escalated applications, not just chemical and biological applications.

                                                            24
U.S. Department of Commerce                                                               Final Report IPE-16946
Office of Inspector General                                                                          March 2005

III.      Cumulative Effect Reviews Are Not Being Performed for Chemical and Biological
          Export Licenses

Cumulative effect reviews look at the impact of proposed exports when added to other past
exports to countries and entities of concern. Approval of a single export license may not result in
a significant increase in strategic capability of a country or entity of concern, but approval of
multiple licenses combined with diversion of strategic items from other countries, the provision
of unlicensed items, and/or legitimate shipments from foreign suppliers could improve a
country’s ability to build a weapon of mass destruction. BIS may not have sufficient intelligence
data to know all commodities acquired by end users, but it should trace historical patterns and
exports of items it controls.

BIS had seven LOs reviewing 1,803 chemical and biological license applications in FY 2003.42
These LOs never determined the cumulative effect of prior technology transfers made to the end-
users listed on those license applications. LOs said their long-term institutional knowledge of
goods and technologies exported to end-users must substitute for cumulative effect analyses,
because BIS lacks the systems and resources to perform such reviews. Additionally, BIS does
not receive cumulative effect assessments from other agencies during the interagency license
application review process.

A. Congress and others have emphasized the importance of cumulative effect analyses

In numerous reports and Congressional hearings, members of Congress and others have shown
interest in the use of cumulative effect analysis to enhance the export control process.

       x In June 1999, Inspectors General from the Departments of Commerce, Defense, Energy,
          State, and the Treasury, and the CIA, testified that additional cumulative effect analyses
          would improve the license application process.43 The Deputy Inspector General for the
          Department of State said assessment of the cumulative effect issue required resources and
          coordination from various federal export licensing departments and agencies and
          congressional direction. To date, no such assessment has been conducted. The
          Department of Commerce IG recommended in June 1999 that BIS work with the
          intelligence community, including CIA, Defense, and Energy, to develop a method to
          analyze and track the cumulative effect of dual-use exports to specific countries and
          regions. As of March 2005, this mechanism had not been developed.

       x In April 2001, a congressionally funded study44 recommended that the Bush
          Administration employ a shared information management system for processing license
          applications that would be responsive to current business cycles and allow analysis of
          cross-cutting issues and cumulative effects. The study group, chaired by four members
          of Congress,45 recommended: (1) increasing appropriations for U.S. intelligence services

42
   There were seven LOs in CBCD FY 2003. Three have since left, but, according to BIS, only one has been
replaced to date due to budget constraints. As a result, there are currently only 5 LOs in CBCD.
43
   Hearing Before the Committee on Governmental Affairs, United States Senate, June 23, 1999.
44
   The Henry L. Stimson Center and the Europe Program of the Center for Strategic and International Studies, Study
Group on Enhancing Multilateral Export Controls For U.S. National Security, Final Report, April 2001.
45
   The Study Group was chaired by four members of Congress: Senator Michael B. Enzi (R-WY), Senator Jeff
Bingaman (D-NM), Congressman Christopher Cox (R-CA), and Congressman Howard L. Berman (D-CA).
                                                       25
U.S. Department of Commerce                                                             Final Report IPE-16946
Office of Inspector General                                                                        March 2005

        to enhance monitoring and analysis of technology transfers and (2) enhancing intra-
        industry cooperation to manage and share information on compliance measures, suspect
        end-users, and patterns of technology transfer.

     x In February 2002, the GAO found that the Executive Branch does not have a sound
        analytical basis for justifying the current export controls on semiconductor manufacturing
        equipment to China. Specifically, it said that U.S. agencies had not assessed the foreign
        availability and cumulative effects on U.S. national security interests of exporting such
        equipment to China.46 GAO recommended that the Departments of Commerce, Defense,
        and State complete this analysis and update policy and develop new controls, if
        appropriate, for protecting U.S. security interests.

In addition, Congress has been concerned for many years that the interagency licensing
community lacks an integrated mechanism to conduct cumulative effect analyses of dual-use
and/or munitions technology transfers. Despite a recommendation from the Commerce OIG in
199947 and a National Defense Authorization Act for Fiscal Year 2000 requirement that the
Secretary of Defense assess the cumulative impact of licenses granted by the U.S. for exports to
countries and entities of concern, neither BIS nor any of the other licensing agencies has
determined how cumulative effect reviews can be performed in an effective and efficient
manner. Until this happens, cumulative effect information cannot be factored into the export
license review process for chemical and biological commodities.

B.      BIS lacks the systems and resources to perform cumulative effect analyses

The seven LOs in CBCD reviewed the 90 applications in our sample of FY 2003 chemical and
biological export license applications, in accordance with BIS’ 8-point analysis memorandum
(see page 17). The 8-point memorandum, the CBCD LOs’ analysis of the bona fides and
licensing history of individual end-users and the appropriateness of the end-uses, and input from
the intelligence community provide the primary information on likelihood of proper use or
diversion. Cumulative effect analysis can supplement this information. The current five LOs48
told us they do not consider the cumulative effect of prior and proposed exports to individual
foreign countries and end users because: (1) BIS’ current licensing process does not require LOs
to perform cumulative effect reviews, (2) BIS’ licensing system cannot input or receive
information to perform cumulative effect reviews, and (3) BIS’ LOs have not been trained to
perform cumulative effect reviews.

BIS licensing process does not require cumulative effect reviews

Current procedures do not require BIS LOs to consider the cumulative effect of prior and
proposed exports to individual foreign countries and end users. We found that the five LOs were
following the 1994 8-point analysis memorandum. LOs said that the 8-point analysis
requirements and the license review process, as a whole, are designed to process many


46
   The General Accounting Office, Export Controls, Issues to Consider in Authorizing a New Export Administration
Act, February 28, 2002.
47
   U.S. Department of Commerce Office of Inspector General, Bureau of Export Administration: Improvements Are
Needed to Meet the Export Licensing Requirements of the 21st Century, IPE-11488, June 18, 1999.
48
   BIS lost three LOs in FY 2003, but recently hired a fifth LO to process chemical and biological applications.
                                                      26
U.S. Department of Commerce                                                                Final Report IPE-16946
Office of Inspector General                                                                           March 2005

applications in a limited time period and not to perform cumulative effect analyses or determine
if multiple exports to any one country or countries could result in weapons of mass destruction.

The 8-points do not require LOs to analyze an applicant’s entire licensing history. The guidance
states that LOs should prepare a “brief background statement, highlighting licensing history
involving the applicant, and/or item, previous working group consultations, and any precedent
setting aspects of the proposed transaction.” LOs typically identify some prior licenses for an
applicant, but they primarily consider diversion issues including the bona fides of consignees and
end users. They sometimes identify all prior licenses for an exporter, consignee, and/or end user,
but only to document how many licenses have been approved. Although BIS expanded its
license application guidance in 1999, the new guidance still does not require LOs to perform
cumulative effect analyses. LOs include only the previous licensing history of approvals/denials
for item(s) and/or consignees as appropriate.

Even if the five LOs wanted to perform cumulative effect analyses, it is unlikely that they would
have the time to do so because CBCD receives too many applications to perform such reviews
under current circumstances. From FY 2001 to 2004, the number of chemical and biological
license applications was 1,357, 1,497, 1,803, and 2,801 respectively. In addition, the division
has received an increasing number of commodity classifications49 from FY 2001 to 2004: 160,
991, 488, and 903 respectively. Because of the application and commodity classifications
increases, the division is now sending approximately 20 percent of applications it receives to two
other BIS divisions for processing. And, with only five LOs in the division, no meaningful
cumulative effect analyses can be done.

BIS licensing system cannot input or receive cumulative effect information

BIS currently uses ECASS, which was developed in 1984, to process applications, but it is not
suited for the current era of license processing. Today’s licensing systems need advanced query
capabilities, expanded text capabilities, modern interfaces, online access to exporter technical
specifications, and access to outside commercial databases. ECASS lacks all of these functions.
One LO emphasized the need for databases of foreign end-users, such as the international Dun
and Bradstreet database. But, ECASS cannot read or download such databases. Thus, LOs must
search information and databases off-line.

LOs also complain about ECASS containing multiple codes for some exporters, consignees, and
end users, making it difficult to ensure that all prior licensing history is available. Specifically,
over the years, BIS has created multiple ECASS codes for some applicants, consignees, and end
users. For example, “ABC Corp.” may also be coded as “ABC Corporation,” forcing LOs to
spend precious time searching and analyzing multiple codes and licenses. Unless LOs perform
time-consuming analyses of prior licenses, they cannot determine how much of each commodity
has been exported to specific consignees and end users.

One LO also said a sophisticated licensing system should include access to the actual shipments
of dual-use chemical and biological commodities, as well as shipments of chemical and
biological commodities on the U.S. Munitions List and foreign military and third-country sales.
Currently, LOs do not have access to such information. For example, export licenses are valid

49
     BIS receives requests from companies to classify commodities, technology, or software included on the CCL.
                                                         27
U.S. Department of Commerce                                                  Final Report IPE-16946
Office of Inspector General                                                             March 2005

for two years, but LOs do not know whether items listed on a license have ever actually been
shipped. Currently, BIS does not request shipment information from exporters, consignees,
and/or end-users unless specifically requested in license conditions.

The U.S. Customs and Border Protection (CBP) collects information on shipments made under
munitions licenses issued by the State Department, but it does not do so on dual-use licenses
issued by the Commerce Department. To receive such information, CBP would have to
continually determine what dual-use commodities have been shipped to foreign countries under
Commerce licenses. However, BIS does not require CBP to continually monitor the activity
under Commerce licenses. BIS holds exporters responsible for keeping track of controlled
shipments and ensuring that license limits are not exceeded during the two-year life of the
license. LOs emphasized that if better shipment information and software were available, they
could perform trend analyses of technology transfers.

The lack of information on actual shipments is not a new problem. For many years, federal
agencies responsible for enforcing U.S. export laws and compiling U.S. trade statistics could not
obtain accurate and timely data on exports. In 1999, in an attempt to correct the problem, the
U.S. Customs Service, predecessor to CBP, and the Bureau of the Census established the
Automated Export System (AES) to allow exporting companies to electronically enter data on
shipments and provide information to help detect export violations. In 2002, BIS had
discussions with CBP and Census, about providing shipment information to BIS and other
interagency personnel. CBP and Census told BIS in 2002 that shipment information could be
provided, but that software development and resources from all parties would be required to
provide such information. More recently, in 2004, BIS enforcement personnel have obtained
access to CBP’s Automated Targeting System (ATS), which now allows them the capability to
search AES for shipments to specific countries. This is a major improvement for enforcement of
license applications, but it could also help LOs in their review of license applications by
providing them with information on previous shipments. Therefore, we recommend that BIS
assess the feasibility of providing LOs with the information housed in ATS and AES.

BIS LOs are not trained to perform cumulative effect analyses

The LOs in CBCD said even if they had more time per application and a sophisticated licensing
system, they would need comprehensive training to perform cumulative effect reviews. They
noted that CIA/WINPAC has a training school that teaches comprehensive license application
review techniques. The LOs told us that they would benefit from such training. CIA/WINPAC
officials agree that BIS LOs could benefit from selected training such as trend analyses, but they
said BIS would need to obtain top-secret clearances for its five LOs to attend CIA training. A
BIS official said that under current fiscal restraints, such clearances would be prohibitively
costly.




                                                28
U.S. Department of Commerce                                                            Final Report IPE-16946
Office of Inspector General                                                                       March 2005

Recommendation

Assess the feasibility of providing LOs with the information housed in the Automated Targeting
System and Automated Export System for use in their review of license applications.



In the Acting Under Secretary’s March 30, 2005, response to our draft report, the bureau stated
that it agreed with this recommendation. BIS also said that, to date, the bureau has not been
appropriated funds by Congress to conduct cumulative effect analyses.

C.      Licensing referral agencies are not performing cumulative effect analyses

During congressional testimony on June 23, 1999, both the Chairman and Ranking Minority
Member of the Senate Committee on Governmental Affairs expressed grave concern that the
licensing community does not consider the cumulative effect of all technology transfers and
identify a country or purchaser seeking components for a weapon of mass destruction, though
each commodity might be benign by itself.50 However, BIS and CIA have emphasized that such
analyses are not currently feasible because all the available data sources cannot be quickly
consolidated or are not available when processing chemical and biological export license
applications. Although one licensing agency performs limited cumulative effect analyses of
some chemical and biological license applications, the federal government lacks an integrated
capability to analyze all license applications and exports to different countries.

Licensing agencies perform limited cumulative effect analyses

Probably the agency considered most likely to perform cumulative effect analyses is
CIA/WINPAC, which is charged with collecting and analyzing intelligence information.
However, in practice, CIA simply screens all chemical and biological export license applications
and only provides intelligence on those applications that might have some proliferation concerns.
CIA officials told us that their role is to provide intelligence and not to perform cumulative effect
analyses.

The Department of Energy does perform some limited cumulative effect analyses. Energy’s
seven laboratories conduct limited cumulative effect assessments for nuclear dual-use exports,
but there is no coordinated effort to conduct such assessments for all commodities. The
Department of Defense has a congressionally mandated requirement to perform annual
assessments of the total effect of transfers of goods, munitions, services, and technology on U.S.
security, but it has yet to perform such reviews.51 Notwithstanding the lack of comprehensive
cumulative effect analyses, both BIS and CIA officials stated that all chemical and biological
license applications are thoroughly reviewed, including the bona fides of all end users, and that
current intelligence is brought to bear on all applications.




50
   Hearing Before the Committee on Governmental Affairs, United States Senate, The Inspectors General Report on
the Export-Control Process for Dual-Use and Munitions List Commodities, June 23, 1999.
51
   National Defense Authorization Act for Fiscal Year 2000, section 1402.
                                                      29
U.S. Department of Commerce                                                             Final Report IPE-16946
Office of Inspector General                                                                        March 2005

A major factor hindering cumulative effect analyses by the licensing agencies is outdated
automated systems. In a March 2002 report, the interagency OIG team found that the dual-use
export licensing process involves multiple automated systems owned and operated by different
federal licensing agencies. 52 Many of those systems are ineffective for the present era of export
license processing because they have varying security standards and rely on cumbersome manual
and paper-based processes. There is no comprehensive database of export information to help
federal agencies assess the cumulative effect of multiple exports. Thus, we must reiterate our
recommendation, first offered in our 1999 report, that BIS work with the intelligence
community, including CIA, Defense, State, and Energy, to develop a method to analyze and
track the cumulative effect of dual-use exports to specific countries and regions of concern.

Recommendation

Work with the intelligence community to develop a method to analyze and track the cumulative
effect of dual-use exports to countries and entities of concern.



BIS, in its response to our draft report, agreed with this recommendation. The bureau also stated
that chemical and biological license applications are thoroughly reviewed, including the bona
fides of all end users, and that current intelligence is brought to bear on all applications,
notwithstanding the lack of comprehensive cumulative effect analyses.




52
  Interagency Review of Federal Automated Export Licensing Systems, prepared by the Offices of Inspector General
of the Departments of Commerce, Defense, Energy, State, and Treasury, March 29, 2002.
                                                      30
U.S. Department of Commerce                                                             Final Report IPE-16946
Office of Inspector General                                                                        March 2005



IV.     Recent Improvements in the Timeliness of Changes to the Commerce Control List
        Need to Be Maintained

The Australia Group annually recommends new chemical and biological items for control, but it
takes months for BIS and the other U.S. licensing agencies to place newly regulated items on the
CCL. As a member of multilateral organizations, the U.S. is obligated to implement decisions in
a reasonable time period. However, BIS and the other licensing agencies cannot disclose newly
regulated items to U.S. companies or prevent them from being exported until the new regulations
are issued.

In March 2001, we recommended that BIS review its clearance process and work with the other
licensing agencies to publish new regulations faster.53 The Under Secretary for Export
Administration agreed with our recommendation. BIS completed an evaluation of its regulatory
review process in late 2001, creating an internal database to track regulations still under review.
BIS now sends a follow-up memorandum to a licensing agency if its response regarding
regulations referred for interagency review is overdue. BIS officials believed the 2001 changes
would expedite the review of regulations, including those implementing the AG changes.
Although these changes did not impact the amount of time taken to publish the 2002 and 2003
changes, in 2004 the changes took only 6 months to publish. Specifically, prior to 2004, U.S.
agencies averaged 11 months to get items newly regulated by the AG published in the CCL.
However, changes from the AG’s June 2004 meeting only took six months to get published in
the CCL, bringing the average down to 10 months.54 In the future, BIS should build on its 2004
performance and continue to publish the AG changes more quickly.

A.      Updating the CCL with chemical and biological items is too time consuming

Each year after the annual meeting of the AG, U.S. licensing agencies meet to decide how to
implement any new control changes. For example, if a new control is added to the AG list, the
U.S. must decide whether it wants to control the item as a dual-use or munitions item. The
Department of Commerce is responsible for making changes on the CCL for dual-use items, and
the Department of State is responsible for making changes on the U.S. Munitions List (USML)
for munitions items. Figure 11 on the next page documents the process used by BIS to
implement control regulation changes to the CCL.




53
   U.S. Department of Commerce Office of Inspector General, Management of the Commerce Control List and
Related Processes Should be Improved, IPE-13744, March 23, 2001.
54
   The AG held its annual meeting from June 7-10, 2004, and the new regulations were published on December 29,
2004.
                                                      31
  U.S. Department of Commerce                                                                 Final Report IPE-16946
  Office of Inspector General                                                                            March 2005

  Figure 11: BIS Process for Changes to the Commerce Control List


     (1) BIS Licensing Divisions          (2) Regulatory Policy Division            (3) BIS/DOC/OMB Review
     Licensing divisions, such           Prepares draft regulation and           BIS Units
                                                                                    
         as the Chemical and                  submits to BIS units for               Review draft regulation and provide
         Biological Controls                  clearance, and informs the             comments/clearance. Includes the
         Division, provide the                Department’s Office of General         Office of Export Enforcement,
         Regulatory Policy Division           Counsel and the Office of              Office of Strategic Trade and
         with regulation changes              Management and Budget if the           Foreign Policy Controls, and Office
         from the recent meetings of          regulation is significant or not.      of Chief Counsel for Export
         the Australia Group or            Puts information into tracking          Administration.
         other multilateral groups,           system.*
         such as the Missile               Sends comments to the                   DOC Office of General
                                                                                    
         Technology Control                   applicable licensing division          Counsel **
         Regime, Nuclear Suppliers            and the Office of Chief Counsel        Reviews the preamble to the
         Group, and the Wassenaar             for Export Administration for          regulation or the whole regulation
         Arrangement.                         final review before going to the       and assigns a document number.
                                              Assistant Secretary.
                                           Reviews interagency comments            Office of Management and
                                                                                    
                                              and sends to BIS units,                Budget (OMB)
                                              including Office of Chief              Reviews the preamble to the
                                              Counsel, for their review and          regulation or the whole regulation.
    (5) Interagency Review                    clearance.
     Agencies provide
         comments to the
         Regulatory Policy Division
     Technical Advisory                 (4) Assistant Secretary for
         Committees provide
                                          Export Administration
         comments (i.e., SHIELD
                                           Submits cleared regulation to
         for chemical and biological
                                             Departments of Defense,
         commodities, the Missile
                                             Energy, and State, and the
         Technology Export Control
                                             appropriate Technical
         Group, and the Subgroup
                                             Advisory Committee for
         on Nuclear Export
                                             review.
         Coordination).
                                           Final regulation signed.


                                          (6) Federal Register
                                           Regulation is published in the
                                             Federal Register.

    *A Regulatory Identification Number is used by OMB to track and review regulations.
    **If Regulatory Policy Division and the Office of General Counsel determine the regulation is significant, the
    entire regulation is submitted to OMB. Otherwise, OMB only receives the preamble and a summary of the
    regulation.



Source: OIG, based on information from BIS’ Regulatory Policy Division

  There is no deadline to publish annual AG changes other than the timeframe listed by BIS’
  Regulatory Policy Division, which allows 3 months to issue draft regulations to the interagency
  licensing groups after AG changes are received. However, the publication of new AG
  regulations has averaged just over 10 months for the last seven years. On three occasions in the
                                                           32
U.S. Department of Commerce                                                             Final Report IPE-16946
Office of Inspector General                                                                        March 2005

last 7 years, the U.S. Government failed to publish new AG regulations before the next annual
AG meeting (1999, 2000, and 2003).

Publication of new AG regulations takes time because of the regulatory process and the need for
interagency review

BIS officials cited several reasons for the time it takes to publish new AG regulations. First,
time may elapse between the end of the AG plenary and the official posting of the control list
changes. This will delay the beginning of the process for formal interagency clearance of the
implementing regulation. Second, according to BIS, the U.S. regulatory process is more
comprehensive than that of other members. U.S. regulatory requirements to make changes to the
CCL, such as the need to publish Federal Register notices, are simply much more complicated
and time consuming than those of other countries.

The U.S. interagency process requires that multiple parties must approve changes before they
can be published. All the licensing agencies participate in the AG annual sessions, so they are
aware of control changes agreed to by the U.S. before BIS provides them with the draft
regulations to review. But, BIS officials said the current process is time consuming because
other agencies (State and Defense) are allowed to review and comment on the changes. The
need for these agencies to be involved increases the amount of time it takes to get changes
published. Finally, all comments and changes from the licensing agencies, OMB, or other BIS
offices need to be incorporated by the Regulatory Policy Division and again reviewed by CBCD
and the Office of Chief Counsel before the changes can be published.

B.      Delays in publishing Australia Group guidelines could cause problems

Delays in publishing the latest AG guidelines could cause problems for the U.S. government. In
an October 2002 report, GAO recommended agreed-upon changes to control lists should be
adopted by all AG members at the same time. If not, proliferators could exploit time lags to
obtain sensitive technologies by focusing on AG members slowest to incorporate the changes.55
While agreement on timing for implementation among AG members would be ideal, it is
unlikely due to members’ national discretion in undertaking AG commitments.

Until an item is listed on the CCL, BIS cannot reveal to exporters that it may soon be controlled.
The information contained in the reporting cable prepared after AG meetings is classified, so the
very mention to an exporter that an item is soon to be controlled could be perceived as
improperly revealing classified information. Changes are not considered public information until
they are listed on the AG web site.

Even then, BIS has little ability to stop items from being exported until they are added to the
CCL. In most cases, the newly regulated items do not require a license and can be shipped at
will until they are listed on the CCL. For example, in 2003, AG members agreed to add 12 new
viruses to the list of AG-controlled human and zoonotic pathogens described in ECCN 1C351.
BIS did not add them to the CCL until 9 ½ months later, during which time U.S. exporters could
have legally shipped these items without a license. Because exporters were not required to have

55
 The United States General Accounting Office, Nonproliferation: Strategy Needed to Strengthen Multilateral
Export Control Regimes, GAO-03-43, October 2002.
                                                      33
U.S. Department of Commerce                                                                  Final Report IPE-16946
Office of Inspector General                                                                             March 2005

an export license to ship the items, BIS has no way of knowing whether any shipments were
made.

BIS does sometimes attempt to legally stall the export of items in the “lag time” between being
newly controlled by the AG and inclusion on the CCL. For example, BIS received an
application in FY 2003 for a biological item that the AG had marked for control but was not yet
listed on the CCL. The exporter submitted an application on February 6, 2003, and the item was
not listed on the CCL until June 10, 2003. If BIS had not received the application, the item
would have been shipped because a license was not required.56 But, because the exporter applied
for a license, BIS was able to assess the end-user and it found negative information. Because of
the derogatory information on the end-user, BIS placed the application on HWA pending
publication of the new AG rules in June 2003 in order to obtain and issue a regime-based denial
so that the AG no undercut obligations would be implemented on a multilateral basis. Denials
based on unilateral controls do not invoke such obligations. The reviewing agencies ultimately
rejected the application after the new regulations were published. Such lucky occurrences are
rare, though, and BIS officials are concerned about items that have been exported pending the
publication of new regulations.

Catch-all controls may prevent unlisted chemical and biological items from being exported

As stated above, the “lag time” between when the AG newly controls items and when those same
items are actually published on the CCL can be lengthy. One mechanism to potentially mitigate
this problem is “catch-all” controls. In December 1990, the U.S. government announced the
Enhanced Proliferation Control Initiative (EPCI) to implement catch-all controls to prevent
common use items, such as test equipment, decontrolled machine tools, certain steels, and
electronic parts from being exported to foreign countries that want to acquire the capability to
develop, produce, stockpile, deliver, or use nuclear, missile, chemical, or biological weapons.57

The EAR requires exporters to obtain an export license for all items, even those not on the CCL,
when the exporter “knows” or “is informed” that the goods and technology will be used in
connection with WMD activities. To help exporters with the first criterion—knowledge that an
item is being sought for proliferation reasons—BIS established guidelines to help exporters
“know” or “have reason to know” whether an item will be used directly or indirectly in a nuclear,
missile, chemical, or biological weapons program and whether “catch-all” controls are
applicable. Specifically, BIS’ “Know Your Customer” and “Red Flags” guidelines58 provide tips
to help exporters scrutinize the parties and proposed end use listed on an application. This may
include looking for signs that the consignee may not be legitimate, such as an order placed for a
high performance computer going to a small bakery.

For the second criterion, the EAR requires an exporter to obtain a license if the exporter “is
informed” by the Department of Commerce that there is a serious risk of diversion. The
Department informs exporters through letters in response to exporter requests for information
about the end-use or end-user associated with a proposed transaction. The Department also

56
   According to BIS officials, exporters often file applications for items that are not controlled “just to be safe.”
57
   Statement by White House Press Secretary Fitzwater on the President’s Export Control Initiatives, December 13,
1990. EPCI continued controls set up by Executive Order 12735, Chemical and Biological Weapons Proliferation,
November 16, 1990.
58
   Export Administration Regulations, Part 732, Supplement No. 3.
                                                         34
U.S. Department of Commerce                                                                Final Report IPE-16946
Office of Inspector General                                                                           March 2005

informs exporters through a list of entities and items considered to be at serious risk for
diversion. The Department publishes the names, items, and restrictions placed on entities in the
Federal Register and the EAR. The Department requires exporters to assess the nature and
activities of their potential customers, and they are advised to contact the Department if they
have any concern with the identity or activities of end-users.

GAO and BIS are concerned that the catch-all controls are not consistently implemented and not
easily enforced. GAO found in 2002 that countries implement catch-all controls differently,
possibly impacting the controls’ effectiveness in stopping proliferation.59 Specifically, GAO
stated that some countries must show that an exporter had absolute knowledge that an export
would support proliferation activities before they can require a license or prosecute a violation of
law. As a result, some exporters may have had a reason to know about certain end uses or end
users, but not absolute knowledge, and exported goods without a license that might have been
used in connection with WMD activities. However, the U.S. needs to show only that an exporter
knew or suspected that an export would support proliferation activities to require a license or to
prosecute a violation of law. As for BIS, it stated in a 2001 report that different countries’
standards complicate detecting, investigating, and prosecuting cases under the “knowing”
standard set by the EPCI catch-all provision.60

Conclusions

During our review, BIS personnel were adamant that the bureau had made all feasible changes to
the process of publishing new AG regulations and that the time could not be further reduced.
The average time to publish new AG regulations has been 10 months for the last 7 years, but BIS
managed to publish the latest round of changes in 2004 in only 6 months, which demonstrates
that the time can be reduced.61 We hope such a change is not an anomaly and can be replicated.
BIS told us it only took 6 months because it needed to quickly restore certain notes covering
license requirements that had been inadvertently removed by a BIS rule on July 30, 2004.62 The
urgent need to get these notes restored apparently motivated both BIS and the other agencies to
move much more quickly than they usually do.

BIS says publishing changes from the April 2005 AG meeting in the CCL will depend on (1)
how quickly BIS receives official notice of the changes, (2) the complexity of the changes, (3)
whether there is an effort to add unrelated revisions to the rule, and (4) how quickly Commerce,
Defense, and State resolve any comments on the rule.




59
   The United States General Accounting Office, Nonproliferation: Strategy Needed to Strengthen Multilateral
Export Control Regimes, October 2002, page 19-20.
60
   U.S. Department of Commerce, Foreign Policy Report, 2001.
61
   For the six years prior to the June 2004 annual AG meeting, the U.S. licensing agencies had taken an average of
11 months to publish the new AG regulations in the Federal Register.
62
   BIS wanted to quickly restore these notes in the Federal Register because they contained critical guidance
concerning the license requirements for ECCNs 1C355, 1C395, and 1C995. Only one of these ECCNs (1C395) is
for chemical or biological commodities.
                                                        35
U.S. Department of Commerce                                                   Final Report IPE-16946
Office of Inspector General                                                              March 2005

Recommendation

Take appropriate actions to sustain recent improvements in the timeliness of U.S. publication of
Australia Group guidelines and rule changes that impact the Commerce Control List.



The bureau’s response to our draft report stated agreement with this recommendation. Further,
BIS stated that its FY 2005 Regulations Calendar has the AG changes (resulting from the April
2005 AG plenary) scheduled to be sent for interagency review one month after official
notification of the regime list changes. BIS notes that the regulation will need to be cleared by
State and Defense and, prior to publication, OMB must approve the regulation.




                                                36
U.S. Department of Commerce                                                                    Final Report IPE-16946
Office of Inspector General                                                                               March 2005

V.       Denial Notification to the Australia Group Needs to Be More Transparent

One of the obligations of AG membership is the submittal of license denials to the group so that
potential proliferators cannot “shop around” from one country to another for items. AG
members have also adopted a “no undercut” policy in which members agree not to approve an
identical sale without first consulting with the member that first issued the license denial.

Since August 2002, Commerce and the State Department have disagreed about the U.S. policy
and practices for submitting denials to the AG. State, as the lead representative to the AG, is
responsible for submitting the U.S.’s denials to the AG. BIS believes three changes would be
useful to make the denial notification process more effective and transparent. First, BIS would
like all denials sent to the AG to ensure that the no undercut policy is always triggered. The
Department of State now subjectively determines which denials are submitted. Second, BIS
believes that State should send denials to the AG at the time that BIS issues its “intent to deny”
letter to applicants, rather than after the mandatory 45-day period during which BIS will consider
any additional information provided by the exporter to rebut BIS’ decision to deny the
application.63 Finally, BIS believes that State should not unilaterally rescind prior denials to the
AG. Unfortunately, the AG’s policy on the reporting of denials is not explicit, so State and
Commerce have different views on how it should be implemented. The process of submitting
U.S. export license denials to the AG should be more transparent and written policies and
procedures are needed for the process.

BIS wants all denials sent to the Australia Group

When one of the 39 AG members denies a license for an AG-controlled item, the other 38
members have agreed not to approve essentially identical applications without consulting the
member that issued the original denial. The AG’s “no undercut” policy, which includes the
reporting of denials, helps identify end users who shop from country to country for chemical and
biological commodities. The “no undercut” policy was established in 1993 to promote
compliance with regime commitments, provide members with information on questionable
license applications, and help better monitor export trends.

The policy depends on the cooperation of AG members to be effective.64 However, the AG
Handbook implies, but does not specifically state, that members should submit all denials in a
timely manner, which allows members to interpret the policy as they wish. The AG Handbook
does provide specific criteria and a format for denials, but adopting the policy is a matter of
national choice by each AG member.

As the lead U.S. representative to the AG, the State Department is responsible for submitting
license denials to the AG. Yet, State does not currently submit all denials to the AG. Instead, it
examines each denial on a case-by-case basis and determines whether to send the denial to the
AG. For example, State only submits denials that involve exports to non-AG countries. State’s

63
   According to 15 CFR 750.6, an applicant has 20 days after the date of the intent to deny letter to rebut BIS’
decision and provide additional information showing why the application should be approved. Unless BIS advises
the applicant that the bureau has reversed its opinion, the denial becomes final 45 days after the date of the intent to
deny letter. The applicant then has 45 days from the date of the final denial to appeal the decision, as outlined in
Part 756 of the EAR.
64
   AG members are not legally bound to comply with AG policies.
                                                           37
U.S. Department of Commerce                                                              Final Report IPE-16946
Office of Inspector General                                                                         March 2005

rationale for this “policy” is not documented in any way. Since August 2002, Commerce and
State have disagreed about the U.S. policy for submitting denials to the AG. This disagreement
over the interpretation of AG policy has prevented development of a consistent and transparent
U.S. process for ensuring American compliance with the AG’s nonproliferation goals.

BIS acknowledges that the AG Handbook does not specifically state that all denials should be
sent to the AG, but it also does not state that some denials can be kept from the AG, depending
on a member country’s preference. We agree that the AG Handbook is somewhat ambiguous.
BIS’ position is all denials, including denials to companies in AG member countries, should be
submitted to the AG. Specifically, AG member countries should be alerted to end users in their
countries who shop from country to country for chemical and biological commodities. Thus,
while BIS does not challenge State’s authority to make such decisions, it disagrees with State’s
application of that authority.

To better understand State’s position on the denial notification process, we spoke to officials in
State’s Office of Chemical, Biological, and Missile Nonproliferation. They said the process is
better than it was in 2002, when State was criticized by GAO for not providing any denials to the
AG between 1996 and 2001.65 State officials center their position around their belief that AG
policy language allows member countries to submit denials at their discretion, including whether
to submit (1) all denials, (2) denials for companies in AG member countries, and (3) denials
while end users are under review. State stated that it did not send 10 of the 23 denials for
chemical and biological commodities in FY 2003 to the AG for these reasons.

On the other hand, BIS told us that State should have sent 6 of the 10 denials it did not send in
FY 2003 to the AG and 1 to the Missile Technology Control Regime, another international
export control consortium devoted to stemming the proliferation of delivery systems for nuclear,
chemical, and biological weapons. BIS officials agree that State did not need to send the other
three denials to the AG, because two were to end users already under investigation by BIS66 and
the third was an application returned to the applicant. Figure 12 shows the specific details for the
6 denials Commerce believes State should have sent to the AG.

Figure 12: 6 Additional Denials That BIS Believes Should Have Been Sent
to the AG in FY 2003

1. Three Cases—State unilaterally and incorrectly (according to BIS) classified three
cases as non-chemical and/or biological proliferation related denials and did not send the
denials.
2. Two Cases—Two cases involved companies (end users) in AG member countries,
which State told us they do not send to the AG.67 BIS officials disagree with this policy.
3. One Case— In the final case, State declined to send the denial based on high-level
intelligence. BIS officials contend the denial still should have been sent to the AG.

Source: OIG and BIS

65
   General Accounting Office, Nonproliferation: Strategy Needed to Strengthen Multilateral Export Control
Regimes, October 2002 (GAO-03-43). GAO was recently renamed the Government Accountability Office.
66
   The licensing agencies decided to not send multiple notifications for the same denied end user.
67
   State believes it is AG policy not to send to the AG any denials involving companies in AG member countries.
We could find no support for State’s assertion.
                                                       38
U.S. Department of Commerce                                                                 Final Report IPE-16946
Office of Inspector General                                                                            March 2005

BIS wants all denials sent to the Australia Group at the time applicants are informed

BIS also believes that State should send denials to the AG at the time BIS issues an intent to
deny and not after the expiration of the 45-day period during which BIS will consider any
additional information provided by the exporter to rebut BIS’ decision to deny the application.
Currently, State sends denials after the 45 days has elapsed. In August 2002, Commerce’s
Assistant Secretary for Export Administration wrote to his counterpart at State asserting that
license application denials should be provided to three68 of the four multilateral organizations
when Commerce issues its intent to deny letter to an applicant.69

The Assistant Secretary’s letter stated that the AG’s no undercut policy is negated if AG member
countries are not aware of U.S. denials shortly after the denial decision has been made, and U.S.
business interests suffer if end users approach foreign competitors to purchase commodities that
the U.S. declined to license for export. Commerce’s position is that companies in all member
countries should compete for international sales on a fair and equal basis. Furthermore, if the
U.S. had serious concerns about proliferation and decided to deny a license, other AG members
should know about the U.S.’s denial before they are approached by the same foreign buyer. If
the U.S. waits 45 days to notify AG members, it may be too late to prevent a sale from another
source.

In September 2002, State’s Acting Assistant Secretary for Nonproliferation responded to
Commerce’s August 2002 letter and outlined a three-step process to improve U.S.
implementation of the AG’s no undercut policy. Figure 13 describes the three steps proposed by
State.

Figure 13: Department of State’s Proposed Steps to Improve the No Undercut Policy

1. If exporters relinquish their appeal rights—As part of the Intent to Deny process, exporters could
relinquish their appeal rights to denials so that the international organizations are promptly notified,
companies in member countries compete equally for international sales, and the negative consequences of
denials overturned on appeal are avoided.
2. If exporters do not relinquish their appeal rights—State would promptly issue a “denial based on
inquiry” notification to export control organizations and follow-up with a full denial when the denial goes
final. (State officials said “denials based on inquiry” are not subject to the no undercut policy, but the
prompt issuance of such tentative export license denials would allow member countries to get information
sooner. They believe few member countries would permit an essentially identical transfer, even though
they are not compelled to deny it “based on inquiry.”)
3. Reserve the right to issue intent to deny letters—State would submit license application denials to
member countries at the intent to deny stage in cases with compelling reasons or those cases not addressed
by steps 1 and 2.

Source: Department of State letter to BIS, September 23, 2002.

As of March 2005, neither State nor Commerce had implemented State’s proposed procedure.
BIS officials rejected Step 1 because they believe the appeal process cannot be legally waived,
but BIS officials never formally communicated this to the State Department. More than two
68
   The Australia Group, the Missile Technology Control Regime, and the Nuclear Suppliers Group have a no
undercut policy while the Wassenaar Arrangement does not.
69
   GAO recommended in its October 2002 report that the Secretary of State report U.S. denials of all export licenses
when the exporter is issued the intent to deny letter.
                                                         39
U.S. Department of Commerce                                                             Final Report IPE-16946
Office of Inspector General                                                                        March 2005

years have passed with no resolution of this interagency impasse. Commerce and State need to
immediately reopen discussion on this policy and reach agreement on when denials and notices
of “denial based on inquiry” or appeal will be sent to the AG.

BIS wants State to not unilaterally rescind prior denial notices to the AG

BIS officials assert it is also inappropriate for State to unilaterally reverse a license denial
decision, without first obtaining the concurrence of the agencies involved in the application
review process. BIS officials say that State essentially rescinded a prior denial in 2004 without
Commerce clearance. A U.S. company had applied for a license to export to a company in a
non-AG country, but was denied the license.70 State followed AG policy and notified the AG
Chair of the denial. But, in accordance with the no undercut policy, an AG member country
contacted the U.S. (State) to discuss the denial and ask for information on the company in the
non-AG country. This AG member country reportedly wanted to abide by the no undercut
policy, because one of its companies had applied for a license for the same goods to the same
company in the same non-AG country.

After being asked for its opinion on the company in the non-AG country, State decided that the
company in the non-AG country did not pose any proliferation concerns. Despite the fact that
licensing agencies, including State,71 had denied a U.S. export license for goods being sent to this
company, BIS told us that the company in the AG member country would be allowed to export
goods to the company in the non-AG country because of State’s unilateral decision not to object.
Because of State’s reversal, BIS personnel contacted the U.S. company that had originally been
denied the license and suggested that the company could reapply, if interested.

We asked both BIS and State for any written procedures for rescinding prior denial notices to the
AG. Neither agency was able to provide any documentation. State officials said that the agency
controls the rescinding of prior denials to the AG for "foreign policy" reasons. Neither the AG
guidelines nor the EAR addresses the issue of rescinding prior denials to the AG. We note
further that State would have the opportunity to approve or vote to deny an export for foreign
policy reasons during the regular interagency license approval process. In addition, BIS and
State disagreed on whether this AG denial notification process is linked to the formal escalation
process for export licenses, as outlined in Executive Order 12981. While State believes that
CBCD can escalate any State decision to rescind a prior denial to upper BIS management for
discussion with their counterparts at State, CBCD believes escalation is difficult without a
documented process.

With regard to the case discussed above, State personnel said that the decision was discussed
with BIS, DOD, and Energy. However, because there was a quick turnaround placed on the
inquiry from the other country, State moved quickly to reply. Thus, while BIS was informed
both verbally and in writing of State’s decision, there was reportedly little time to debate the
decision. State said that BIS did verbally disagree with State’s decision to rescind the denial
notification, but that it received nothing in writing from BIS before or after it released its formal
reply on this case. State remarked that CBCD also did not escalate the issue to upper BIS

70
   The license was not denied simply because the company was located in a non-AG country, but because there were
concerns about the company listed as the end-user.
71
   State had denied the license “due to risk of diversion to end-users/programs of concern.”
                                                      40
U.S. Department of Commerce                                                   Final Report IPE-16946
Office of Inspector General                                                              March 2005

management. To avoid similar disagreements in the future, BIS and State and the other referral
agencies should jointly develop written procedures on the handling of such notices.

Recommendation

Work with the State Department, and the other licensing referral agencies, to develop and
implement written procedures for handling the AG denial notification process. The procedures
should cover, at a minimum:
   x the U.S. policy on submitting denials to the AG,
   x when U.S. denial notifications will be sent to the AG—either when the intent to deny
       letter is sent or after the 45-day rebuttal period has lapsed, and
   x how U.S. decisions to rescind prior denial notifications to the AG will be made. This
       should specify how State will exercise its representation authority and how the other
       licensing agencies will be involved in the decision making process.



BIS, in responding to our draft report, stated that it agreed with this recommendation.




                                                41
U.S. Department of Commerce                                                   Final Report IPE-16946
Office of Inspector General                                                              March 2005

VI.    BIS Outreach Efforts Are Mainly Targeted to the Biological Exporting Community
       and Could Be Expanded

A critical component of BIS’ mission is outreach to the exporting community to build awareness
and compliance with the EAR. BIS holds an annual Update Conference on Export Controls and
Policy each October to educate exporters about new policy initiatives and to provide information
on export controls through small group sessions that focus on a wide array of topics. The Update
Conference is complemented by numerous BIS export control seminars held around the country
throughout the year. Often it is necessary to target outreach to specific business and technology
sectors. We found BIS has expanded its efforts to reach the biological exporting community, but
it has not been as successful in reaching the chemical exporting community. In addition, BIS has
an opportunity to reach out to the 318 entities registered with the U.S. Department of
Agriculture’s Animal and Plant Health Inspection Service (APHIS) and the U.S. Department of
Health and Human Services’ Centers for Disease Control and Prevention (CDC). These entities
work with select agents and toxins that pose a severe threat to livestock, plants, and/or public
health, many of which are also listed on the CCL.

A.     BIS outreach efforts to the chemical community need to be expanded

In recent years, CBCD has concentrated its outreach on the biological exporting community.
Since 2002, staff members in CBCD have given presentations at the annual meetings of the
American Biological Safety Association, the Biotechnology Industry Organization, the American
Society for Microbiology, the Federal Laboratory Consortium for Technology Transfer, and the
Animal Health Institute—Biologics Section. In May 2004, CBCD hosted an in-house
presentation for biological exporters covering nonproliferation controls on biological
commodities. Outreach to the chemical exporting community has been in conjunction with
outreach to the biological exporting community, such as a presentation at the Licensing
Executives Society Meeting in December 2003 and an in-house seminar for other federal
agencies covering nonproliferation controls on biological and chemical items in April 2003. We
should note that after the September 11, 2001, terrorist attacks, agents from OEE were instructed
to visit all chemical manufacturers within their respective regions to inform them of their
responsibility to comply with the EAR. However, this type of outreach has not been duplicated
since.

The director of the Office of Nonproliferation and Treaty Compliance said there is a reason for
the disparity between outreach done to the biological exporting community and outreach done to
the chemical community. The biological exporting community usually exports small, financially
insignificant amounts that are not typically viewed by the exporters as commercial transactions
and not regarded as subject to export controls. But according to this BIS official, chemical
exporters tend to be large companies with significant experience in exporting. These firms
usually have offices or staff that regularly handle export control and compliance matters because
the industry is so heavily regulated. The director feels that scarce resources for outreach efforts
need to be directed where the greatest need lies, which he believes is in the biological
community. Another licensing official also emphasized that BIS gives extra attention to the
biological community because of greater proliferation concerns involving biological
commodities, which can be readily reproduced and diverted.


                                                42
U.S. Department of Commerce                                                                  Final Report IPE-16946
Office of Inspector General                                                                             March 2005

CBCD staff mentioned scarce resources several times as the reason why outreach to the chemical
community is limited. For example, one of the LOs in CBCD was invited to speak about export
controls at the American Chemical Society’s annual meeting in 2004, but he could not attend
because BIS did not make funding available for him to attend. The director of the Office of
Nonproliferation and Treaty Compliance told us that even if sufficient budgetary resources were
available to pay for travel expenses to do outreach, right now he cannot send CBCD staff out of
the office for outreach activities because export license applications will sit unprocessed for the
period of time that they are gone. As it is, 20 percent of incoming chemical and biological
license applications are being reviewed and processed by other divisions because of staffing
shortages in CBCD.72

According to BIS’ director of administration, the agency has $68.779 million to spend on its
programs in FY 2005. This was a small decrease of $240,000 from FY 2004, when available
funding was $69.019 million. Funding in FY 2003 was $72.189 million, so BIS’s budget was
reduced by $3.170 million between FY 2003 and FY 2004. While BIS has experienced a series
of declining budgets, BIS management has not arranged the budgetary resources it does have to
fund more outreach to the chemical exporting community. While outreach to the biological
exporting community is probably a higher priority, outreach done with the chemical community
in recent years has been limited, except for OEE’s outreach after the September 11th terrorist
attacks and outreach done by the Treaty Compliance Division on the Chemical Weapons
Convention. Lower cost options to extend BIS’ outreach to the chemical community are
possible.

Recommendation

Explore ways to do more outreach to the chemical exporting community, including lower cost
outreach alternatives, such as setting up briefings in Washington, mailings, or piggybacking on
outreach done in connection with CWC compliance activities conducted by BIS’ Treaty
Compliance Division.



BIS, in its response to our draft report, agreed with this recommendation. Specifically, BIS said
it will explore ways to increase outreach to the chemical exporting community consistent with
available resources and chemical licensing and policy matters requiring attention. BIS also
stated that it has an extensive general outreach program in which the chemical industry can
participate.

B.         There is an opportunity for focused outreach to registered entities

APHIS and the CDC jointly maintain a list of select agents and toxins that pose a severe threat to
livestock, plants, and/or public health.73 Currently, all but 25 of the items on the Select Agent
List are also controlled under the EAR and are on the CCL. In October 2004, staff in CBCD,
based on discussions with CDC and APHIS officials, decided to draft an AG proposal to put the
remaining 25 items from the Select Agent List on the AG control list and then the CCL.

72
     In FY 2004, CBCD lost 3 LOs. One was replaced in October 2004, however there are still two vacancies.
73
     See http://www.aphis.usda.gov/programs/ag_selectagent/ag_bioterr_toxinslist.html for the Select Agent List.
                                                          43
U.S. Department of Commerce                                                    Final Report IPE-16946
Office of Inspector General                                                               March 2005



CBCD staff shared this proposal with the Materials Technical Advisory Committee at its
February 2005 meeting. After interagency review and concurrence, State submitted this proposal
for consideration at the April 2005 AG plenary. If this proposal is made to the AG, but not
adopted, BIS will evaluate whether to unilaterally place these 25 items on the CCL.

Note that even without the 25 items on the CCL, there still is a high level of overlap between the
Select Agent List and the CCL. APHIS and CDC are responsible for tracking U.S. entities that
deal in the agents and toxins on the Select Agent List. The Public Health Security and
Bioterrorism Preparedness Response Act of 2002, P.L. 107-188, which was signed into law by
the President on June 12, 2002, requires that entities, such as private, state, and federal research
laboratories, universities, and vaccine companies, that possess, use, or transfer agents or toxins
on the Select Agent List register with the appropriate federal agency (APHIS for livestock and
plant pathogens or toxins and CDC for agents or toxins deemed a severe threat to public health).
Currently, 318 entities are registered with APHIS and/or CDC. The registered entities fall in the
following general categories:

                        Figure 14. Registered Entities
                        31%      State and Local Government
                        30%      Academia
                        17%      Federal Government
                        11%      Commercial (For Profit)
                        10%      Private (Non Profit)
                         1%      Other
                       Source: HHS OIG, January 2005

Discussions with officials at APHIS, as well as work done by the OIGs at the U.S. Department of
Agriculture and U.S. Department of Health and Human Services, reveal that APHIS and CDC
may not be adequately educating the registered entities about the need to obtain export licenses
for select agents subject to the CCL and shipped outside the United States. The OIG at
Agriculture found two instances of a registered entity shipping a CCL-controlled item to Hong
Kong without an export license. They also found that APHIS does not tell its registered entities
about export license requirements unless specifically asked. In such cases, APHIS does refer the
entities to BIS. The OIG at Health and Human Services did not do an in-depth inspection of
registered entities, but it did note that guidance provided by CDC to the entities lacks
information about exporting requirements and how to obtain an export license from BIS.

Given both the overlap between the Select Agent List and the CCL, and the “ready made” list of
users of select agents and toxins in the hands of APHIS and CDC, this appears to be an excellent
group for BIS to reach and educate with minimal effort. BIS should work with APHIS and the
CDC to obtain a list of their registered entities and develop a way to inform each entity of (1) the
need to comply with the EAR, (2) how to apply for an export license, and (3) contact information
for BIS staff should the letter recipients have questions about export licensing requirements.




                                                 44
U.S. Department of Commerce                                                  Final Report IPE-16946
Office of Inspector General                                                             March 2005

Recommendations

Pursue multilateral controls on the 25 items now on the HHS/APHIS Select Agent List that are
not currently controlled for export. If agreement cannot be reached multilaterally, evaluate
putting the 25 items on the CCL unilaterally.

Inform APHIS and CDC registered entities in writing of the need to comply with the EAR and
how to apply for an export license if they plan to export controlled items.



In the Acting Under Secretary’s March 30, 2005, response to our draft report, the bureau stated
that it agreed with these recommendations. For the first recommendation, BIS suggested a
modification to reflect the bureau’s plan to first petition the AG to control the 25 agents on the
Select Agent List that are not currently on the CCL. If the AG does not add the items to its
control list, BIS will consider imposing unilateral controls. The recommendation was changed in
accordance with BIS’ suggestion. For the second recommendation, BIS stated that it has already
contacted both APHIS and CDC in order to begin the outreach process to their registered entities.
Additionally, BIS stated that CDC’s Select Agent website now cites Commerce’s export controls
on biological agents and APHIS recently requested, and was provided, website citations for BIS
to use on its website.




                                               45
U.S. Department of Commerce                                                      Final Report IPE-16946
Office of Inspector General                                                                 March 2005

VII.        BIS’ Export Enforcement Office Needs to Act on the Treaty Compliance Division’s
            Investigative Referrals

BIS’ Treaty Compliance Division (TCD) is responsible for assisting U.S. industry in complying
with international arms control, disarmament, and non-proliferation agreements and helping to
ensure industry compliance. One of the primary agreements the division administers is the
Chemical Weapons Convention (CWC), an international treaty that affects companies involved
in the production, processing, consumption, import, and export of a range of commercial
chemicals and precursors. TCD has referred 13 instances of non-compliance with CWC
requirements to OEE for investigation in FYs 2002 through 2004. However, to date, TCD has
received no feedback from OEE regarding the referrals, nor has any action been taken against the
alleged offenders.

The CWC took effect on April 29, 1997. Currently, 167 countries are state parties to the
convention. The CWC contains several requirements for U.S. industry,74 such as submitting
annual declarations to TCD for certain activities related to chemicals controlled by the CWC. In
addition, export licenses may be required to export certain CWC-controlled chemicals,
particularly to countries that are not parties to the CWC. In some cases, an end-use certificate is
required. End-use certificates are issued directly or approved by the government of the
importing destination. When required, end-use certificates must be submitted to BIS within 7
days of the date of export and must state:

       x    the types and quantities of chemicals being exported;
       x    their specific end-use(s);
       x    that the chemicals will be used only for purposes not prohibited by the CWC;
       x    the name(s) and complete address(es) of end-user(s); and
       x    that the chemicals will not be transferred to other end-user(s) or end-use(s).

According to TCD, 10 companies did not submit the required end-use certificates in FY 2002.
There were two instances of non-compliance with the end-use certificate requirement in FY 2003
and one in FY 2004. TCD staff referred all of the cases of non-compliance to OEE for
investigation and appropriate action. However, to date, BIS has taken no action against any of
the alleged non-compliant companies. TCD is concerned that this has created the impression
among exporters that BIS does not enforce the end-use certificate requirements.

TCD officials are troubled that no sanctions have been applied against any of the companies that
did not submit end-use certificates because it reflects poorly on the U.S.’s commitment to
enforce CWC provisions. TCD officials noted that the U.S. had worked closely with the
Organization for the Prohibition of Chemical Weapons, the international body created to
implement the CWC, to set up compliance programs for other CWC members and TCD has
worked diligently to be a model for compliance itself. TCD officials are concerned that even
though industry compliance has improved, if exporters believe that there is no consequence to
not filing the end-use certificates, they may be more lax in the future.



74
  These requirements are contained in the CWC Provisions of the EAR.
http://www.cwc.gov/Regulations/cwc_ear_provisions_html
                                                     46
U.S. Department of Commerce                                                              Final Report IPE-16946
Office of Inspector General                                                                         March 2005

We reviewed the 12 referrals TCD made to OEE in FYs 2002 and 200375 and found that OEE
had actually initiated nine investigations. OEE had no record of one referral and the referral of
two companies in FY 2003 was rolled into open investigations of the same two companies for
the same infraction in FY 2002. Six of the nine investigations were still underway, and three
were closed without action. Our inquiry into the status of the investigations spurred OEE to take
a closer look at the closed referrals, and after examination, OEE officials decided to reopen two
of the three closed cases. In addition, OEE has taken further action on the open investigations,
including site visits to two companies in December 2004 and January 2005. Given the time
intensive nature of the investigations, OEE officials do not have estimates of when these cases
will be concluded, but criminal charges will not be filed in the cases because of the nature of the
alleged infractions. The more likely penalty would either be a warning letter or an administrative
charge that might include a civil fine.

Regardless of the penalties ultimately handed out to companies who have not filed the required
end-use certificates, TCD should be informed of any final enforcement actions taken on its
referrals so it can (1) educate industry about the consequences of failing to file end-use
certificates and (2) demonstrate to the Organization for the Prohibition of Chemical Weapons
that the United States has a robust compliance program that includes enforcing CWC
requirements through punitive measures. This can be done without publicly disclosing any
company-specific or sensitive information. Additionally, TCD should also track its referrals of
non-compliant companies so it can follow up with OEE should TCD not be informed in a timely
manner of the outcome of the investigations opened as a result of the division’s referrals.

Recommendations

Direct OEE to inform TCD of the outcome of the CWC-related investigations upon completion
so information can be shared with the chemical exporting community and the Organization for
the Prohibition of Chemical Weapons.

Ensure that TCD builds a system to track CWC investigative referrals so it can follow up if OEE
has not provided the status of the investigations in a specified period of time.



BIS’ response to our draft report stated agreement with these recommendations. For the first
recommendation, BIS stated that OEE has designated a senior Special Agent as program
manager for CWC-related enforcement. The program manager will forward referrals from TCD
to the field for action and share case results with TCD at the appropriate point in OEE’s
investigation. For the second recommendation, BIS pointed out that the number of referrals is
small, an observation with which we agree. However, we still believe that TCD could benefit
from tracking its referrals to OEE to ensure the division obtains feedback on the status of the
investigations.




75
  The referral for FY 2004 had just been made to OEE at the time of our review, thus OEE had not yet had time to
take any action.
                                                       47
U.S. Department of Commerce                                                  Final Report IPE-16946
Office of Inspector General                                                             March 2005

                              SUMMARY OF RECOMMENDATIONS

We recommend that the Acting Under Secretary for Industry and Security ensure that the
following actions are taken:

1.     Establish specific timeframes for reviewing and signing off on license applications after
       approval by the referral agencies (see page 11).

2.     Develop and maintain clear, consolidated, and up-to-date guidance, or an internal
       operations handbook, to strengthen current license application review practices and help
       ensure that they are consistently applied (see page 11).

3.     Assess the feasibility of providing LOs with the information housed in the Automated
       Targeting System and Automated Export System for use in their review of license
       applications (see page 25).

4.     Work with the intelligence community to develop a method to analyze and track the
       cumulative effect of dual-use exports to countries and entities of concern (see
       page 25).

5.     Take appropriate actions to sustain recent improvements in the timeliness of U.S.
       publication of Australia Group guidelines and rule changes that impact the Commerce
       Control List (see page 31).

6.     Work with the State Department, and the other licensing referral agencies, to develop and
       implement written procedures for handling the AG denial notification process. The
       procedures should cover, at a minimum:
       x the U.S. policy on submitting denials to the AG,
       x when U.S. denial notifications will be sent to the AG—either when the intent to deny
          letter is sent or after the 45-day rebuttal period has lapsed, and
       x how U.S. decisions to rescind prior denial notifications to the AG will be made. This
          should specify how State will exercise its representation authority and how the other
          licensing agencies will be involved in the decision making process (see page 37).

7.     Explore ways to do more outreach to the chemical exporting community, including lower
       cost outreach alternatives, such as setting up briefings in Washington, mailings, or
       piggybacking on outreach done in connection with CWC compliance activities conducted
       by BIS’ Treaty Compliance Division (see page 42).

8.     Pursue multilateral controls on the 25 items now on the HHS/APHIS Select Agent List
       that are not currently controlled for export. If agreement cannot be reached
       multilaterally, evaluate putting the 25 items on the CCL unilaterally (see page 42).

9.     Inform APHIS and CDC registered entities in writing of the need to comply with the
       EAR and how to apply for an export license if they plan to export controlled items (see
       page 42).


                                               48
U.S. Department of Commerce                                                  Final Report IPE-16946
Office of Inspector General                                                             March 2005

10.    Direct OEE to inform TCD of the outcome of the CWC-related investigations upon
       completion so information can be shared with the chemical exporting community and the
       Organization for the Prohibition of Chemical Weapons (see page 46).

11.    Ensure that TCD builds a system to track CWC investigative referrals so it can follow up
       if OEE has not provided the status of the investigations in a specified period of time (see
       page 46).




                                               49
U.S. Department of Commerce                                        Final Report IPE-16946
Office of Inspector General                                                   March 2005

                                 APPENDIXES

                                  Appendix A

                               List of Acronyms

ACEP                          Advisory Committee on Export Policy
AES                           Automated Export System
AG                            Australia Group
APHIS                         Animal and Plant Health Inspection Service
BIS                           Bureau of Industry and Security
BWC                           Biological Weapons Convention
CBCD                          Chemical and Biological Controls Division
CCL                           Commerce Control List
CDC                           Centers for Disease Control and Prevention
CIA                           Central Intelligence Agency
CBP                           U.S. Customs and Border Protection
CWC                           Chemical Weapons Convention
EA                            Export Administration
EAA                           Export Administration Act
EAR                           Export Administration Regulations
EARB                          Export Administration Review Board
ECASS                         Export Control Automated Support System
ECCN                          Export Control Classification Number
EE                            Export Enforcement
FY                            Fiscal Year
GAO                           Government Accountability Office
HWA                           Hold Without Action
LO                            Licensing Officer
LOOM                          Licensing Officers Operating Manual
MTCR                          Missile Technology Control Regime
MTEC                          Missile Technology Export Control Group
NDAA                          National Defense Authorization Act
NSG                           Nuclear Suppliers Group
OC                            Operating Committee
OEE                           Office of Export Enforcement
OIG                           Office of Inspector General
OMB                           Office of Management and Budget
PLC                           Pre-License Check
PSV                           Post Shipment Verification
RWA                           Return Without Action
SED                           Shipper’s Export Declaration
TCD                           Treaty Compliance Division
US&FCS                        United States and Foreign Commercial Service
WINPAC                        Weapons Intelligence, Nonproliferation, and Arms
                              Control Center


                                       50
U.S. Department of Commerce                                                  Final Report IPE-16946
Office of Inspector General                                                             March 2005

                                            Appendix B

                                 Australia Group Members


                                 European
               Argentina                         Republic of Korea       Romania
                                Commission
                Australia         Finland              Latvia         Slovak Republic
                 Austria          France              Lithuania          Slovenia
                Belgium          Germany             Luxembourg            Spain
                Bulgaria          Greece                Malta             Sweden
                 Canada          Hungary             Netherlands        Switzerland
           Republic of Cyprus    Iceland             New Zealand     Republic of Turkey
             Czech Republic       Ireland              Norway         United Kingdom
                Denmark            Italy               Poland          United States

                 Estonia          Japan               Portugal




                                                51
U.S. Department of Commerce                                               Final Report IPE-16946
Office of Inspector General                                                          March 2005

                                        Appendix C

     List of Previous Commerce and Interagency Office of Inspector General Reports,
          Completed Pursuant to the National Defense Authorization Act For 2000

   March 2000—(1) Improvements Are Needed in Programs Designed to Protect Against the
   Transfer of Sensitive Technologies to Countries of Concern, U.S. Department of Commerce
   Office of Inspector General, IPE-12454-1, (2) Interagency Inspector General Assessment of
   Measures to Protect Against the Illicit Transfer of Sensitive Technology, conducted by the
   Offices of Inspector General at the Departments of Commerce, Defense, Energy, State, and
   the Treasury, and the Central Intelligence Agency, 00-OIR-06, and (3) Interagency Review of
   the Export Licensing Process for Foreign National Visitors, conducted by the Offices of
   Inspector General at the Departments of Commerce, Defense, Energy, and State, D-2000-
   109.

   March 2001—(1) Management of Commerce Control List and Related Processes Should be
   Improved, U.S. Department of Commerce Office of Inspector General, IPE-13744 and (2)
   Interagency Review of the Commerce Control List and the U.S. Munitions List, conducted by
   the Offices of Inspector General at the Departments of Commerce, Defense, Energy, and
   State, D-2001-092.

   February 2002— BXA Needs to Strengthen Its ECASS Modernization Efforts to Ensure
   Long-Term Success of the Project, U.S. Department of Commerce Office of Inspector
   General, IPE-14270.

   March 2002—Interagency Review of Federal Automated Export Licensing Systems,
   conducted by the Offices of Inspector General at the Departments of Commerce, Defense,
   Energy, State, and the Treasury, D-2002-074.

   March 2003— Improvements Are Needed to Better Enforce Dual-Use Export Control Laws,
   U.S. Department of Commerce Office of Inspector General, IPE-15155.

   April 2003—Interagency Review of Federal Export Enforcement Efforts, conducted by the
   Offices of Inspector General at the Departments of Commerce, Defense, State, and the
   Treasury, and the Central Intelligence Agency and the U.S. Postal Service, D-2003-069.

   March 2004—Deemed Export Controls May Not Stop the Transfer of Sensitive Technology
   to Foreign Nationals in the U.S., U.S. Department of Commerce Office of Inspector General,
   IPE-16176.

   April 2004—Interagency Review of Foreign National Access to Export-Controlled
   Technology in the United States, conducted by the Offices of Inspector General at the
   Departments of Commerce, Defense, Energy, Homeland Security, and State, and the Central
   Intelligence Agency, D-2004-062.




                                             52
U.S. Department of Commerce                                     Final Report IPE-16946
Office of Inspector General                                                March 2005

                                       Appendix D

                              Agency Response to Draft Report




                                            53
U.S. Department of Commerce        Final Report IPE-16946
Office of Inspector General                   March 2005




                              54
U.S. Department of Commerce        Final Report IPE-16946
Office of Inspector General                   March 2005




                              55
U.S. Department of Commerce        Final Report IPE-16946
Office of Inspector General                   March 2005




                              56
U.S. Department of Commerce        Final Report IPE-16946
Office of Inspector General                   March 2005




                              57
U.S. Department of Commerce        Final Report IPE-16946
Office of Inspector General                   March 2005




                              58
U.S. Department of Commerce        Final Report IPE-16946
Office of Inspector General                   March 2005




                              59
U.S. Department of Commerce        Final Report IPE-16946
Office of Inspector General                   March 2005




                              60
U.S. Department of Commerce        Final Report IPE-16946
Office of Inspector General                   March 2005




                              61
U.S. Department of Commerce        Final Report IPE-16946
Office of Inspector General                   March 2005




                              62
Appendix C. Department of Defense Report




                     C-1
   March, 30, 2005




Export Controls
Controls Over the Export Licensing
Process for Chemical and Biological
Items
(D-2005-042)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies
  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit, Audit Followup and Technical Support at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                      Department of Defense Inspector General
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704




Acronyms
AECA                  Arms Export Control Act
CCL                   Commerce Control List
DTSA                  Defense Technology Security Administration
EAA                   Export Administration Act
EAR                   Export Administration Regulations
HHS                   Department of Health and Human Services
ITAR                  International Traffic in Arms Regulations
TPS                   Technology Protection System
USDA                  U.S. Department of Agriculture
USML                  U.S. Munitions List
USXPORTS              U.S. Export System
               Department of Defense Office of Inspector General
Report Number D-2005-042                                                  March 30, 2005
   (Project No. D2004-D000LG-0232)

               Controls Over the Export Licensing Process for
                       Chemical and Biological Items

                                 Executive Summary

Who Should Read This Report and Why? Civil service employees and uniformed
officers responsible for controlling the release of chemical and biological items for
reasons of national security or U.S foreign policy should read this report. The report
discusses the effectiveness of the DoD review process for export license applications and
updates to Federal export regulations to prevent the proliferation of items that could pose
a threat to public health and safety.

Background. Public Law 106-65, “National Defense Authorization Act for FY 2000,”
section 1402, “Annual Report on Transfers of Militarily Sensitive Technology to
Countries and Entities of Concern,” October 5, 1999, requires that the Inspectors General
of the Departments of Commerce, Defense, Energy, and State, in consultation with the
Director of Central Intelligence and the Director of the Federal Bureau of Investigation,
conduct annual reviews of controls over the transfer of militarily sensitive technology to
countries and entities of concern. These annual reviews are summarized in an
interagency report to Congress.

The U.S. Government restricts the export of chemical and biological items to foreign
entities through the Department of Commerce’s Export Administration Regulations and
the Department of State’s International Traffic in Arms Regulations (the Federal export
regulations). Both the Department of Commerce and the Department of State consult
with other Federal agencies, including DoD, during the review of export license
applications. Within DoD, the Deputy Under Secretary of Defense (Technology Security
Policy and Counterproliferation) is responsible for export control and nonproliferation
policies and, as the Director of the Defense Technology Security Administration, is
responsible for coordinating license application reviews and providing the overall DoD
position on export license applications to Commerce and State, as appropriate.

The United States unilaterally controls biological items through the Bioterrorism Act,
which directs the Departments of Agriculture and Health and Human Services to identify
biological agents and toxins that could be used in acts of terrorism or other illegal acts
and to establish and enforce safeguards and security measures to restrict access to those
agents and toxins. These controls apply to the importation, use, and transfer of those
items within the United States. They do not control the export of such items.

Results. DoD had an effective process to review export license applications for chemical
and biological items. DoD management controls over the licensing process were
adequate in that DoD consistently reviewed applications in a timely manner and the
controls were in compliance with applicable requirements (see finding A).
DoD uses the Federal export regulations to determine which chemical and biological
items require a license for export (export-controlled items). However, the Commerce
Control List does not contain 20 biological agents and toxins identified on the U.S.
Department of Agriculture and the Department of Health and Human Services lists that
have the potential to pose a threat to animal, plant, and public health and safety. The
Department of Commerce is currently considering whether the items contained in the
U.S. Department of Agriculture and Department of Health and Human Services lists
should be export controlled. We recommend that the Deputy Under Secretary of Defense
(Technology Security Policy and Counterproliferation), together with the Department of
Commerce, undertake an assessment of items on the U.S. Department of Agriculture List
of Biological Agents and Toxins and the Department of Health and Human Services List
of Select Agents and Toxins as changes occur to those lists and determine whether any of
the listed agents and toxins should be controlled for export purposes by inclusion on the
Commerce Control List (see finding B).

Management Comments and Audit Response. The Deputy Under Secretary of
Defense (Technology Security Policy and Counterproliferation) concurred with the audit
findings and the recommendation. However, she stated that the section of the draft report
labeled “Munitions Export License Applications” was not entirely accurate. Based on
her comments, we made revisions to the “Munitions Export License Applications”
section of the report to better reflect the process used by Defense Technology Security
Administration to process and refer munitions export license applications. Management
comments are responsive, and no additional comments are required. See the Finding
sections of the report for a discussion of management comments and the Management
Comments section of the report for the complete text of the comments.




                                           ii
Table of Contents

Executive Summary                                                         i

Background                                                                1

Objectives                                                                3

Findings
     A. DoD Review Process for Export License Applications                4
     B. Biological Items of Concern Not Currently Export Controlled       8

Appendixes
     A. Scope and Methodology                                            11
          Management Control Program Review                              12
     B. Prior Coverage                                                   14
     C. Biological Agents Not Included on the Commerce Control List      16
     D. Report Distribution                                              17

Management Comments
     Deputy Under Secretary of Defense (Technology Security Policy and
        Counterproliferation)                                            19
           This audit was performed to meet the requirement of Public Law 106-65,
           “National Defense Authorization Act for FY 2000,” section 1402, “Annual
           Report on Transfers of Militarily Sensitive Technology to Countries and Entities
           of Concern,” October 5, 1999, which states:

           “(a) ANNUAL REPORT. – Not later than March 30 of each year beginning in
           the year 2000 and ending in the year 2007, the President shall transmit to
           Congress a report on transfers to countries and entities of concern during the
           preceding calendar year of the most significant categories of United States
           technologies and technical information with potential military applications.

           “(b) CONTENTS OF REPORT. – The report required by subsection (a) shall
           include, at a minimum, the following:

                                *        *       *        *        *       *        *

                    “(3) An audit by the Inspectors General of the Departments of Defense,
                         State, Commerce, and Energy, in consultation with the Director of
                         Central Intelligence and the Director of the Federal Bureau of
                         Investigation, of the policies and procedures of the United States
                         Government with respect to the export of technologies and technical
                         information referred to in subsection (a) to countries and entities of
                         concern.”

           This report addresses the DoD portion of the required FY 2005 interagency
           review. An interagency report will also be issued.


Background
           The United States unilaterally controls the export of certain goods and
           technologies for national security, foreign policy, or nonproliferation reasons
           under the authority of several different laws. The primary legislative authority for
           controlling the export of goods and technologies that have civilian and military
           application (dual-use) is the Export Administration Act (EAA) of 1979, as
           amended (title 50, United States Code, section 2401).1 The Export
           Administration Regulations (EAR) state that the EAA gives authority to the
           Secretary of Commerce to issue rules and procedures for the export of dual-use
           items. The export of goods and technologies that have only military use
           (munitions items) is controlled under the authority of the Arms Export Control
           Act (AECA) (Public Law 90-629). The AECA authorizes the President to control
           the export of munitions items.


1
    The EAA expired in August 1994. However, the President, under the authority of the International
    Emergency Economic Powers Act (50 U.S.C. 1702), continued the provision of the EAA through
    Executive Orders 12924 and 13222, “Continuation of Export Control Regulations,” August 19, 1994, and
    August 17, 2001, respectively. Each year thereafter, and most recently on August 6, 2004, the President
    issued a notice, “Continuation of Emergency Regarding Export Control Regulations,” continuing the
    emergency declared by Executive Order 13222.



                                                      1
The United States restricts the export of chemical and biological items to foreign
entities through two Federal export regulations: the EAR, maintained by the
Department of Commerce (Commerce), and the International Traffic in Arms
Regulations (ITAR), maintained by the Department of State (State). For this
report, goods and technologies that are listed in Federal export regulations as
requiring a license for export are referred to as export-controlled items. Both
Commerce and State may consult with other Federal agencies (referral agencies),
including DoD, on export-controlled items.

Department of Commerce. The Commerce Bureau of Industry and Security
controls the export of dual-use items using the authority provided in the EAA.
The EAR implements the EAA requirements for executing the export licensing
process for dual-use items and contains the Commerce Control List (CCL) that
identifies dual-use items—goods and technologies, including software—that are
subject to the process as well as the conditions under which they may be
exported. The term “dual-use” is used to distinguish EAR-controlled items that
can be used both in military and other strategic uses and in commercial
applications. CCL Category 1, “Materials, Chemicals, Microorganisms, and
Toxins,” controls chemical and biological protective and detection equipment and
components not specifically designed for military use. Category 1 also controls
chemical agents, precursors for toxic chemical agents, human pathogens and
toxins, and Chemical Weapons Convention schedule 2 and 3 chemicals. Software
and technology specifically designed or modified to develop, produce, or use
Category 1 items are also export-controlled items. This report uses the term
“chemical and biological items” to refer to all items listed under Category 1.

Department of State. The State Office of Defense Trade Controls is responsible
for controlling the export of defense-related articles and services, approving or
denying export license applications, ensuring compliance with the AECA, and
registering persons and contractors. The ITAR implements the AECA and
contains the U.S. Munitions List (USML), which identifies export-controlled
defense-related articles, services, and related technical data as well as the
conditions under which they may be exported. USML Category 14,
“Toxicological Agents and Equipment and Radiological Equipment” controls
nerve agents, vesicant agents, incapacitating agents, riot control agents,
defoliants, medical countermeasures, and modeling or simulation test facilities.
In addition, Category 14 controls technical data and defensive services.
Components, parts, accessories, tools, and equipment specifically designed or
modified for the production of those munitions are also export-controlled items.
This report’s use of the term “chemical and biological items” also includes all
items listed under Category 14.

Department of Defense. Within DoD, the Deputy Under Secretary of Defense
(Technology Security Policy and Counterproliferation), under the direction,
authority, and control of the Under Secretary of Defense for Policy, is responsible
for the development and issuance of export control and nonproliferation policies.
The Deputy Under Secretary also serves as the Director of the Defense
Technology Security Administration (DTSA) and is responsible for coordinating
license application reviews and providing to Commerce and State, as appropriate,
the overall DoD position on export license applications. According to Draft
Directive 5105.72, “Defense Technology Security Administration (DTSA),”


                                     2
    DTSA is the receiving point for all export license applications and develops DoD
    positions on those applications. The Director, DTSA is also responsible for
    supporting the activities of other DoD Components and Federal agencies to
    restrain the flow of sensitive defense-related technology, goods, services, and
    munitions.

    Export Licenses. To be exported from the United States, all items listed on
    either the CCL or the USML must have an approved license or a specific license
    exception. U.S. entities are generally required to obtain an export license before
    providing foreign nationals access to software or technology that is subject to
    export licensing requirements. The need for an export license or license
    exception is determined by the type of item being exported, the country of final
    destination, and the end use of the item. Information about consignees, end users,
    and end uses must be included in the application. Because of recent proliferation
    concerns, the export of even the most basic items may require an export license if
    the end use is for nuclear, missile, biological, or chemical research, development,
    or production. Commerce and State may issue licenses with conditions that
    require the exporter to abide by certain restrictions. The referral agencies can
    also recommend that conditions be placed on an export license before it is issued.


Objectives
    Our overall audit objective was to evaluate whether the DoD export licensing
    review process helped deter the proliferation of chemical and biological
    commodities. We assessed the effectiveness of the DoD export licensing review
    process to ensure that lethal chemical and biological items were not exported to
    countries and entities of concern. Specifically, we determined whether DoD
    received, and how DoD assessed, export license applications for chemical and
    biological items. We also reviewed the management control program as it related
    to the overall objective. We deferred an announced objective of determining
    whether DoD facilities with chemical and biological items were in compliance
    with Federal export laws and regulations. See Appendix A for a discussion of the
    scope and methodology and our review of the management control program. See
    Appendix B for prior coverage related to the objectives.




                                         3
                    A. DoD Review Process for Export
                       License Applications
                    DoD had an effective process to review export license applications for
                    chemical and biological items. DoD consistently reviewed and referred
                    applications in a timely manner, provided positions on export license
                    applications, and was in compliance with applicable requirements.
                    Despite the lack of a fully automated license application referral process at
                    State or Commerce, DoD met statutory and internal review objectives.


DoD Role in the Export License Application Review Process
           DTSA is the DoD focal point and is responsible for coordinating and reviewing
           export license applications received from Commerce and State. DTSA is required
           to develop DoD positions on export license applications consistent with national
           security objectives and to process applications expeditiously, making full use of
           automation and other efficiencies. As required by Executive Order 12981, DTSA
           participates in the review of dual-use export license applications.

           Dual-Use Export License Applications. DTSA follows statutorily required
           timelines2 for review of dual-use export license applications, which allow up to
           30 days for review. DTSA receives dual-use license applications electronically
           through the Technology Protection System (TPS), but DTSA receives supporting
           data in hard copy via a courier service. A DTSA Tiger Team, composed of
           representatives from the Licensing, Technical, and Policy Divisions of DTSA,
           meets each morning to review a synopsis of dual-use license applications to
           determine which license applications should be referred to DoD Components.
           DTSA does not refer an application that the Tiger Team determines is standard or
           repetitive. For non-referred license applications, DTSA records its position
           through TPS. If the application is not standard or repetitive, DTSA refers the
           application electronically to the appropriate DoD Components via TPS and sends
           the supporting data in hard copy via a courier service. The DoD Components that
           DTSA might refer applications to are the Army, the Navy, and the Air Force (the
           Military Departments). DTSA gives the Military Departments 10 days to review
           the application. Once DTSA receives the Military Departments’ comments, a
           DTSA licensing officer creates a final DoD position and enters it into TPS.

           Dual-use license applications are also reviewed at an interagency “Shield”
           meeting. Chaired by State, Shield is an informal interagency working group with
           representation from Commerce, the Central Intelligence Agency, DoD, and the
           Department of Energy. Shield meetings provide a forum for discussing different
           opinions on license applications. Shield facilitates the review of dual-use license
           applications for chemical and biological items by meeting once a week and
           reviewing all dual-use license applications that are 16 to 22 days old. Shield
2
    Executive Order 12981 states that for dual-use export license applications, a Department or agency shall
    provide the Secretary of Commerce with a recommendation either to approve or deny the license
    application within 30 days of receipt of a referral and all required information.



                                                       4
           focuses on applications of concern and attempts to resolve issues. Shield
           escalates applications to the Operating Committee3 if issues cannot be resolved.
           The Operating Committee considers the agencies’ positions on unresolved dual-
           use export license applications and determines whether to permit the export.

           Munitions Export License Applications. DTSA has established informal,
           internal deadlines for the review of munitions export license applications. DTSA
           normally allows up to 31 days for DoD review and response to referred
           applications. DTSA either receives munitions license applications in hard copy
           via a courier or electronically through the U.S. Exports System (USXPORTS)
           from the State Department. Once DTSA receives a license application, they
           review the application and determine whether it is standard or repetitive and,
           therefore, does not need to be referred. If DTSA determines that a license
           application is standard or repetitive, DTSA provides the DoD position to State
           through USXPORTS. If the license application is not standard or repetitive,
           DTSA refers the application to the Military Departments. This step including the
           process of providing State the DoD position or referring the application to the
           Military Departments takes approximately 2 days. Hard copies of the
           applications and associated technical data are transferred for review via courier
           service. If the information is available in electronic form, it is also transferred for
           review via USXPORTS. DTSA allows Military Departments 25 days to review
           an application and, if that deadline is not met, DTSA can approve a 14-day
           extension. At the conclusion of the 25 days, it takes DTSA approximately 2 days
           to create and post the draft DoD position for review and comment by the Military
           Departments. Military Departments then have approximately 2 days to dispute
           the draft position. If there are no comments received from the reviewers, DTSA
           posts the final DoD position to State.

           Military Department Referrals. For both dual-use and munitions license
           applications, the Military Departments refer the license applications to program
           managers, technical experts, or other appropriate personnel for comment.

           The Deputy Assistant Secretary of the Army (Defense Exports and Cooperation)
           sent a memorandum to DTSA on July 23, 2003, that deferred the Army position
           on dual-use export license applications to the judgment and expertise of DTSA
           for the development of positions. The Deputy Assistant Secretary initiated that
           action after an internal review found that the Army’s interests were equally served
           regardless of whether the Army or DTSA reviewed the applications. However,
           the memorandum also states that dual-use license applications considered by
           DTSA to be of particular importance could still be referred and would be
           appropriately reviewed. Army personnel stated that they review approximately
           150 chemical or biological export license applications per year. Navy and Air
           Force personnel stated that they review approximately 20 or fewer chemical or
           biological license applications per year for each of their respective Departments.




3
    Executive Order 12981 states that the Secretary of Commerce appoints the Chair of the Operating
    Committee and he or she will consider the recommendations of the reviewing Departments and agencies
    and make the final decision concerning the proposed export.



                                                    5
DoD Review of Export License Applications
    We obtained a list of all chemical and biological export license applications
    received by Commerce and State during FY 2003. Those lists showed that
    Commerce had received 1,803 dual-use export license applications and that State
    had received 717 munitions export license applications for chemical or biological
    items. We reviewed random samples of 91 of the 1,803 dual-use applications and
    85 of the 717 munitions applications.

    Dual-Use Export License Applications. Commerce referred 84 of the
    91 dual-use export license applications in our sample to DTSA for comment.
    Commerce returned six of the remaining seven applications to the applicant
    without action because the applications were incomplete, and Commerce did not
    refer the seventh application to DoD because it was not considered to be a
    military item. DTSA met the statutory timeframe for the 84 applications it
    reviewed, and DTSA personnel stated that they had no outstanding concerns with
    Commerce’s final positions.

    In addition, we reviewed 18 dual-use export license applications from the
    Commerce list that had been escalated to the Operating Committee. DTSA
    personnel stated that DoD had no outstanding issues with the Operating
    Committee’s or Commerce’s final positions.

    Munitions Export License Applications. State referred 57 of the 85 munitions
    license applications in our sample to DTSA. State did not refer the other 28
    applications to DTSA because of the following reasons.

       •   Eighteen applications were for standard or repetitive items or State
           considered the technology level of the item to be widespread and not to
           pose a threat to the United States.

       •   Ten applications were incomplete and returned to the applicant without
           action.
    DTSA generally met internal deadlines for reviewing the 57 referred munitions
    export license applications. DTSA took more than 31 days to review 4 of the 57
    referred applications; however, we do not consider those instances to be excessive
    or to reveal an overall weakness with the review process for munitions license
    applications because they were reviewed in under 45 days, which is still within
    the allowable 14-day extension. DTSA personnel stated that, for the 57 referred
    applications, they had no outstanding concerns with State’s final positions.

    Automation of the Export Licensing Process. DoD was generally timely in its
    reviews of both dual-use and munitions export licenses. However, DTSA and
    Military Department personnel stated that the application review process would
    be more efficient if all license applications and supporting data were provided
    electronically. Specifically, the use of a courier service to deliver supporting data
    to DTSA and Military Departments adds at least 3 days of processing time for
    both dual-use and munitions export license applications. If Commerce and State
    referred supporting data electronically with the applications, DTSA and Military


                                          6
    Departments could reduce their review time by at least 3 days for some
    applications. However, DTSA consistently met statutory and internal deadlines
    despite the lack of a fully automated license application process; therefore, we are
    not making a recommendation to fully automate the process. Additionally, DTSA
    does not control how it receives supporting data; Commerce and State would need
    to take actions to ensure that all supporting data were sent to DTSA electronically
    by their Departments.


Conclusion
    DTSA and the Military Departments were effective in meeting their statutorily
    required and internal deadlines and contributed to the dual-use and munitions
    export license application review process. We attribute much of the success of
    the process to the spirit of cooperation exhibited by the personnel of DTSA and
    the Military Departments.


Management Comments on the Finding
    Management Comments. The Deputy Under Secretary of Defense (Technology
    Security Policy and Counterproliferation) concurred with the audit finding.
    However, she stated that the paragraph of the draft report labeled “Munitions
    Export License Applications” was not entirely accurate. She provided alternate
    language for this section of the report.

    Audit Response. As a result of management comments by the Deputy Under
    Secretary of Defense (Technology Security Policy and Counterproliferation), we
    made revisions to the “Munitions Export License Applications” paragraph of the
    report to better reflect the process used by DTSA to process and refer munitions
    export license applications.




                                         7
            B. Biological Items of Concern Not
               Currently Export Controlled
            DoD uses the Commerce Control List (CCL) to determine which
            biological items of concern are export controlled and require the filing of
            an export license application. However, the CCL does not contain 20
            biological agents and toxins identified on the U.S. Department of
            Agriculture (USDA) and the Department of Health and Human Services
            (HHS) lists that have the potential to pose a threat to animal, plant, and
            public health and safety. Commerce is currently considering whether the
            items contained in the USDA and HHS lists should be export controlled.
            It is our opinion that items listed on the USDA and HHS lists should be
            periodically evaluated for inclusion in the CCL.

Established Legislative Authority
     The United States controls chemical and biological items through legislation and
     by implementing regulations. The AECA and the EAA are the legislative
     authority for the EAR and the ITAR. The EAR and the ITAR are the Federal
     export regulations that identify the chemical and biological items of concern that
     require export control. Also, Public Law 107-188, “Public Health Security and
     Bioterrorism Preparedness and Response Act of 2002” (Bioterrorism Act), directs
     the USDA and HHS to establish and enforce safeguards and security measures to
     restrict access to biological agents and toxins that could be used in acts of
     terrorism or for any other criminal purpose. USDA is required to establish and
     maintain a list of and controls for biological agents and toxins that have the
     potential to pose a threat to animal or plant health or to animal or plant products.
     HHS is required to establish and maintain a list of and controls for biological
     agents and toxins that have the potential to pose a threat to public health and
     safety.

Biological Items of Concern Not Export Controlled
     As a result of the Bioterrorism Act, USDA and HHS published regulations on the
     possession, use, and transfer of chemical and biological items listed in those
     regulations. The regulations went into effect on February 11, 2003, and
     February 7, 2003, respectively.

     Both regulations establish requirements regarding the possession and use of the
     listed agents, their importation, and their transfer within the United States. The
     USDA regulation does not address the establishment of export controls. The
     HHS regulation states that it does not set export controls because regulating
     exports is the responsibility of Commerce.

     The USDA and HHS lists, in effect since February 2003, included 20 items that
     were not included on the CCL as of February 2005. Specifically, the CCL did not
     include:


                                           8
            •   15 biological agents on the USDA Biological Agent List;

            •   1 biological agent on both the USDA Biological Agent List and the
                HHS Select Agent List; and

            •   4 biological agents on the HHS Select Agent List.

     See Appendix C for a table showing the 20 biological agents and the particular
     lists they are on.


DoD Control of Biological Items
     DoD Directive 2040.2 requires the Under Secretary of Defense for Policy to
     prepare technology transfer control policy. In addition, the Directive requires
     DoD Components to manage transfers of technology, goods, services, and
     munitions consistent with U.S. foreign policy and national security objectives.

     DoD, like all U.S. entities, uses the Federal export regulations to determine which
     chemical and biological items require a license for export (export-controlled
     items).


Annual Report to Congress on Export Policies and Procedures
     To meet the intent of the “National Defense Authorization Act for FY 2000” the
     Offices of the Inspectors General of the Departments of Commerce, Defense,
     Energy, and State, in consultation with the Director of Central Intelligence and
     the Director of the Federal Bureau of Investigation, established guidelines for
     conducting annual reviews of controls over the transfer of militarily sensitive
     technology to countries and entities of concern. The participating Offices of
     Inspectors General signed a memorandum of understanding which stated that the
     agencies would develop an agreed upon approach to address each year’s review
     of controls over the transfer of militarily sensitive technology to countries and
     entities of concern. Each Office of Inspector General agreed to issue an agency
     specific report and work together to issue an interagency report to Congress
     outlining the combined findings and recommendations.

     In discussions with the Commerce Office of Inspector General’s representative to
     the interagency working group, subsequent to the draft report, we were notified
     that Commerce will address the issue of updating the CCL with items listed on
     the USDA and HHS lists. This issue will also be addressed in the Commerce
     specific and interagency reports. As a result, we made revisions to our draft
     finding to reflect the actions planned by Commerce to expand the CCL.




                                          9
Recommendation and Management Comments
    B. We recommend that the Deputy Under Secretary of Defense (Technology
    Security Policy and Counterproliferation), together with the Department of
    Commerce, undertake an assessment of items on the U.S. Department of
    Agriculture List of Biological Agents and Toxins and the Department of
    Health and Human Services List of Select Agents and Toxins as changes
    occur to those lists and determine whether any of the listed agents and toxins
    should be controlled for export purposes by inclusion on the Commerce
    Control List.

    Management Comments. The Deputy Under Secretary (Technology Security
    Policy and Counterproliferation) concurred with the draft finding and
    recommendation.




                                      10
Appendix A. Scope and Methodology
   We reviewed applicable Executive Orders and Federal laws and regulations,
   including the EAA, the AECA, and the associated EAR and ITAR. In addition,
   we evaluated the adequacy of DoD directives, policies, and regulations related to
   the disclosure and transfer of militarily sensitive and critical technologies to
   foreign entities from 1984 through 2004. We reviewed those documents to
   determine DoD responsibilities in the export license application review process.

   We compared export-controlled items listed in the EAR and ITAR with chemical
   and biological items listed in multilateral agreements, such as the Australia
   Group, Chemical Weapons Convention, Comprehensive Nuclear-Test-Ban
   Treaty, Missile Technology Control Regime, and the Wassenaar Agreement, to
   identify whether any of those items were not included in the EAR or ITAR.
   Additionally, we compared the items on the USDA Biological Agent List and the
   HHS Select Agent List with the items controlled by the EAR and the ITAR to
   determine whether any of those items were not included in the EAR or ITAR.

   During our audit, we interviewed personnel from the following offices: the
   Office of the Under Secretary of Defense for Intelligence; the Office of the
   Assistant to the Secretary of Defense (Chemical and Biological Defense); the
   Office of the Deputy Under Secretary of Defense (Technology Security Policy
   and Counterproliferation); the Plans & Policy Directorate (J-5) and the Force
   Structure, Resources, and Assessment Directorate (J-8), Joint Staff; the Joint
   Program Executive Office (Chemical and Biological Defense); the Office of the
   Deputy Assistant Secretary of the Army (Defense Exports and Cooperation); the
   Navy International Programs Office, Export License Division; the Deputy Under
   Secretary of the Air Force (Foreign Disclosure and Technology Transfer
   Division); the Defense Security Service; DTSA; and the Defense Threat
   Reduction Agency. At each location we discussed the export license application
   review process and the role and responsibilities for each office.

   We performed this audit from September 2004 through February 2005 in
   accordance with generally accepted government auditing standards. Our scope
   was limited due to time and resource constraints. Specifically, we did not address
   the announced objective of determining whether DoD facilities with chemical and
   biological items were in compliance with Federal export laws and regulations.

   We met with DTSA personnel who reviewed export license applications referred
   by Commerce and State, and we reviewed the automated systems used in the
   license review process. In addition, we met with the Shield chairperson to gain an
   understanding of the Shield process for reviewing dual-use export license
   applications. We also met with the Military Departments’ export license
   application review offices to determine their processes for reviewing applications
   referred to them by DTSA.

   To determine the effectiveness of the DoD export license application review
   process to ensure that lethal chemical and biological commodities were not
   exported to countries and entities of concern, we reviewed two random samples of
   applications—91 dual-use and 85 munitions export license applications. We


                                       11
    reviewed the samples to determine whether the export license applications were
    referred to DTSA and the Military Departments. To determine whether DoD
    received, and how DoD assessed, chemical and biological export license
    applications, we reconciled the export license applications in our samples with
    DTSA records and reviewed the rationale for each non-referral. We then
    compared actual processing times for referred applications with the statutory and
    internal deadlines for timeliness. We also compared the DoD final position with
    the final Commerce or State position, identified discrepancies, and inquired about
    those discrepancies.

    For our samples, we obtained lists from Commerce and State of all chemical or
    biological export license applications they received during FY 2003. Those lists
    showed that Commerce had received 1,803 dual-use export license applications
    and that State had received 717 munitions export license applications for
    chemical or biological items. We used a sampling plan designed by the DoD
    Office of Inspector General’s Quantitative Methods Division to randomly select
    export license applications from those lists for review.

    Use of Computer-Processed Data. We relied on computer-processed data from
    the Commerce Export Control Automated Support System, USXPORTS, and
    TPS. We compared summarized or detailed data contained within those
    automated export licensing systems and reconciled differences. We did not find
    any errors that would preclude our use of the computer-processed data to meet the
    audit objectives or would change the conclusions in this report. Based on our
    comparison, we concluded that the system controls were adequate for our
    purposes in conducting this audit.

    Use of Technical Assistance. We received technical assistance from the DoD
    Office of Inspector General’s Quantitative Methods Division, which designed the
    sampling plan for our random samples taken from the lists of dual-use and
    munitions export license applications received by Commerce and State,
    respectively, during FY 2003. The sampling plan was designed with a 95 percent
    confidence level and a 10 percent precision level. We also received technical
    assistance from DTSA and Commerce during the course of this audit.
    Specifically, DTSA and Commerce personnel reviewed our comparison of the
    CCL and the USML with the multilateral agreement and unilateral regulations to
    determine whether our conclusions were accurate.


Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. We evaluated the
    controls over the DoD export license review process for lethal chemical and
    biological items. Specifically, we reviewed the adequacy of the policies and


                                        12
procedures that the Office of the Deputy Under Secretary of Defense (Technology
Security Policy and Counterproliferation) had for preventing the transfer of lethal
chemical and biological items to countries and entities of concern. We also
reviewed the adequacy of DTSA management controls over referred dual-use and
munitions export license applications. Because we did not identify a material
weakness, we did not assess management’s self-evaluation.

Adequacy of Management Controls. The Office of the Deputy Under Secretary
of Defense (Technology Security Policy and Counterproliferation) and DTSA
management controls were adequate in that we identified no material
management control weakness.




                                    13
Appendix B. Prior Coverage
    During the last 6 years, the Government Accountability Office (GAO) and the
    Department of Defense Inspector General (DoD IG) have conducted multiple
    reviews discussing the adequacy of export controls. Unrestricted GAO reports
    can be accessed over the Internet at http://www.gao.gov. Unrestricted DoD IG
    reports can be accessed at http://www.dodig.mil/audit/reports. The following
    previous reports are of particular relevance to the subject matter in this report.


GAO
    GAO Report No. GAO-01-528, “Export Controls: State and Commerce
    Department License Review Times are Similar,” June 14, 2001


DoD IG
    DoD IG Report No. D-2004-061, “Export Controls: Export-Controlled
    Technology at Contractor, University, and Federally Funded Research and
    Development Center Facilities,” March 25, 2004

    DoD IG Report No. D2003-070, “Export Controls: DoD Involvement in Export
    Enforcement Activities,” March 28, 2003

    DoD IG Report No. D-2003-021, “Security: Export Controls Over Biological
    Agents (U),” November 12, 2002

    DoD IG Report No. D-2002-039, “Automation of the DoD Export License
    Application Review Process,” January 15, 2002

    DoD IG Report No. D-2001-088, “DoD Involvement in the Review and Revision
    of the Commerce Control List and the U.S. Munitions List,” March 23, 2001

    DoD IG Report No. D-2000-110, “Export Licensing at DoD Research Facilities,”
    March 24, 2000

    DoD IG Report No. 99-186, “Review of the DoD Export Licensing Processes for
    Dual-Use Commodities and Munitions,” June 18, 1999




                                         14
Interagency Reviews
    Inspectors General of the Departments of Commerce, Defense, Energy, Homeland
    Security, and State and the Central Intelligence Agency Report No. D-2004-062,
    “Interagency Review of Foreign National Access to Export-Controlled
    Technology in the United States,” April 16, 2004

    Inspectors General of the Departments of Commerce, Defense, State, and the
    Treasury; the Central Intelligence Agency; and the United States Postal Service
    Report No. D-2003-069, “Interagency Review of Federal Export Enforcement
    Efforts,” April 18, 2003

    Inspectors General of the Departments of Commerce, Defense, Energy, State, and
    the Treasury Report No. D-2002-074, “Interagency Review of Federal Automated
    Export Licensing Systems,” March 29, 2002

    Inspectors General of the Departments of Commerce, Defense, Energy, and State
    Report No. D-2001-092, “Interagency Review of the Commerce Control List and
    the U.S. Munitions List,” March 23, 2001

    Inspectors General of the Departments of Commerce, Defense, Energy, and State
    Report No. D-2000-109, “Interagency Review of the Export Licensing Process
    for Foreign National Visitors,” March 24, 2000

    Inspectors General of the Departments of Commerce, Defense, Energy, State, and
    the Treasury and the Central Intelligence Agency Report No. 99-187,
    “Interagency Review of the Export Licensing Processes for Dual-Use
    Commodities and Munitions,” June 18, 1999




                                       15
Appendix C. Biological Agents Not Included on
            the Commerce Control List
                                                             USDA
                                                            Biological   HHS Select
             Chemical and Biological Agent                  Agent List   Agent List
  Akabane virus                                                 3
  Bovine spongiform encephalopathy agent                        3
  Camel pox virus                                               3
  Central European tick-borne encephalitis                                   3
  Cercopithecine herpesvirus 1 (Herpes B virus)                              3
  Coccidioides immitis                                          3            3
  Coccidioides posadasii                                                     3
  Cowdria ruminantium (Heartwater)                              3
  Far Eastern tick-borne encephalitis                                        3
  Liberobacter africanus                                        3
  Liberobacter asiaticus                                        3
  Malignant catarrhal fever virus (Exotic)                      3
  Menangle virus                                                3
  Mycoplasma capricolum/ M.F38/M. mycoides Capri                3
  Peronosclerospora philippinensis                              3
  Phakopsora pachyrhizi                                         3
  Plum Pox Potyvirus                                            3
  Sclerophthora rayssiae var zeae                               3
  Synchytrium endobioticum                                      3
  Xylella fastidiosa (citrusBacillus anthracis variegated       3
  chlorosis strain)




                                                  16
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
   Deputy Under Secretary of Defense (Science and Technology)
Under Secretary of Defense for Policy
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Under Secretary of Defense for Intelligence
Assistant to the Secretary of Defense (Nuclear and Chemical and Biological Defense
   Programs)
Director, Program Analysis and Evaluation
Deputy Under Secretary of Defense (Technology Security Policy and
   Counterproliferation)

Joint Staff
Director, Joint Staff
   Director, Plans & Policy Directorate (J-5), Joint Staff
   Director, Force Structure, Resources, and Assessment Directorate (J-8), Joint Staff

Department of the Army
Inspector General, Department of the Army
Director, Joint Program Executive Office (Chemical and Biological Defense)

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Combatant Command
Inspector General, U.S. Joint Forces Command




                                           17
Other Defense Organizations
Director, Defense Intelligence Agency
Director, Defense Logistics Agency
Director, Defense Security Service
Director, Defense Technology Security Administration

Non-Defense Federal Organizations
Office of Management and Budget
Director, National Security Agency
Inspector General, Department of Agriculture
Inspector General, Department of Commerce
Inspector General, Department of Energy
Inspector General, Department of Health and Human Services
Inspector General, Department of Homeland Security
Inspector General, Department of State
Inspector General, Central Intelligence Agency

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
Senate Select Committee on Intelligence
Senate Committee on Foreign Relations
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform
House Committee on International Relations
House Permanent Select Committee on Intelligence




                                         18
Deputy Under Secretary of Defense (Technology
Security Policy and Counterproliferation)
Comments
                                                Final Report
                                                 Reference




                                                Revised




                      19
20
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Readiness and Logistics Support prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Robert F. Prinzbach
Brett A. Mansfield
Gary A. Clark
Troy R. Zigler
Ronald L. Rembold
Appendix D. Department of Energy Report




                     D-1
              U.S. Department of Energy
              Office of Inspector General
              Office of Inspections and Special Inquiries




Inspection Report
The Department of Energy’s Review of
Chemical and Biological Export License
Applications




DOE/IG-0682                                March 2005
THE DEPARTMENT OF ENERGY’S REVIEW OF CHEMICAL
AND BIOLOGICAL EXPORT LICENSE APPLICATIONS


TABLE OF
CONTENTS
              OVERVIEW

              Introduction and Objectives ……………………………              1

              Observations and Conclusions ………………………..             2


              DETAILS OF FINDINGS

              Background ………………………………………………. 3

              Energy Export License Reviews …..…………………… 3

              Compliance …………………......……….………………. 4

              Interagency Coordination ……………………………….               4

              RECOMMENDATIONS ………………………………...                      6


              MANAGEMENT COMMENTS …………………………                       6


              INSPECTOR COMMENTS …………………………….                      6


              APPENDICES

              A. Scope and Methodology ……………………………                 7

              B. Status of Recommendations from Prior
                 National Defense Authorization Act Reports ….….   8

              C. Prior Export Control Related Reports ………..……      13

              D. Management Comments ……………………………                   14
Overview

INTRODUCTION     The National Defense Authorization Act (NDAA) for Fiscal Year
AND OBJECTIVES   (FY) 2000 provides that beginning in the year 2000 and ending in
                 the year 2007, the President shall annually submit to Congress a
                 report by the Inspectors General of, at a minimum, the
                 Departments of Energy (Energy), Commerce (Commerce),
                 Defense (Defense), and State (State) of the policies and procedures
                 of the United States Government with respect to the export of
                 technologies and technical information with potential military
                 application to countries and entities of concern. The NDAA for
                 FY 2001 also requires the Inspectors General to include in each
                 annual report the status of the implementation or disposition of
                 recommendations that were set forth in previous annual reports.

                 Exports of chemical and biological commodities from the United
                 States are receiving increased scrutiny as a result of heightened
                 national security concerns regarding the possible proliferation of
                 weapons of mass destruction using these materials. Therefore, an
                 interagency working group comprised of representatives from the
                 Offices of Inspectors General (OIGs) for Energy, Commerce,
                 Defense, State, the Department of Homeland Security, and the
                 Central Intelligence Agency (CIA) selected the process for
                 reviewing chemical and biological export license applications as
                 the topic for its 2005 review.

                 The objective of our inspection was to determine if Energy’s
                 export license review process is assisting the Government in its
                 efforts to deter the proliferation of chemical and biological
                 commodities that could be used in weapons of mass destruction.
                 To accomplish this objective, we examined:

                     •   Energy’s role in reviewing export license applications for
                         chemical and biological commodities;

                     •   Adherence by Energy officials to relevant laws and
                         regulations governing such reviews; and

                     •   Coordination by Energy officials with other Federal
                         agencies.

                 Additionally, we reviewed the status of recommendations set forth
                 in previous Energy OIG reports on annual export control reviews
                 conducted pursuant to the NDAA for FY 2000.




Page 1                               The Department of Energy’s Review of
                                     Chemical and Biological Export License
                                     Applications
OBSERVATIONS AND   We concluded that Energy’s export license review process is
CONCLUSIONS        assisting the Government in its efforts to deter the proliferation of
                   chemical and biological commodities that could be used in weapons of
                   mass destruction. Specifically, we found that:

                   •   Energy added additional licensing officers, which provided
                       Energy the capability to begin conducting reviews of chemical
                       and biological export license applications in April 2003;

                   •   Reviews of chemical and biological export license applications
                       by Energy officials complied with the 30-day review
                       requirement; and

                   •   Energy officials appropriately coordinated with other Federal
                       agencies regarding Energy’s review of chemical and biological
                       export license applications. However, some Energy licensing
                       officers were unable to access Commerce’s export license
                       application database.

                   Regarding the status of recommendations set forth in previous
                   Energy OIG reports on annual export control reviews conducted
                   pursuant to the NDAA for FY 2000, we determined that 12 of the
                   13 recommendations have been closed. Details regarding the
                   recommendations can be found in Appendix B.

                   The Energy OIG has conducted a number of reviews related to the
                   topic of export controls. A listing of these reports is contained in
                   Appendix C.




Page 2                                              Observations and Conclusions
Details of Findings

BACKGROUND                           The principal legislative authorities governing the export control of
                                     nuclear-related, dual-use1 items are the Export Administration Act
                                     (EAA) of 1979 and the Nuclear Non-Proliferation Act of 1978. The
                                     provisions of the EAA have been updated by Executive Order, most
                                     recently by Executive Order 12981, “Administration of Export
                                     Controls,” dated December 5, 1995. Executive Order 12981 grants
                                     the Secretary of Commerce the authority to refer export license
                                     applications to other agencies for review and gives agencies such as
                                     Energy the authority to look at any export license application
                                     submitted to Commerce. To implement the EAA, Commerce issues
                                     the Export Administration Regulations (EAR), which includes
                                     controls over nuclear-related items. Because Energy’s national
                                     laboratories are the primary source for expertise on nuclear-related
                                     items for the Federal Government, nuclear-related items identified for
                                     export controls by the EAR have traditionally been referred to Energy
                                     for review. Within Energy, these reviews are coordinated by
                                     licensing officers within the National Nuclear Security
                                     Administration’s (NNSA’s) Office of Export Control Policy and
                                     Cooperation.

                                     State administers export controls on all munitions pursuant to the
                                     International Traffic in Arms Regulations and reviews the pertinent
                                     export license applications, including those for chemical and
                                     biological munitions. Although State may refer export license
                                     applications for munitions commodities to Energy for review, there
                                     is no formal mechanism regarding such referrals. To date, State
                                     has not requested that Energy review export license applications
                                     for chemical and biological munitions.

ENERGY EXPORT                        We found that Energy added additional licensing officers, which
LICENSE REVIEWS                      provided Energy the capability to begin conducting reviews of
                                     chemical and biological export license applications in April 2003.
                                     Energy’s national laboratories have expertise in many areas,
                                     including chemical and biological matters. Following the events of
                                     September 11, 2001, Energy concluded that its “assets should be
                                     mobilized to deal with all forms of weapons of mass
                                     destruction…[including] chemical and biological weapons.”
                                     Pursuant to this review, the NNSA budget was increased to allow
                                     for these additional reviews, and Energy officially requested that
                                     Commerce refer chemical and biological export license
                                     applications to Energy for review beginning April 15, 2003.



1
    Some controlled commodities are designated as “dual-use,” that is, goods and technologies that have both civilian
    and military uses. The U.S. Government designates some dual-use commodities as “nuclear dual-use” items,
    which are controlled for nuclear nonproliferation purposes.


Page 3                                                                                     Details of Findings
COMPLIANCE                            We found that reviews of chemical and biological export license
                                      applications by Energy officials complied with the requirement to
                                      review export license applications within 30 days.

                                      Executive Order 12981 states that Energy has 30 days to review a
                                      referred application and provide a recommendation to Commerce
                                      regarding approval or denial of the license application. Of a
                                      sample of 91 chemical and biological license applications received
                                      by Commerce in FY 2003,2 36 were referred to Energy for review.
                                      (The remaining export license applications received by Commerce
                                      were either returned to the applicant without being referred by
                                      Commerce to other agencies for review or were received by
                                      Commerce prior to April 15, 2003, when Energy established its
                                      chemical and biological export license application review process.)
                                      We determined that Energy replied to Commerce within the 30-
                                      day time frame on all 36 of the license applications referred to
                                      Energy for review.

INTERAGENCY                           We found that Energy officials appropriately coordinated with
COORDINATION                          other Federal agencies regarding Energy’s review of chemical and
                                      biological export license applications. However, some Energy
                                      officials were unable to access Commerce’s export license
                                      application database.

SHIELD Licensing                      There are two interagency groups that can resolve disputes among
Group                                 Federal agencies regarding approval of export license
                                      applications; the SHIELD licensing group and the Operating
                                      Committee. Energy became a member of the SHIELD licensing
                                      group in April 2003, joining with State, Defense, Commerce, and
                                      CIA. The SHIELD licensing group reviews export license
                                      applications involving items controlled for chemical and biological
                                      weapons reasons and recommends whether an application should
                                      be approved or disapproved. If the members of the SHIELD
                                      licensing group cannot reach agreement on disposition of an
                                      application, the application is referred to the Operating Committee
                                      for further review. We determined that for the period covered by
                                      our review, Energy participated in each of the SHIELD licensing
                                      group meetings, and coordinated with the other group members on


2
    The OIG interagency group examined a sample, developed by a Defense statistician, of 91 chemical and
    biological related export license applications from a total of 1,803 applications received by Commerce in FY
    2003. Additionally, the OIG interagency group examined all the license applications from FY 2003 that were
    escalated to the Operating Committee for resolution, meaning one or more Federal agencies recommended denial
    after their initial review of the export license application. (The function of the Operating Committee is discussed
    in the next section of this report.) The total number of escalated license applications was 18, which included one
    export license application already reported in the initial sample of 91. Therefore, a total sample of 108 license
    applications was reviewed by the OIG interagency group.


Page 4                                                                                       Details of Findings
               all the chemical and biological license applications referred to
               Energy by Commerce.

Operating      Energy has been a member of the Operating Committee since it
Committee      was established in 1975. The Operating Committee includes
               senior officials from Energy, Commerce, Defense, and State,
               which are voting members, and the CIA, which is a non-voting
               member. The Operating Committee members are higher level
               agency officials than those in the SHIELD licensing group. We
               examined a sample of 18 license applications escalated to the
               Operating Committee for review during FY 2003. The 18 license
               applications were part of the 108 license applications reviewed by
               the OIG interagency working group. We determined that Energy
               participated in each of the Operating Committee meetings
               concerning the 18 license applications in our sample; that Energy’s
               votes were recorded; and that Energy coordinated with the other
               committee members on each of the 18 license applications
               reviewed by the Operating Committee.

ECASS Access   During our review, we observed that some Energy licensing
               officers were unable to access Commerce’s export license
               application database. All chemical and biological license
               applications, in addition to nuclear-related applications, are
               referred to Energy from Commerce via Commerce’s unclassified
               electronic Export Control Automated Support System (ECASS).
               After Energy downloads the application information from ECASS,
               the information is uploaded into Energy’s classified Proliferation
               Information Network System (PINS). The case (application) is
               then assigned by an Energy licensing officer to one or more
               Energy national laboratories for review. Because of classification
               concerns, there is no direct link between ECASS and PINS.
               Accordingly, changes to a case recorded in ECASS after the initial
               download of the case by Energy would not necessarily be known
               by Energy officials.

               Updated information on export license applications can be
               obtained by Energy personnel by either directly contacting
               Commerce officials or accessing ECASS again. Although an
               ECASS terminal is located at Energy headquarters, only one
               Energy licensing officer has password access to ECASS and no
               licensing officers have been trained in the use of the system. We
               were told that Commerce officials have not responded to Energy’s
               repeated requests for training and password assistance on ECASS.




Page 5                                                       Details of Findings
RECOMMENDATIONS   We recommend that the Deputy Administrator, Defense Nuclear
                  Nonproliferation, take appropriate action to ensure that Energy
                  licensing officers:

                  1. Have access to the Department of Commerce’s Export Control
                     Automated Support System; and

                  2. Are properly trained in the use of this system.

MANAGEMENT        Management agreed with our recommendations and will
COMMENTS          implement corrective actions. Management’s comments are
                  provided in their entirety in Appendix D.

INSPECTOR         We found management’s comments to be responsive to our
COMMENTS          recommendations. We coordinated our recommendations
                  regarding Commerce’s Export Control Automated Support System
                  with the Commerce OIG.




Page 6                                                    Recommendations
                                         Management and Inspector Comments
Appendix A

SCOPE AND     We interviewed Federal and contractor Energy officials at Energy
METHODOLOGY   headquarters and the Los Alamos National Laboratory, which
              operates the database used by Energy to process and review export
              license applications. We reviewed Energy and Commerce
              documentation for a sample of 108 export license applications for
              chemical and biological commodities that were submitted to
              Commerce in FY 2003. This sample was selected by the Offices
              of Inspectors General interagency working group. We also
              reviewed relevant export control regulations.

              As part of our review, we evaluated Energy’s implementation of
              the “Government Performance and Results Act of 1993.” We did
              not identify any performance measure issues regarding the review
              of chemical and biological export license applications.

              This inspection was conducted in accordance with the “Quality
              Standards for Inspections” issued by the President’s Council on
              Integrity and Efficiency.




Page 7                                               Scope and Methodology
Appendix B

                   STATUS OF RECOMMENDATIONS FROM PRIOR
                 NATIONAL DEFENSE AUTHORIZATION ACT REPORTS

Section 1204 of the NDAA for Fiscal Year (FY) 2001 amended Section 1402(b) of the NDAA
for FY 2000 to require the specified Offices of Inspectors General (OIGs) to include in each
annual report the status of the implementation or other disposition of recommendations that have
been set forth in previous annual reports under Section 1402(b). To date, five reports have been
completed by the Energy OIG under this requirement. Two reports: “Inspection of Status of
Recommendations from the Office of Inspector General’s March 2000 and December 2001
Export Control Reviews,” INS-L-03-07, May 2003, and “Inspection of the Department of
Energy’s Role in the Commerce Control List and the U.S. Munitions List,” INS-O-01-03, March
2001, did not contain recommendations. The following is the status of the recommendations
from the other reports. Of 13 total recommendations, 12 have been closed.

“Contractor Compliance with Deemed Export Controls,” DOE/IG-0645, April 2004:

Recommendation 1. We recommended that the Director, Office of Security and Safety
Performance Assurance, expedite issuance of a draft unclassified foreign visits and assignments
Order 142.X that addresses training requirements and responsibilities for hosts of foreign
nationals.

Energy management reported that the Office of Security has incorporated all required changes
into DOE Order 142.3, “Unclassified Foreign Visits and Assignments Program,” which was
approved on June 18, 2004. This Order includes the principal roles and responsibilities for hosts
of foreign national visitors and assignees. The Energy OIG determined that DOE Order 142.3
includes training requirements and responsibilities for hosts of foreign nationals.

The Energy OIG agreed to close this recommendation.

Recommendation 2. We recommended that the Deputy Administrator, Defense Nuclear
Nonproliferation, ensure that export control guidance, including deemed export guidance, is
disseminated and is being consistently implemented throughout the Energy complex.

Energy management reported that the National Nuclear Security Administration (NNSA) expects
to issue a new edition of the Energy “Guidelines on Export Control and Nonproliferation,”
updating and expanding the version of the Guidelines last issued in 1999. Proposals from
nonproliferation and export control/technology transfer experts at Energy headquarters and
several national laboratories have been collected and are undergoing final review. The new
edition is to be formally issued under a cover letter from the Deputy Administrator for Defense
Nuclear Nonproliferation reminding all Energy and NNSA elements of their export control
responsibilities and noting export control resources available to the field. It will incorporate
changes in relevant legislation and regulations, insights gained from dealing with various issues,
and expanded and more detailed discussion of problematic issues, such as “deemed exports.” In
addition, NNSA continues to develop an Internal Self-Assessment plan, and has not to date
received a response to its survey from the Office of Science laboratories.



Page 8                                           Status of Recommendations from Prior
                                                 National Defense Authorization Act Reports
The Energy OIG determined that this recommendation should remain open until all corrective
actions are completed.

“Inspection of the Department of Energy’s Automated Export Control System,”
DOE/IG-0533, December 2001:

Recommendation 1. We recommended that the Assistant Deputy Administrator for Arms
Control and Nonproliferation coordinate with Commerce and Treasury to ensure access by
Energy to information within the Automated Export System regarding the purchase and/or
shipment of commodities under an approved export license, and develop guidelines for Energy’s
access to the information.

Energy management reported that NNSA has taken actions as far as its cognizant authority
allows. All remaining actions are contingent on other Government agencies. NNSA
recommended that the interagency OIG group involved with export controls make specific
recommendations to individual agencies in order to effect change. While actions are not
completed, NNSA can no longer report meaningful status.

The Energy OIG agreed to close this recommendation. The Energy OIG will continue to follow
up on these issues through the interagency OIG group.

Recommendation 2a. We recommended that the Assistant Deputy Administrator for Arms
Control and Nonproliferation coordinate with State to improve communications regarding review
of export license applications for munitions commodities.

Energy management reported that NNSA has taken actions as far as its cognizant authority
allows. All remaining actions are contingent on other Government agencies. NNSA
recommended that the interagency OIG group involved with export controls make specific
recommendations to individual agencies in order to effect change. While actions are not
completed, NNSA can no longer report meaningful status.

The Energy OIG agreed to close this recommendation. The Energy OIG will continue to follow
up on these issues through the interagency OIG group.

Recommendation 2b. We recommended that the Assistant Deputy Administrator for Arms
Control and Nonproliferation coordinate with State to ensure access by Energy to information
maintained by State regarding final disposition (i.e., approval/denial of license applications and
the purchase and/or shipment of commodities) of export license applications and develop
guidelines for Energy’s access to the information.

Energy management reported that NNSA has taken actions as far as its cognizant authority
allows. All remaining actions are contingent on other Government agencies. NNSA
recommended that the interagency OIG group involved with export controls make specific
recommendations to individual agencies in order to effect change. While actions are not
completed, NNSA can no longer report meaningful status.



Page 9                                            Status of Recommendations from Prior
                                                  National Defense Authorization Act Reports
The Energy OIG agreed to close this recommendation. The Energy OIG will continue to follow
up on these issues through the interagency OIG group.

“Inspection of the Department of Energy’s Export License Process for Foreign National
Visits and Assignments,” DOE/IG-0465, March 2000:

Recommendation 1. We recommended that the Acting Deputy Administrator for Defense
Nuclear Nonproliferation ensure that senior Energy officials work with senior Commerce
officials to assure clear, concise, and reliable guidance is obtained in a timely manner from
Commerce regarding the circumstances under which a foreign national’s visit or assignment to
an Energy site would require an export license.

Energy management was advised by the Commerce Assistant Secretary for Export
Administration that extensive guidance regarding compliance with the deemed export rule was
available on the Commerce website and that Commerce would continue and strengthen its
outreach training programs for Energy’s National Laboratories.

The Energy OIG agreed to close this recommendation.

Recommendation 2. We recommended that the Director, Office of Security and Emergency
Operations, ensure that a proposed revision of the Energy Notice concerning unclassified foreign
visits and assignments includes the principal roles and responsibilities for hosts of foreign
national visitors and assignees.

Energy management reported that the Office of Security has incorporated all required changes
into DOE Order 142.3, “Unclassified Foreign Visits and Assignments Program,” which was
approved on June 18, 2004. This Order includes the principal roles and responsibilities for hosts
of foreign national visitors and assignees.

The Energy OIG agreed to close this recommendation.

Recommendation 3. We recommended that the Director, Office of Security and Emergency
Operations, include a requirement for Energy and Energy contractor officials to enter required
foreign national visit and assignment information in the Foreign Access Records Management
System, or a designated central data base, in a complete and timely manner.

Energy management reported that a new Energy-wide information system, the Foreign Access
Centralized Tracking System (FACTS), was developed and implemented. Energy further
advised that Draft Order 142.X includes a requirement for Energy sites to enter required foreign
national visit and assignment information into FACTS in a complete and timely manner.

Because Energy management’s corrective action addressed usage of FACTS by all Energy
Federal and contractor employees, the Energy OIG previously agreed to close this
recommendation and track this issue under recommendation 8.




Page 10                                         Status of Recommendations from Prior
                                                National Defense Authorization Act Reports
Recommendation 4. We recommended that the Manager of Energy’s Oak Ridge Operations
Office ensure that requests for foreign national visits and assignments at the Oak Ridge site are
reviewed by the Y-12 National Security Program Office to assist in identifying those foreign
nationals who may require an export license in conjunction with the visit or assignment.

Energy management reported that to ensure requests for foreign national visits and assignments
at the Oak Ridge National Laboratory receive appropriate export license consideration, Oak
Ridge National Laboratory initiated a system of reviews. Under the system, requests are
reviewed by five separate disciplines (Cyber Security, Export Control, Classification,
Counterintelligence, and Security). In addition, requests associated with concerns are referred
for resolution to the Non-citizen Access Review Committee. Energy management further
reported that while each of the reviews can involve the National Security Program Office, the
Oak Ridge National Laboratory Export Control Officer is responsible for referring requests to
the National Security Program Office as necessary.

The Energy OIG agreed to close this recommendation.

Recommendation 5. We recommended that the Director, Office of Security and Emergency
Operations, ensure that the requirements in the revised Energy Notice for unclassified foreign
national visits and assignments are clearly identified and assigned to responsible officials or
organizations.

Energy management reported that the Office of Security has incorporated all required changes
into DOE Order 142.3, “Unclassified Foreign Visits and Assignments Program,” which was
approved on June 18, 2004. This Order includes clear identification of requirements for foreign
national visits and assignments, and identifies responsible officials and organizations.

The Energy OIG agreed to close this recommendation.

Recommendation 6. We recommended that the Acting Deputy Administrator for Defense
Nuclear Nonproliferation ensure that guidance issued by the Office of Nuclear Transfer and
Supplier Policy to advise hosts of their responsibilities regarding foreign nationals includes the
appropriate level of oversight to be provided by the host during the period of the visit or
assignment.

Energy management reported that the Office of Security has incorporated all required changes
into DOE Order 142.3, “Unclassified Foreign Visits and Assignments Program,” which was
approved on June 18, 2004. This Order includes the principal roles and responsibilities for hosts
of foreign national visitors and assignees.

The Energy OIG agreed to close this recommendation.




Page 11                                           Status of Recommendations from Prior
                                                  National Defense Authorization Act Reports
Recommendation 7. We recommended that the Director, Office of Security and Emergency
Operations, revise the Energy policy regarding foreign national visits and assignments to ensure
that Energy sites are maintaining consistent information about foreign nationals visiting or
assigned to work at the site.

Energy management reported that the Office of Security has incorporated all required changes
into DOE Order 142.3, “Unclassified Foreign Visits and Assignments Program,” which was
approved on June 18, 2004. This Order includes the requirement for documentation in FACTS
for all visit and assignment requests in a timely manner.

The Energy OIG agreed to close this recommendation.

Recommendation 8. We recommended that the Director, Office of Security and Emergency
Operations, require that all Energy sites with foreign national visitors or assignees enter
information regarding the visits or assignments into the Foreign Access Records Management
System, or a designated central Energy database.

Energy management reported that the Office of Security has incorporated all required changes
into DOE Order 142.3, “Unclassified Foreign Visits and Assignments Program,” which was
approved on June 18, 2004. This Order includes the requirement that all sites having foreign
national visitors or assignees are required to enter information regarding the visits and
assignments into FACTS.

The Energy OIG agreed to close this recommendation.




Page 12                                         Status of Recommendations from Prior
                                                National Defense Authorization Act Reports
Appendix C
                  PRIOR EXPORT CONTROL RELATED REPORTS


•    “Contractor Compliance with Deemed Export Controls,” DOE/IG-0645, April 2004;

•    “Safeguards Over Sensitive Technology,” DOE/IG-0635, January 2004;

•    “Inspection of Status of Recommendations from the Office of Inspector General’s March
     2000 and December 2001 Export Control Reviews,” INS-L-03-07, May 2003;

•    “The Department’s Unclassified Foreign Visits and Assignments Program,”
     DOE/IG-0579, December 2002;

•    “Follow-up Inspection of the Department of Energy’s Export Licensing Process for
     Foreign National Visits and Assignments,” INS-L-02-06, June 2002;

•    “Inspection of the Department of Energy’s Automated Export Control System,”
     DOE/IG-0533, December 2001;

•    “Inspection of the Department of Energy’s Role in the Commerce Control List and the
     U.S. Munitions List,” INS-O-01-03, March 2001;

•    “Inspection of the Department of Energy’s Export License Process for Foreign National
     Visits and Assignments,” DOE/IG-0465, March 2000;

•    “The Department of Energy’s Export Licensing Process for Dual-Use and Munitions
     Commodities,” DOE/IG-0445, May 1999; and

•    “Report on Inspection of the Department’s Export Licensing Process for Dual-Use and
     Munitions Commodities,” DOE/IG-0331, August 1993.




Page 13                                             Prior Export Control Related Reports
Appendix D




Page 14      Management Comments
                                                                    IG Report No. DOE/IG-0682

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers’ requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report’s overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
Appendix E. Department of State Report




                      E-1
                         UNCLASSIFIED

      United States Department of State
    and the Broadcasting Board of Governors
              Office of Inspector General




                   Report of Audit

  Export Licensing of
Chemical and Biological
    Commodities
Report Number AUD/PR-05-29, April 2005




                             IMPORTANT NOTICE
This report is intended solely for the official use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy
directly from the Office of Inspector General. No secondary distribution may be
made, in whole or in part, outside the Department of State or the Broadcasting
Board of Governors, by them or by other agencies or organizations, without prior
authorization by the Inspector General. Public availability of the document will
be determined by the Inspector General under the U.S. Code, 5 U.S.C. 552.
Improper disclosure of this report may result in criminal, civil, or administrative
penalties.



                          UNCLASSIFIED
                                       UNCLASSIFIED




                                        SUMMARY


     The September 11, 2001, terrorists' attacks against the United States renewed
attention to the importance of U.S. export controls to further our nonproliferation
and other national security goals. The Department of State (Department) registers
and licenses U.S. companies and universities to participate in the export of defense
articles and defense services on the U.S. Munitions List (USML). The Directorate
of Defense Trade Controls, Bureau of Political-Military Affairs (PM/DDTC), in
accordance with the Arms Export Control Act (AECA)1 and the International
Traffic in Arms Regulations (ITAR),2 is charged with controlling the export and
temporary import of defense articles and defense services covered by the USML.
It has among its primary missions taking final action on license applications for
defense trade exports, including chemical and biological commodities and equip-
ment, and handling matters related to defense trade compliance, enforcement, and
reporting.

     The Office of Inspector General (OIG) conducted an audit of the
Department's export licensing process used to help deter the proliferation of
chemical and biological weapons of mass destruction (WMD). This audit was
initiated in response to Section 1402 of the National Defense Authorization Act
(NDAA) for Fiscal Year 2000.3

   OIG found that the export licensing process is working as intended and that the
Department consistently executed its export licensing responsibilities in regard to
chemical and biological commodities in accordance with established policies and
procedures.

   OIG provided a draft copy of this report to the Bureau of Political-Military
Affairs. The bureau reviewed the draft and did not provide any comments.




1
  22 U.S.C. 2778-2780.
2
  22 C.F.R. Parts 120-130.
3
  Pub. L. No. 106-65.


OIG Report No. AUD/PR-05-29, Export Licensing of Chemical and Biological Commodities - April 2005   1 .

                                       UNCLASSIFIED
                           UNCLASSIFIED




2 .   OIG Report No. AUD/PR-05-29, Export Licensing of Chemical and Biological Commodities - April 2005


                           UNCLASSIFIED
                                       UNCLASSIFIED




                                   BACKGROUND


    NDAA requires audits by the Inspectors General of the Departments of Com-
merce, Defense, Energy, and State, in consultation with the Director of Central
Intelligence and the Director of the Federal Bureau of Investigation. The audits
focus on the most significant categories of U. S. technologies and technical infor-
mation with potential military applications.

    Nuclear, biological, and chemical WMD in the possession of hostile states and
terrorists represent one of the greatest security challenges facing the United States.
Sound export controls and licensing operations are essential to preventing the
spread of dangerous WMD technologies.

    PM/DDTC is responsible for controlling the export and temporary import of
defense articles and defense services covered by the USML. PM/DDTC approval
of a license application is required before the export of defense articles or services.
In FY 2003, the Department received 717 license applications for chemical and
biological commodities. These commodities include such items as riot control
masks, anthrax biological threat alert test strips, and instantaneous blast grenades.

    PM/DDTC reviews the license applications against a number of factors,
including:

              •    applicant eligibility,

              •    foreign policy objectives,

              •    stated end-use and end user,

              •    commodity

              •    quantity,

              •    national security interests,

              •    regional stability,




OIG Report No. AUD/PR-05-29, Export Licensing of Chemical and Biological Commodities - April 2005   3 .

                                       UNCLASSIFIED
                                   UNCLASSIFIED



                 •    human rights issues and concerns,

                 •    multilateral agreements and nonproliferation regimes, and

                 •     intelligence information.

          PM/DDTC refers about 30 percent of the applications to other Department
      offices as well as other agencies (e.g., Department of Defense) for their comments
      and recommendations.

         The last time that OIG reported on the licensing process was in a June 1999
      report, Export Licensing (99CI-018). OIG found that, overall, the export licensing
      process was working as intended and that the Department consistently executed its
      export licensing responsibilities in accordance with established policies and proce-
      dures.

          PM/DDTC has had several notable accomplishments since OIG's 1999 review,
      including an expedited licensing process for coalition forces deployed to Afghani-
      stan and Iraq and a special process for arms transfers to Iraq after the transfer of
      sovereignty.




4 .           OIG Report No. AUD/PR-05-29, Export Licensing of Chemical and Biological Commodities - April 2005


                                   UNCLASSIFIED
                                       UNCLASSIFIED




                      OBJECTIVES, SCOPE, AND
                         METHODOLOGY


    OIG's objective was to analyze the files of selected chemical and biological
commodities to determine if the Department executed licensing responsibilities in
accordance with established policies and procedures.

    OIG compared the information contained in the applications against
PM/DDTC's standard operating procedures for licensing requirements. OIG
reviewed a sample of the 717 license applications for chemical and biological
commodities that PM/DDTC received during FY 2003. OIG's original sample
identified 85 files randomly selected from the universe (717) of license applica-
tions. However, OIG was unable to review 30 files contained in the sample be-
cause PM/DDTC had retired the files to an off-site location, which prevented their
timely retrieval. As a result, OIG reviewed 55 files, with a confidence level of 95
percent (plus or minus 5 percent).

    OIG's examination4 included a determination as to whether each export request
in the files contained the required information necessary to make a licensing
decision, including the following:

              •    license number and expiration date,

              •    organization requesting the license,

              •    export item (i.e., pocket grenades),

              •    dollar value of the order,

              •    shipping company,

              •    destination of items,




4
 Some parts of OIG's examination contained classified and or sensitive information, which is omitted
from this report.


OIG Report No. AUD/PR-05-29, Export Licensing of Chemical and Biological Commodities - April 2005      5 .

                                       UNCLASSIFIED
                                   UNCLASSIFIED



                 •    application review by other bureaus and agencies, and

                 •    final disposition (i.e., approved, denied, etc.).



          OIG interviewed PM/DDTC officials and consulted with OIG officials from
      the Departments of Commerce, Defense, Energy, Homeland Security, and the
      Central Intelligence Agency. OIG's Office of Audits, Program Reviews Division
      conducted this audit from August 2004 through January 2005 in the Washington,
      D.C., area. OIG performed this work according to government auditing standards
      and included such tests and auditing procedures as were considered necessary
      under the circumstances.




6 .           OIG Report No. AUD/PR-05-29, Export Licensing of Chemical and Biological Commodities - April 2005


                                   UNCLASSIFIED
                                       UNCLASSIFIED




                                         RESULTS


     From the review of 55 cases, OIG found that PM/DDTC adhered to its export
licensing process. OIG found that the export licensing process is working as
intended and that the Department consistently executed its export licensing respon-
sibilities in regard to chemical and biological commodities in accordance with
established policies and procedures.

    OIG verified that PM/DDTC had initially screened all license applications to
establish that the company submitting the application, commodity involved, the
intended user, and the importing country were eligible to receive an export license.
OIG also confirmed the eligibility of each shipping company for export control
purposes.

    OIG confirmed that PM/DDTC tracked interagency and intra-agency referrals
to ensure it received their responses in a timely manner. PM/DDTC considered
information provided in the referrals in making its licensing decisions and in all
cases accepted the respondents' recommendations. In addition, PM/DDTC did not
make any licensing decisions before receipt of the requested information.

    Finally, the conclusions reached by PM/DDTC personnel were fully supported
by file documentation.




OIG Report No. AUD/PR-05-29, Export Licensing of Chemical and Biological Commodities - April 2005   7 .

                                       UNCLASSIFIED
Appendix F. Department of Agriculture Report




                      F-1
                          U.S. Department of Agriculture

                             Office of Inspector General
                                       Southeast Region




               Audit Report


     Review of Export Licensing Process
for Animal and Plant Health Inspection Service
           Listed Agents or Toxins




                                 Report No. 33601-4-AT
                                            March 2005
                   UNITED STATES DEPARTMENT OF AGRICULTURE
                                    OFFICE OF INSPECTOR GENERAL

                                         Washington D.C. 20250


DATE:          March 31, 2005

REPLY TO
ATTN OF:       33601-4-At

SUBJECT:       Review of Export Licensing Process for Animal and Plant Health
               Inspection Service Listed Agents or Toxins

TO:            W. Ron DeHaven
               Administrator
               Animal and Plant Health Inspection Service

ATTN:          William J. Hudnall
               Deputy Administrator for Marketing Regulatory Program
                 Business Services


This audit was done as part of an interagency review to assess whether the current export licensing
process can help deter the proliferation of chemical and biological commodities. Agencies
participating in the review included the Offices of Inspectors General from the Departments of
Commerce (DOC), Defense, Energy, State, Homeland Security, Health and Human Services, and
Agriculture. In performing the reviews, the participating agencies are examining whether current
licensing and enforcement practices and procedures are consistent with relevant laws and
regulations, and consistent with established national security and foreign policy objectives, such as
those set forth in the President’s National Strategy to Combat Weapons of Mass Destruction, dated
December 2002. The purpose of the reviews also includes an assessment of the effectiveness of
coordination between the various Federal agencies during the export licensing process for these
commodities. We performed this audit in conjunction with our ongoing Evaluation of the
Implementation of the Select Agent or Toxin Regulations by Animal and Plant Health Inspection
Service (APHIS) – Phase II (Audit No. 33601-3-AT).

According to APHIS officials, the U.S. Department of Agriculture (USDA) does not have
regulatory authority for exports. Consequently, APHIS had neither established controls over
exports of animal and plant pathogens, nor coordinated with DOC to establish and implement
export control licensing requirements pertaining to select agents. During our review at 10 selected
entities registered with APHIS, we found that a private research facility exported Highly Pathogenic
Avian Influenza (HPAI) to Hong Kong on two occasions without obtaining the required license
from DOC. An entity official stated that they were not aware of the licensing requirement for
HPAI.
W. Ron DeHaven                                                                                                           Page 2


Even though APHIS has no regulatory authority regarding exports, we concluded that the agency
could help registered entities ensure compliance with all requirements concerning movements,
including exports of dangerous biological agents or toxins by working with DOC to provide the
entities with up-to-date information concerning export licensing requirements. We also
concluded APHIS should notify DOC of any changes to the list of agents or toxins that pose a
severe threat to animals or plants, and work with that agency to help determine whether the
Commerce Control List (CCL)1 should be updated based on APHIS’ changes.

BACKGROUND:

The Public Health Security and Bioterrorism Preparedness and Response Act of 2002, Title II,
Subtitle B,2 was enacted to enhance controls over dangerous biological agents or toxins. The act
requires that the Secretary of Agriculture, through regulations, establish and maintain a list of each
biological agent and each toxin that is determined to have the potential to pose a severe threat to
animal or plant health, or to animal or plant products. It also required that the Secretary establish
procedures to protect animal and plant health, and animal and plant products in the event of a
transfer of biological agents. APHIS was delegated authority to administer the regulations for
USDA.

On December 11, 2002, the President issued the National Strategy to Combat Weapons of Mass
Destruction. The strategy established a comprehensive approach to counter the growing threat from
weapons of mass destruction including, among other things, biological weapons. One aspect of the
strategy is to strengthen export controls to provide for better nonproliferation measures and prevent
terrorists from acquiring such weapons. The United States controls the export of dual-use
commodities for national security, foreign policy, and nonproliferation reasons under the authority
of several different laws. Dual-use commodities are goods and technology determined to have both
civilian and military uses. The primary legislative authority for controlling the export of dual-use
commodities is the Export Administration Act of 1979, as amended.3 Under the act, the DOC’s
Bureau of Industry and Security (BIS) administers the Export Administration Regulations by
developing export control policies, issuing export licenses, and enforcing the laws and regulations
for dual-use exports. The 1979 act4 authorizes BIS to use export controls only after full
consideration of the impact on the economy of the United States and only to the extent necessary to
restrict the export of (1) goods and technology that would make a significant contribution to the
military potential of any other country or combination of countries that would prove detrimental to
the national security of the United States, (2) goods and technology where necessary to further
significantly the foreign policy5 of the United States or to fulfill its declared international


1
  The DOC maintains the CCL to identify items subject to export controls.
2
  Also known as “The Agricultural Bioterrorism Protection Act of 2002.”
3
  The act expired on August 20, 1994, and was reauthorized by Public Law 106-508 (November 13, 2000) until August 20, 2001.
  During the lapse, a national emergency declared under Executive Order 12924 (August 19, 1994), and extended by annual
  Presidential Notices, continued in effect the provisions of the act.
4
  Export Administration Act of 1979, as amended, sec.3; 50 United States Code, app. sec. 2402(2).
5
  According to the act, foreign policy controls expire annually, unless extended by Congress. In order for foreign policy controls
  to be extended, the President must submit a report to Congress explaining why it is necessary for the United States to continue
  to control these items.
W. Ron DeHaven                                                                               Page 3


obligations, and (3) goods where necessary to protect the domestic economy from the excessive
drain of scarce materials and to reduce the serious inflationary impact of foreign demand.

The Australia Group was established in 1985 as a forum of industrialized countries that cooperate in
curbing the proliferation of chemical and biological weapons, by coordinating export controls,
exchanging information, and performing other diplomatic actions. The 38 Australia Group
members have adopted controls on chemical weapons precursors; dual-use chemical manufacturing
facilities and equipment; biological agents used against humans, animals, and plants; dual-use
biological equipment, and related equipment. The United States, using the CCL, regulates all items
controlled by the Australia Group.

OBJECTIVE:

The objectives of our review were to (1) evaluate USDA’s controls to ensure that export licensing
requirements are complied with by entities that are registered to possess and use any of USDA-
defined select agents or toxins or that possess and export any agent on the CCL and (2) evaluate
USDA’s coordination with DOC regarding establishment and implementation of export control
licensing requirements as they pertain to select agents or toxins.

SCOPE AND METHODOLOGY:

We performed this review as part of our audit of APHIS’ Implementation of the Listed Agents or
Toxin Regulations – Phase II (Audit No. 33601-3-AT). We performed work at APHIS
Headquarters in Riverdale, Maryland, and at 10 entities, selected as part of the Phase II audit, that
were registered with APHIS to possess listed agents or toxins. Fieldwork was performed from
November 1, 2004, to February 1, 2005. The audit was performed in accordance with generally
accepted government audit standards.

We interviewed APHIS Headquarters officials to determine (1) what controls, if any, the agency has
over exporting biological agents or toxins and (2) what efforts APHIS had made to coordinate with
DOC when considering which biological agents or toxins to include on the select agent list.

At each of the 10 selected entities, we determined whether the entity (1) has ever exported any of
the biological agents on the CCL; (2) applied for and received an export license from DOC/BIS to
export such biological agents on the CCL (if not, we determined the reason for not obtaining the
license); (3) received guidance concerning biological exports from APHIS, the Centers for Disease
Control and Prevention (CDC) or any other Federal agency; and (4) exported any biological agents
or toxins that were on the APHIS or CDC lists, but were not on the CCL (if so, we determined if the
entities had the required APHIS permits).
W. Ron DeHaven                                                                             Page 4


FINDINGS:

We found that APHIS had not established controls over exports of animal and plant pathogens,
including select agents or toxins on the CCL because the agency did not believe it had regulatory
authority for exports. APHIS regulations require that listed biological agents or toxins may only
be imported or transferred interstate/intrastate by individuals or entities registered to possess,
use, or transfer the particular agent or toxin, and must be authorized by either APHIS or CDC.
The Agricultural Bioterrorism Protection Act of 2002 did not address exports. APHIS officials
said that they referred any exporting license issues to DOC.

Even though the Agricultural Bioterrorism Protection Act of 2002 does not address exports of
dangerous biological agents or toxins posing a severe risk to animals or plants, it does share a
common goal with the National Strategy to Combat Weapons of Mass Destruction. Both the act
and the Strategy are intended to keep dangerous biological materials out of the hands of
terrorists. APHIS regulations control the movement of the dangerous biological agents or toxins
into and through the United States, whereas DOC/BIS controls exports of such agents or toxins.
Researchers must be aware of and comply with all regulations regarding the movement of
dangerous biological material whether within the United States or exports to other countries.
Any violation of either APHIS or DOC/BIS regulations could expose the country to potential
biological attacks by terrorists.

We found that researchers at registered entities were not always familiar with or did not always
follow DOC/BIS exporting requirements. During our site visits, we found that 2 of the
10 entities exported biological agents that were on both the APHIS Select Agent List and the
CCL. One of the two entities exporting agents on both lists had obtained the required DOC
license, the other had not. We also found that a third entity exported an agent on the APHIS list
but not on the CCL at the time of our review. However, the biological agent exported by the
third entity was added to the CCL on December 29, 2004, after our review of the entity. The
following describes the conditions we found at the three entities.

       One of the entities possessed five export licenses for exporting five agents on both the
       CCL and APHIS listed agents or toxins. The entity, a Federal laboratory, had developed
       standard operating procedures (SOP) for shipping biological agents to ensure compliance
       with the various regulations designed to reduce the risk of transmitting diseases to
       humans or animals through accidental exposure and to minimize the threat of the use of
       biological weapons by terrorists. The SOP provided detailed information regarding
       requirements for domestic and international shipments of biological materials, including
       references to the applicable regulations. Included in the SOP was a shipping checklist to
       aid authorized individuals in ensuring that all applicable laws and regulations were
       followed when shipping biological agents or toxins. The checklist included steps to
       determine whether the biological agent or toxin was a select agent, what APHIS or CDC
       permits were required, and whether the pathogen was listed on the CCL and required an
       export certificate.
W. Ron DeHaven                                                                                                      Page 5


         Another entity, a private research facility, exported HPAI to Hong Kong on two
         occasions without obtaining the required license from DOC. An entity official stated that
         they were not aware of the licensing requirement for HPAI. Although the responsible
         official (RO)6 at the entity contacted APHIS personnel concerning export requirements
         prior to the shipments, an apparent miscommunication led him to believe there were no
         licensing requirements for HPAI. In a telephone conversation with an APHIS official on
         May 10, 2004, the RO discussed shipments of vaccine strains outside of the United
         States. The official told the RO that there were no DOC or Department of Transportation
         restrictions for exporting the vaccine. However, the APHIS official was not sure whether
         there were any restrictions regarding the export of APHIS listed agents or toxins. On
         May 11, 2004, the RO spoke with another official concerning exports of the HPAI virus,
         not the vaccine. The second APHIS official stated that APHIS had no restrictions on
         exporting the agent, and that only DOC regulated such exports. Based on the two
         conversations, the RO mistakenly concluded that there were no DOC restrictions on
         exporting the HPAI virus, and so informed the researcher7. The researcher shipped the
         virus to a researcher in Hong Kong on June 4, 2004, and again on August 16, 2004,
         without the required DOC license. HPAI is an extremely infectious and fatal disease for
         chickens. Once established, the disease can spread rapidly from flock to flock. In some
         instances, strains of HPAI viruses can be infectious to people. In 1997 a limited outbreak
         of one strain of HPAI infected 18 people, 6 of whom died.8

         We found that a third entity, a university, had exported Ralstonia solanacearum, race 3,
         biovar 2, to Australia on May 17, 2004. This is a bacterial plant pathogen that infects
         numerous plants, including tomatoes, eggplant, and peppers. It is also a major concern to
         the potato industry because the disease survives well in cold temperatures and renders
         potatoes unmarketable.9 The entity had the required APHIS permits for transportation to
         the port of departure. However, at that time there were no DOC exporting requirements
         for the plant pathogen. On December 29, 2004, the plant pathogen was added to the
         CCL. We contacted the entity on February 1, 2005 to determine whether they were
         aware that the agent had been added to the list. The entity officials were not aware of the
         addition to the CCL, and said that neither APHIS nor DOC had provided any information
         concerning the update to the list. The entity had not exported any of the pathogen since
         December 29, 2004.

We concluded that even though APHIS has no regulatory authority regarding exports, the agency
could help their registered entities ensure compliance with all requirements concerning
movements of dangerous biological agents by working with DOC/BIS to keep the entities up-to-
date on export licensing requirements. This would help accomplish goals of both the
Agricultural Bioterrorism Protection Act of 2002 and the President’s National Strategy to

6
  APHIS regulations (7 Code of Federal Regulations (CFR) 331.5 and 9 CFR 121.6) require that registered entities appoint a RO
  who is responsible for ensuring compliance with the regulations concerning APHIS listed agents or toxins.
7
  The vaccine strain does not require a license, but a license is required for the virus.
8
  Background data taken from APHIS’ Factsheet, entitled “Highly Pathogenic Avian Influenza,” issued March 2004.
9
  Background data taken from APHIS’ Factsheet, entitled “Detection of Ralstonia solanacearum race 3, biovar 2 in the United
  States,” issued March 2003.
W. Ron DeHaven                                                                               Page 6


Combat Weapons of Mass Destruction by ensuring controls are followed to keep dangerous
biological materials out of the hands of terrorists. Therefore, we are recommending that APHIS
work with DOC/BIS to disseminate up-to-date information to entities registered with APHIS.

Of the 54 agents or toxins on APHIS’ list (23 animal pathogens, 21 overlap pathogens, and
10 plant pathogens), 16 are not on the CCL (7 animal pathogens, 1 overlap pathogens, and
8 plant pathogens). Based on discussions with APHIS officials in October 2004, DOC officials
decided to take action to put the remaining 16 animal and plant pathogens onto the CCL.
However, APHIS has not established a protocol to coordinate future additions/deletions to the
CCL with DOC. In addition to the initial list of biological agents or toxins posing a severe risk
to animal or plants, published by APHIS on August 12, 2002, the Agricultural Bioterrorism
Protection Act of 2002 requires that the list be reviewed biennially, or more often if needed, and
revised. Because APHIS has been tasked with periodically reviewing and updating the list of
agents or toxins posing a severe threat to animal or plant health, or animal or plant products, we
are recommending that the agency notify DOC/BIS of any changes to the list and discuss the
potential need to also update the CCL.

RECOMMENDATION 1:

Work with DOC/BIS to disseminate, and keep current, CCL export requirements to registered
entities to help ensure that all controls regarding movement of biological agents or toxins that pose
a severe threat to animals and plants are followed.

AGENCY RESPONSE:

In its March 29, 2005 (see exhibit A), response, the agency stated:

       APHIS will work with the * * * [DOC] and its * * * BIS to disseminate, and keep
       current, the * * * [CCL] export requirements to registered entities, to help ensure
       that all controls regarding movement of biological agents or toxins that pose a
       severe threat to animals and plants are followed. We will investigate adding a
       “ * * * [DOC], BIS” hyperlink to our Select Agent Program website.

OIG POSITION:

In order to reach management decision, please describe the process by which APHIS will
coordinate with DOC to disseminate and keep current the CCL export requirements to registered
entities, and the estimated timeframes for implementing the process.
W. Ron DeHaven                                                                               Page 7


RECOMMENDATION 2:

Notify DOC/BIS of changes to the list of agents or toxins posing a severe risk to animals or plants,
and work with that agency to help determine whether the CCL should be updated based on APHIS
changes.

AGENCY RESPONSE:

In its March 29, 2005 (see exhibit A), response, the agency stated:

       APHIS will notify the * * * [DOC] and BIS of changes to the list of agents or
       toxins posing a severe risk to animals or plants. We will continue to work with
       the * * * [DOC] and BIS to determine whether the * * * [CCL] should be
       updated based on our periodical review and/or changes.

OIG POSITION:

In order to reach management decision, please provide information describing the process (e.g.,
memorandum of understanding or coordinating procedures) that will be established to coordinate
with DOC regarding updates of APHIS’ listed agents or toxins, and the estimated timeframes for
implementing the process.

In accordance with Departmental Regulation 1720-1, please furnish a reply within 60 days
describing the corrective action taken or planned and the timeframes for implementation. Please
note that the regulation requires management decision to be reached on the finding and
recommendation within a maximum of 6 months from report issuance, and final action be taken
within 1 year of management decision.

We appreciate the courtesies and cooperation extended to our staff during this review.



/S/
ROBERT W. YOUNG
Assistant Inspector General
  for Audit
EXHIBIT A- AGENCY RESPONSE
Informational copies of this report have been distributed to:

Administrator, APHIS (9)
       ATTN: Agency Liaison Officer
Government Accountability Office (1)
Office of Management and Budget (1)
Office of the Chief Financial Officer (1)
       Director, Planning and Accountability Division
